<html>
<title> - HEARING ON H.R. 100, H.R. 2370, AND S. 210</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
               HEARING ON H.R. 100, H.R. 2370, AND S. 210

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 100

 GUAM COMMONWEALTH ACT, TO ESTABLISH THE COMMONWEALTH OF GUAM, AND FOR 
                             OTHER PURPOSES

                               H.R. 2370

GUAM JUDICIAL EMPOWERMENT ACT OF 1997, TO AMEND THE ORGANIC ACT OF GUAM 
  FOR THE PURPOSES OF CLARIFYING THE LOCAL JUDICIAL STRUCTURE AND THE 
                       OFFICE OF ATTORNEY GENERAL

                                 S. 210

TO AMEND THE ORGANIC ACT OF GUAM, THE REVISED ORGANIC ACT OF THE VIRGIN 
    ISLANDS, AND THE COMPACT OF FREE ASSOCIATION ACT, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                   OCTOBER 29, 1997, WASHINGTON, DC.

                               ----------                              

                           Serial No. 105-78

                               ----------                              

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-318 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
           T.E. Manase Mansur, Republican Professional Staff
        Marie J. Howard-Fabrizio, Democratic Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held October 29, 1997....................................     1

Statement of Members:
    Abercrombie, Hon. Neil, a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................    10
    Akaka, Hon. Daniel K., a Senator in Congress from the State 
      of Hawaii..................................................     7
    Becerra, Hon. Xavier, a Representative in Congress from the 
      State of California........................................    10
        Prepared statement of....................................    11
    Christian-Green, Hon. Donna M., a Representative in Congress 
      from the State of Virgin Islands, prepared statement of....    37
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from the 
      Territory of American Samoa, prepared statement of.........    36
    Hill, Hon. Rick, a Representative in Congress from the State 
      of Montana, prepared statement of..........................   100
    Inouye, Hon. Daniel K., a Senator in Congress from the State 
      of Hawaii, prepared statement of...........................    39
    Kennedy, Hon. Patrick J., a Representative in Congress from 
      the State of Rhode Island, prepared statement of...........    39
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii............................................     8
        Prepared statement of....................................     9
    Ortiz, Hon. Solomon P., a Representative in Congress from the 
      State of Texas, prepared statement of......................    37
    Smith, Hon. Robert F. (Bob), a Representative in Congress 
      from the State of Oregon, prepared statement of............    40
    Underwood, Robert A., a Representative in Congress from the 
      Territory of Guam..........................................     2
        Prepared statement of....................................     3
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................    20
        Letter to President Clinton..............................    20
        President Clinton's answering letter.....................    23

Statement of Witnesses:
    Ada, Hon. Joseph F., former Governor of Guam.................    45
        Prepared statement of....................................   169
    Ada, Thomas C., Senator, and Guerrero, Lou Leon, Senator, 
      24th Guam legislature, prepared statement of...............   257
    Apuron, Anthony S., Archbishop, Archdiocese of Agana.........    89
        Prepared statement of....................................   331
    Arriola, Joaquin C. Jr., President, Guam Bar Association, 
      prepared statement of......................................   238
    Barrett-Anderson, Hon. Elizabeth, a Senator from Guam, 
      prepared statement of......................................   347
    Blaz, Hon. Anthony, Vice Speaker, Guam Legislature...........    63
        Prepared statement of....................................   187
    Blaz, Hon. Ben, former Delegate, U.S. House of 
      Representatives............................................    12
        Prepared statement of....................................    13
    Calvo, Hon. Paul M., former Governor of Guam.................    43
        Prepared statement of....................................   138
    College of the Marshall Islands and Palau Community College, 
      prepared statement of......................................   309
    Cristobal, Hope A., Organization of People for Indigenous 
      Rights.....................................................    86
    Doss, Darrell O., prepared statement of......................    99
    Draft Guam Commonwealth Act, Sections A through D............   407
    Filipino-American President's Club of Guam, prepared 
      statement of...............................................   304
    Forbes, Hon. Mark, Senate Majority Leader and Chairman, 
      Senate Committee on Federal Affairs, Guam Legislature......    65
        Prepared statement of....................................   192
    Garamendi, Hon. John R., Deputy Secretary, U.S. Department of 
      the Interior...............................................    23
        Prepared statement of....................................   104
    Guam Chamber of Commerce, prepared statement of..............   288
    Guam Commission on Self-Determination, prepared statement of.   370
    Guerrero, Hon. Carlotta Leon, Senator, Guam Legislature, 
      prepared statement of......................................   258
        Prepared statement of....................................   396
        Additional material submitted for the record by..........    98
    Guevara, Jose, Vice President, Filipino Community of Guam....    90
    Gutierrez, Hon. Carl T.C., Governor of Guam..................    41
        Prepared statement of....................................   147
        Additional material submitted for the record by..........   381
    Howard, Chris Perez, Chairman, Organization of People for 
      Indigenous Rights..........................................    87
        Prepared statement of....................................   319
    Lamorena, Hon. Alberto C., III, Presiding Judge, Superior 
      Court of Guam..............................................    71
        Prepared statement of....................................   221
    Lujan, Pilar C., prepared statement of.......................   233
    McDonald, Hon. Paul M., Mayor, President, Mayor's Council of 
      Guam, prepared statement of................................   176
    Moses, Susan J., President, College of Micronesia-FSM, 
      prepared statement of......................................    84
    Nicolas, Frank C. San, Tamuning, Guam, prepared statement of.   344
    Organization of People for Indigenous Rights, prepared 
      statement of...............................................   313
    Pangelinan, Hon. Ben, Senate Minority Leader, Guam 
      Legislature................................................    67
        Prepared statement of....................................   199
    Quinata, Debtralynne K., Nasion Chamoru......................    91
        Prepared statement of....................................   333
    Quinene, Frederick R., GMF, Guam, prepared statement of......   299
    Rivera, Ron, prepared statement of...........................    98
    Siguenza, Hon. Peter, Chief Justice, Supreme Court of Guam...    69
        Prepared statement of....................................   100
        Additional material submitted for the record by..........   211
    Staymen, Allen, Director, Office of Insular Affairs, U.S. 
      Department of the Interior.................................    32
        Prepared statement of....................................   134
    Troutman, Charles H., Attorney General of Guam (Acting), 
      prepared statement of......................................   240
    Tydingco-Gatewood, Hon. Frances M., Judge, Superior Court of 
      Guam, prepared statement of................................   236
        Additional material submitted for the record by..........   526
    Unpingco, Hon. Antonio R., Speaker, Twenty-Fourth Guam 
      Legislature, prepared statement of.........................   389

Additional material submitted:
    Title 48, United States Code Annotated.......................   102


     HEARING ON: H.R. 100, GUAM COMMONWEALTH ACT, TO ESTABLISH THE 
              COMMONWEALTH OF GUAM, AND FOR OTHER PURPOSES



H.R. 2370, GUAM JUDICIAL EMPOWERMENT ACT OF 1997, TO AMEND THE ORGANIC 
ACT OF GUAM FOR THE PURPOSES OF CLARIFYING THE LOCAL JUDICIAL STRUCTURE 
                   AND THE OFFICE OF ATTORNEY GENERAL



 S. 210, TO AMEND THE ORGANIC ACT OF GUAM, THE REVISED ORGANIC ACT OF 
 THE VIRGIN ISLANDS, AND THE COMPACT OF FREE ASSOCIATION ACT, AND FOR 
                             OTHER PURPOSES

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 1997

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room 1324, Longworth House Office Building, Hon. Rick Hill 
presiding.
    Mr. Hill. [presiding] The Committee on Resources will come 
to order.
    The Committee is meeting today to hear testimony on 
legislation affecting the insular areas, including measures 
providing for increased self-government for Guam. The pending 
legislation being considered today includes H.R. 100, the Guam 
Commonwealth Act, H.R. 2370, the Guam Judicial Empowerment Act, 
and S. 210, the Omnibus Territories Act.
    Under Rule 4(g) of the Committee rules, any oral opening 
statements at hearings are limited to the Chairman and the 
Ranking Minority Member. This will allow us to hear from our 
witnesses sooner and help members keep to their schedules. 
Therefore, if other members have statements, they can be 
included in the hearing record under unanimous consent.
    It is a pleasure today to welcome the distinguished 
witnesses for today's hearings on certain measures affecting 
some of our United States territories and the separate, 
sovereign freely associated States. These issues affecting U.S. 
Nationals and citizens in the territories, as well as residents 
of the Pacific freely associated re-

publics, are part of the unique and important jurisdiction of 
the Committee on Resources for the insular areas. That is why 
Chairman Young scheduled these hearings on matters which could 
provide for increased local self-governance for the people of 
the insular areas.
    Let me thank the witnesses from the distant Pacific islands 
for agreeing to appear before the committee. You've traveled 
thousands of miles to testify, and your efforts are 
appreciated. You are providing a substantial set of information 
for the committee record. Your statements have been provided 
for review by all of the committee members and will be 
available for all of those in the Congress, as well, who are 
not members of the committee or are not here today.
    One of the primary purposes of this hearing is to assist 
the insular areas, including Guam, in advancing toward greater 
local self-government. The statements by the witnesses today 
will help Congress in evaluating the merits of the proposals 
contained in S. 210, the omnibus territories act, H.R. 2370, 
the Guam Judicial Act, and H.R. 100, the Guam Commonwealth Act.
    I will now recognize the ranking member for an opening 
statement.

STATEMENT OF ROBERT A. UNDERWOOD, A REPRESENTATIVE IN CONGRESS 
                   FROM THE TERRITORY OF GUAM

    Mr. Underwood. Thank you, Mr. Chairman. I'd like to welcome 
everyone to the committee, and I appreciate, certainly, the 
appearance of not only a very large delegation from Guam, but 
also three members of the body.
    Mr. Chairman, today is a momentous day for the people of 
Guam after a long and sometimes erratic journey. The proposal 
of the people of Guam for a new Commonwealth agreement has come 
back to the committee where its disposition will ultimately be 
determined.
    I will leave it up to the many fine speakers today, most 
especially the elected leadership of Guam, to explain the 
details of the proposal and the trials and tribulations the 
proposal has endured since its ratification by the people of 
Guam in 1987.
    The proposal in its current numbering in the 105th Congress 
is H.R. 100, in commemoration of the fact that next year marks 
the centennial of the raising of the American flag over Guam. 
When that flag was raised in 1898, it was raised over a few 
Spanish nationals and the indigenous people of Guam. Since that 
time, the people of Guam have endured U.S. military rule, a 
cruel Japanese occupation, the taking of large tracts of land, 
and the violation of many of the democratic principles we hold 
dear.
    But the people of Guam have also prospered in spite of the 
obstacles, they have learned the lessons of American democracy 
even if they could not fully implement them, and have enjoyed 
much political progress. The people of Guam are ready to go to 
the next stage in their political development. There is no more 
appropriate place in Washington where these issues and those 
challenges should be fully explored than in this committee 
room. There is no other location in Washington which displays 
the flags of the insular areas as a critical part of the room.
    The Resources Committee alone has the responsibility to 
deal with insular issues. The people of Guam come to this 
committee as partners in the democratic experiment we call 
America. They appeal to you as arbiters of their fate. The 
message will be that the people of Guam want Commonwealth, and 
that they are frustrated by the lack of clarity in the process. 
Some messages will be strong, some will be strident, and some 
won't even be in support of H.R. 100, but all messages are 
being delivered to the right location--the Resources Committee 
of the House.
    Many of us are familiar with various quotations which are 
on the walls and ceilings of the Capitol Building. My favorite 
is from William Henry Harrison, who said in his Presidential 
inaugural address on March 4, 1841 that, quote, ``The only 
legitimate right to govern is an express grant of power from 
the governed.''--unquote. We all know that this is not the case 
with the territories, and maybe President Harrison knew 
something of this experience. As the elected representative of 
the Northwest Territory, he was the first territorial delegate 
to be elected President. So it can happen for even territorial 
delegates, Mr. Chairman.
    Mr. Chairman, I commend you for your leadership in holding 
this hearing this morning, and I thank the members of the 
committee for their attention. And on behalf of the people of 
Guam, [speaking in Chamorro] ``Dangkolo na si Yu'os ma'ase.''
    [The prepared statement of Mr. Underwood follows:]

  Statement of Hon. Robert Underwood, a Delegate in Congress from the 
                     Territory of Guam, on H.R. 100

    Mr. Chairman, today is a momentous day for the people of 
Guam. After a long and sometimes erratic journey, the proposal 
of the people of Guam for a new, Commonwealth agreement with 
the United States has come back to the Committee where its 
disposition will be ultimately determined.
    I will leave it up to the many speakers today, most 
especially the elected leadership of Guam, to explain the 
details of this proposal and the trials and tribulations the 
proposal has endured since its ratification by the people of 
Guam in 1987.
    The proposal in its current numbering in the 105th Congress 
is H.R. 100--in commemoration of the fact that next year marks 
the Centennial of the raising of the American flag over Guam. 
When that flag was raised in 1898, it was raised over a few 
Spanish nationals and the indigenous people of Guam, the 
Chamorros.
    Since that time, the people of Guam have endured U.S. 
military rule, a cruel Japanese occupation, the taking of large 
tracts of land under military courts and the violation of many 
of the democratic principles we hold dear. But the people of 
Guam have also prospered despite obstacles, learned the lessons 
of American democracy even as they could not fully implement 
them and enjoyed much political progress. In 1898, not too many 
could have imagined that the people of Guam would have the 
vibrant democracy in gubernatorial and legislative elections 
that are now a regular feature of life.
    The people of Guam are ready to go to the next stage in 
their political development. Cognizant of the fact that the 
ultimate decision for full integration as a state or separate 
sovereignty may be a little distant, the people of Guam have 
crafted an innovative approach to the implementation of 
democracy in a small territory on the other side of the 
international dateline. The proposal admittedly raises many 
Constitutional issues and challenges us to think counter 
intuitively about the relationship between the territories and 
the Federal Government.
    But there is no more appropriate place in Washington where 
these issues and these challenges should be fully explored than 
this Committee room. There is no other location on Capitol Hill 
which displays the flags of the insular areas as a central part 
of the room. The Resources Committee alone has a responsibility 
to deal with insular issues. The people of Guam come to this 
Committee as partners in the democratic experiment we call 
America. They appeal to you as the arbiters of their fate. The 
message will be that the people of Guam want Commonwealth, but 
that they are frustrated by the lack of clarity in the process. 
Some messages will be strong, some will be strident and some 
won't even be supportive of H.R. 100, but all messages are 
being delivered to the right location--the Resources Committee 
of the House.
    Many of us are familiar with various quotations which are 
on the walls and the ceilings of the Capitol Building. My 
favorite was from William Henry Harrison, who said in his 
Presidential inaugural address on March 4, 1841, that ``the 
only legitimate right to govern is an express grant of power 
from the governed.'' We all know that this is not the case with 
the territories. Maybe President Harrison knew something of 
this experience. As the elected representative of the Northwest 
Territory, he was the first territorial delegate to be elected 
President.
    Mr. Chairman, I commend you for your leadership in holding 
this hearing this morning. I thank the other members of the 
Committee for their attention and on behalf of the people of 
Guam--Dangkulo na si Yu'os ma'ase.
                                ------                                


  Statement of Hon. Robert Underwood, a Delegate in Congress from the 
                    Territory of Guam, on H.R. 2370

    Mr. Chairman, I am pleased that H.R 2370 is being heard by 
the full Committee this morning. H.R 2370, the Guam Judicial 
Empowerment Act will do much to correct current defects in the 
Organic Act of Guam relative to the Judicial Branch of the 
Government of Guam. As you know, the Organic Act of Guam 
afforded Guam a certain degree of local self-government. Over 
the years, the Act was amended to provide the people of Guam 
with an elected Governor, has improved other systems of local 
self-government, and has made accommodations for an elected 
Board of Education.
    My legislation is consistent with this development. It 
seeks to affirm that the Supreme Court of Guam is the head of a 
unified judiciary. It confirms that the Supreme Court has 
authority over the administration of the Court System, 
including the subordinate courts of Guam. But most of all, it 
ensures that the judiciary is separate and co-equal to the 
other branches of our government. It affords the Judiciary the 
same Organic Act status given the Legislative and executive 
branches. It is necessary to pass this bill, to remove the 
possibility of political influence over the judiciary. 
Currently, the local law which created the Supreme Court can be 
repealed by the local legislative process. It is unconscionable 
that there remains an opportunity to influence Court decisions 
and so it is imperative that we invest integrity in the Guam 
judiciary.
    The legislation brings the Guam Courts to a level that is 
standard with the other states and territories. It establishes 
a framework that is consistent with the powers of the other 
branches of Guam's government and does much to empower our 
people.
    There is wide public support for this legislation. The Guam 
Bar Association, which is a non-profit organization that 
represents all attorneys licensed in Guam, has endorsed this 
section and has submitted an official statement. The 
legislation is also endorsed by Charles Trouhnan, the Guam 
Compiler of Laws and the Acting Attorney General; the Honorable 
Judge Frances Tydingco-Gatewood of the Superior Court of Guam; 
and the Honorable Pilar C. Lujan, former Guam Senator and 
sponsor of the law that established the Supreme Court of Guam.
    The second part of my bill seeks to empower the Guam 
Legislature to provide the people of Guam with an elected 
Attorney General. Mr. Chairman, several months ago, my office 
conducted a questionnaire on this issue. Although the 
questionnaire is only a measure of public opinion on this 
matter, my office received nearly four thousand responses. Of 
those responses, 32 percent were in favor of language that 
would mandate an Elected Attorney General, 37 percent were in 
favor of language that would authorize the Guam Legislature to 
create an Elected Attorney General, and 24 percent were in 
favor of continuing the current system, an appointed Attorney 
General.
    I firmly believe that the decision to provide the island 
with an Elected Attorney General should be made in Agana rather 
than in Washington. I do not support mandating an Elected 
Attorney General and I believe that this language will directly 
empower the people of Guam.
    I am pleased that the Administration is in support of this 
legislation. I hope that the Committee will take expedient 
action on this critical measure. I look forward to working with 
you to advance the legislation and I thank my dear colleagues, 
Congressmen George Miller and Neil Abercrombie for agreeing to 
be original co-sponsors of the legislation. I encourage my 
other colleagues to do the same.
                                ------                                


  Statement of Hon. Robert Underwood, a Delegate in Congress from the 
                      Territory of Guam, on S. 210

    Mr. Chairman, Section 4 of S. 210 addresses the issue of 
the return of excess lands to Guam. I introduced similar 
legislation in the 104th Congress and again in the current 
Congress. Senator Murkowski, the Chairman of the Senate 
oversight committee for the territories, also included a Guam 
land return provision in the Omnibus Territories legislation 
which nearly passed the Senate last year. Both my bill and 
Senator Murkowski's bill are significant in that, for the first 
time ever, Congress will extend authority to the Government of 
Guam to have the right of first refusal of any real property 
declared excess by the Federal Government.
    The Guam land return provision of S. 210 is important also 
in that it establishes a reasonable process for dealing with 
excess lands now and in the future. The lands taken were used 
to promote national security interests during and after World 
War II. Now that the cold war is over and the military has been 
downsizing in the past several years, there has been an 
assumption in Guam that the lands declared excess to military 
needs would be returned to Guam.
    The passage of this provision of S. 210 is necessary in 
order to change current law governing the disposal of excess 
lands. Current law allows other Federal agencies to take any 
available excess lands in the Federal Government's inventory. 
This is nothing more than a repeat of the post World War II 
takings engaged in by the U.S. military. S. 210 would avoid 
this continuing injustice by putting Guam ahead of any Federal 
agency for acquiring these excess lands.
    In previous hearings on land issues and in numerous 
meetings which I have had with military officials in Guam and 
in Washington, the military clearly stated that they are not in 
the business of being landlords once they declare lands excess 
to their defense needs. Once the declaration of excess is made, 
the title should transfer directly to Guam not to a Federal 
agency.
    Mr. Chairman, I want to emphasize two major concerns I have 
with the land provision in the Senate-passed version of S. 210.
    Firstly, I strongly oppose the condition of transfer which 
requires that Guam pay fair market value for excess lands for 
other than public purposes. Neither my bill, nor the original 
version of S. 210, impose the payment of fair market value. 
Given the historical takings of land in Guam and the fact that 
real property is scarce in a small island such as ours, the 
people of Guam oppose the payment of fair market value. 
Requiring Guam to pay for the lands today ignores the 
historical land takings. At the time of the land takings, the 
island of Guam was under a military justice system. The 
civilian community was at a marked disadvantage and many of the 
land transactions were suspect. To continue to promote fair 
market value reflects a myopic view of the land takings on Guam 
and does not take into account the cultural values associated 
with the ownership of land.
    When the Committee takes up this legislation, I will work 
to delete or amend the fair market provision. If this provision 
is not changed in committee or on the House floor, I will 
oppose the land return provisions of S. 210.
    Secondly, I urge the Committee to clarify the definition of 
public benefit use. The legislative history for the return of 
excess lands to Guam should reflect that once title transfers 
to the Government of Guam, Guam makes the decision as to the 
appropriate public benefit use of the land. Such a decision may 
permit the consideration of local customs and local needs. 
Currently, S. 210 points to the statutory definition of public 
purpose found in Section 203 of the Federal Property Act and to 
other public benefit uses provided under the Guam Excess Lands 
Act (Public Law 103-339). What is not clear in the proposed 
legislation is what types of actions the Government of Guam can 
undertake to provide the resettlement of the local people who 
were displaced by the earlier Federal takings of land. We need 
to clarify whether the Chamorro Land Trust Commission can be 
the recipient of the returned excess lands and whether the 
commission can devise a resettlement program for original 
landowners which can adequately address the inequities of the 
original land takings.
    The decision on what constitutes public benefit uses of the 
returned lands is properly the responsibility of the Government 
of Guam. Guam has local needs based upon local customs and 
values. This will provide Guam with the flexibility to devise a 
number of acceptable uses which will benefit the people of 
Guam. This also will put the original landowners' concerns 
among the mix of how Guam implements its land policies and its 
land use plan.
    Mr. Chairman, the people of Guam must strongly object to 
the exemptions called for in Section 4, subsection (d)(l). This 
section deals with lands currently leased to the Coast Guard 
from the U.S. Navy, as well as lands they have identified for 
expansion. Over the past four years our people have endured the 
pain of a downsizing military complex. It never occurred to 
many in Guam that the military would ever reduce its presence 
in the area. However, the Base Alignment and Reuse Committee 
(BRAC) ruling required the Navy to re-align its activities to 
become more efficient. Try as we could to save the only U.S. 
Naval shipyard in the western Pacific, SRF Guam was slated for 
closure.
    Today, the fruits of a cooperative effort between Guam's 
Local Reuse Authority (LRA) and the Navy has resulted in the 
shipyard's conversion to a privately run facility. Over the 
course of several months, LRA and Naval officials worked in 
close cooperation to develop a reuse plan which would meet the 
needs of both entities. Both parties were quite aware of the 
regulations governing each step in the process as outlined in 
BRAC law. BRAC law was created by the Congress as a means by 
which needs assessment reviews of existing military bases could 
be conducted without political influence. Both Navy and the LRA 
continue to work within this framework.
    Part of the process in planning for the reuse of BRAC 
properties required the Navy to provide for Federal Screening 
which notifies other Federal entities of the Navy's intention 
to declare lands excess. This was in fact completed with no 
responses. It was not until well after the expiration of the 
screening process that the Coast Guard indicated its wish to 
acquire additional properties. With this knowledge, the LRA 
contacted the Coast Guard in writing with a proposal to enter 
into a long-term lease agreement at no cost for all the 
properties that the Coast Guard currently occupies as well as 
any additional properties they need, but apparently that has 
not satisfied them. Ownership of the property seems to be the 
only rationale for the Coast Guard's pursuit of a change in law 
calling for the exemption from the Federal screening process.
    It is our view that the provision be denied. The issue is 
not whether the Coast Guard is deserving of the property. The 
issue boils down to whether they should be exempted from the 
provisions of law with which every community facing a base 
closure must comply. From Guam's perspective, the Navy made 
great efforts to become more efficient. Victor Wharf was 
declared excess and Federal screening took place with no 
expression of interest from any quarter. The Coast Guard has 
decided, after the fact, to acquire land and they come before 
Congress now with special interest legislation. This isn't 
right. It also opens Congress' door to similar legislation by 
other Federal agencies who have also missed the boat. The 
Government of Guam fully intends to cooperate with the Coast 
Guard; there is written documentation that bears this out. But 
Mr. Chairman, the Government of Guam feels that the long term 
needs of the Coast Guard would be better served if Guam retains 
ownership of the properties in question and grants the Coast 
Guard a long-term, no-cost lease.
    Mr. Chairman, on S. 210's provision regarding compact-
impact reporting, there is general agreement that the current 
procedure governing the preparation and submission of the 
report of adverse impact as a result of the Compacts of Free 
Associations has been extremely problematic for all the insular 
territories. This amendment would now shift the responsibility 
for the preparation of the report of adverse impact, from the 
Administration to the Governor's of any Territory; Commonwealth 
and the State of Hawaii. The proposal identifies the Department 
of Interior as the agency responsible for filing the report 
with Congress to include comments from the administration. The 
Department of Interior would be responsible for funding, either 
directly or through their technical assistance mechanism, a 
census of Micronesians no greater than five (5) years from each 
decennial United States census or every fifteen (15) years, at 
a cost of not more than $300,000 in any year.
    Mr. Chairman, the people register their objection to the 
proposal as currently written. Shifting the burden for the 
preparation of the report from the Department of Interior would 
be acceptable if it included the provision that would mandate 
that the report be filed with the appropriate authorizing and 
appropriating committee in Congress with a recommended level of 
funding. This amendment fails to identify a mechanism where 
impacted jurisdictions would petition for the financial 
reimbursement of any adverse impact. The mere filing of the 
report without identifying the appropriate committee in 
Congress to accept and dispose of the report findings leaves 
much to assumption. Furthermore, given the long interval 
between census taking (30 years); limiting funding for the 
census to no more than $300,000 may be too restrictive in that 
it is hard to project economic forces that may adversely affect 
the Department of Interior's ability to perform the census.
    Finally Mr. Chairman, I would like to announce my intention 
to seek a transfer of title of property currently held jointly 
by the U.S. Department of Education and the Guam Community 
College. I will pursue this in the form of an amendment to S. 
210. The property in question was deemed excessed by the 
Department of Defense years ago. Title was granted to both the 
U.S. Department of Education and the Guam Community College for 
a new campus. Although Guam Community Col-

lege continues to plan construction for this new campus, it 
currently does not have the financial resources to begin 
immediate construction. As a result, the U.S. Department of 
Education has given the Guam Community College several options. 
The U.S. Department of Education has suggested that Guam 
Community College give up joint title of the property or be 
assessed rental fees. It is important that the property is 
safeguarded for the future use of the Guam Community College 
and that may be accomplished by a clear transfer of title.
    Mr. Chairman, thank you for your consideration and your 
willingness to engage Guam in these matters. I appreciate your 
disposition concerning Federal lands and hope that the 
legislation will be properly amended.

    Mr. Hill. I thank the gentleman. I will now introduce our 
first panel of witnesses: Senator Daniel Akaka, Congresswoman 
Patsy Mink, former Delegate Ben Blaz, and when he arrives, 
Congressman Xavier Becerra.
    I'd like to remind the witnesses that under our committee 
rules they must limit their oral statements to 5 minutes, but 
their entire statements will appear in the record. We'll also 
allow the entire panel to testify before questioning the 
witnesses.
    The Chair will now recognize Senator Akaka to testify.

  STATEMENT OF THE HONORABLE DANIEL K. AKAKA, A UNITED STATES 
                SENATOR FROM THE STATE OF HAWAII

    Senator Akaka. Thank you very much, Chairman Hill, and I 
thank the members of the committee for holding this hearing. I 
am delighted to be here this morning to add my voice to this 
bill.
    I also want to welcome our friends from Guam, The Honorable 
Carl Gutierrez, Governor of Guam; also, The Honorable Joseph 
Ada, former Governor; The Honorable Paul Calvo, also a former 
Governor; The Honorable--of course, good friend up there--
Robert Underwood, the congressional delegate, and The Honorable 
Ben Blaz, the former congressional delegate, and many others 
from Guam, those for and those who are probably against this 
bill. It's great to have all the voices here this morning.
    Mr. Chairman, I'm here to urge the members of this 
committee to support Guam's efforts to improve its political 
relationship with the Federal Government by seeking 
Commonwealth status. I come here as a fellow Pacific islander 
and someone who cares deeply about the political future of the 
island of Guam and the people of Guam.
    Much has been said over the last decade about unresolved 
provisions in the Guam Commonwealth Act, yet, little has been 
said about the contributions and sacrifices that the people of 
Guam have made to this country and to the need for the Federal 
Government to be honest about Guam's political future. It is 
incumbent upon the Congress to deal frankly with the people of 
Guam and let them know where things stand and what can and 
cannot be done at this point in time.
    The people of Guam should not be held hostage by changing 
U.S. negotiators under different administrations. While the 
Clinton administration has made progress on Guam Commonwealth 
negotiations, discussions on political status should be 
conducted in a more timely fashion. It is notable that Guam is 
represented today by several Republican and Democratic leaders, 
including present and past Governors and delegates. Such 
bipartisanship on an issue should be commended.
    It should also send a signal to the Federal Government that 
the people of Guam are united, united in their quest for 
Commonwealth status. As this nation commemorates the 100th 
anniversary of the U.S. acquisition of Guam next year, it would 
be fitting if we provide the people of Guam with a better 
process to pursue Commonwealth negotiations. I look forward to 
working with you and other Members of Congress to move this 
process forward.
    Lastly, Mr. Chairman, I would also like to add my support 
for provisions in S. 210, of which I am a co-sponsor, which 
provide for the transfer of Federal excess lands in Guam. 
Congressman Underwood and Governor Gutierrez have done a 
tremendous job advocating for the transfer of Federal excess 
lands to the people of Guam. With one-third of Guam controlled 
by the Defense Department, I think that its people have more 
than shouldered their burden as part of national security in 
the Asia-Pacific region.
    But fair is fair. Guam is just a little over 200 square 
miles in size. It is 30 miles long and 9 miles wide. It is high 
time that the Federal Government provide the Government of Guam 
with the flexibility to utilize lands that are no longer needed 
for national security purposes. I have visited Guam numerous 
times since World War II. Most recently, I visited the island 
last year with Senator Murkowski. I'm impressed with the level 
of political and economic development which has allowed the 
local government to be less dependent on Federal assistance, 
while providing greater economic opportunities for its people. 
This is what our country is all about.
    I encourage members of this committee to visit Guam and 
find out for yourselves how Federal policies affect this 
Pacific territory. You will find a proud and industrious 
people, and will come to better understand the frustration that 
they face with the Federal Government.
    Thank you, Mr. Chairman, for this opportunity to provide 
support to Guam's pursuit of Commonwealth status and for the 
Federal excess land provisions in S. 210. Thank you very much, 
Mr. Chairman.
    Mr. Hill. I thank you, Senator Akaka. The Chair now 
recognizes Congresswoman Mink.

 STATEMENT OF HON. PATSY T. MINK, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF HAWAII

    Mrs. Mink. Thank you very much, Mr. Chairman, and members 
of the subcommittee. I'm pleased to be here today to lend my 
support to the consideration of H.R. 100, the Guam Commonwealth 
Act, sponsored by my dear friend and colleague, Congressman 
Robert Underwood, who serves as Vice Chair of the Asian-Pacific 
Congressional Caucus.
    The right of self-determination is among the most sacred 
rights in our country, itself founded upon the principles of 
freedom and liberty. The Guam Commonwealth Act seeks to 
implement a decision by the people of Guam to pursue a greater 
self-determination through a new Commonwealth status with the 
United States.
    Over a decade ago, the people of Guam voted in a referendum 
to seek Commonwealth status, and since 1988 Guam's delegates to 
the U.S. Congress have introduced legislation to implement this 
decision. However, a final resolution to their request has not 
been ac-

complished. Many have worked on this effort--Mr. Underwood's 
predecessor, both the Bush and Clinton administrations--but 
Guam's question of Commonwealth status remains unresolved.
    I understand that this is not an easy task. The issues 
raised in this effort are not simple, and a final agreement 
between the United States and Guam will have lasting effects, 
not only for the people of Guam, but for the United States as a 
whole and the other territories and entities which continue to 
associate themselves with the United States.
    This is precisely why this issue should be deliberated in 
the Congress. We have the responsibility to consider this 
proposal brought forth by the people of Guam, assess its 
impact, not only on Guam, but the entire United States, and, 
finally, come to a conclusion on Guam's pursuit for a 
Commonwealth status.
    The final implementation document of Guam's Commonwealth 
status must reflect Guam's desire for greater self-
determination and self-governance, balanced with their desire 
to remain a part of the United States, including all the rights 
and responsibilities that go along with this relationship.
    Mr. Chairman, and members of the committee, you have a 
challenging task ahead, and I urge you to move forward in this 
deliberation on H.R. 100 and work toward the implementation of 
the wishes of the people of Guam. Thank you very much.
    I apologize, Mr. Chairman, and members of the committee, 
that I need to leave, as I am serving as a ranking member on 
another committee matter before Education and the Workforce, 
but thank you for the opportunity to testify this morning.
    [The prepared statement of Mrs. Mink follows:]

Statement of Hon. Patsy T. Mink, a Representative in Congress from the 
                            State of Hawaii

    Mr. Chair, and Members of the Subcommittee, I am here today 
to lend my support to the consideration of H.R. 100, the Guam 
Commonwealth Act, sponsored by my dear friend and colleague, 
Congressman Robert Underwood.
    The right to self-determination is among the most sacred 
rights in our country--itself founded upon the principles of 
freedom and liberty. The Guam Commonwealth Act seeks to 
implement a decision by the people of Guam to pursue greater 
self-determination through a new Commonwealth status with the 
United States.
    Over a decade ago the people of Guam voted in a referendum 
to seek Commonwealth Status and since 1988 Guam's Delegate to 
the U.S. Congress has introduced legislation to implement this 
decision. However, a final resolution to their request has not 
been accomplished. Many have worked on this effort--Mr. 
Underwood's predecessor, both the Bush and Clinton 
Administrations--but Guam's question of Commonwealth status 
remains.
    I understand this is not an easy task. The issues raised in 
this effort are not simple and a final agreement between the 
United States and Guam will have lasting effects not only for 
the people of Guam, but for the United States as a whole, and 
the other Territories and entities which continue to associate 
themselves with the United States.
    This is precisely why this issue should be deliberated in 
the Congress. We have the responsibility to consider this 
proposal brought forth by the people of Guam, assess its impact 
not only on Guam but on the entire United States, and finally 
come to a conclusion on Guam's pursuit for Commonwealth status.
    The final implementation document of Guam's Commonwealth 
Status must reflect Guam's desire for greater self-
determination and self-governance, balanced with their desire 
to remain a part of the United States, including all of the 
rights and responsibilities that go along with this 
relationship.
    Mr. Chair and Members of the Committee, you have a 
challenging task ahead. I urge you to move forward on your 
deliberations on H.R. 100 and work toward the implementation of 
Guam's Commonwealth Status. Thank you.

    Mr. Hill. I thank you very much for that testimony, 
Congresswoman Mink. I now note that----
    Mr. Abercrombie. Mr. Chairman, Mr. Chairman. May I submit a 
statement for the record?
    Mr. Hill. Without objection.
    Mr. Abercrombie. Thank you.
    [The prepared statement of Mr. Abercrombie follows:]

 Statement of Hon. Neil Abercrombie, a Representative in Congress from 
                          the State of Hawaii

    Mr. Chairman, thank you for the opportunity to submit my 
views on Guam Commonwealth. Let me first commend you for 
holding a hearing on H.R. 100, the Guam Commonwealth Act. H.R. 
100 is representative of the political aspirations of many 
people on Guam, my Pacific neighbors. It is my hope that the 
Committee will seriously engage the political leadership of 
Guam in considering the question of Commonwealth status.
    It is my understanding that the Guam Commission on Self 
Determination has been involved in discussions with both the 
Bush and Clinton Administrations on Guam Commonwealth. I look 
forward to hearing the position of the Clinton Administration 
on Guam Commonwealth, but I am most interested in receiving 
testimony from Guam's people. It is my observation that the 
Guam Commonwealth question has always been a bipartisan issue. 
That aspect is important for us to reflect upon as we review 
the Commonwealth proposal today.
    Mr. Chairman, the people of Guam have long expressed an 
unwavering commitment and loyalty to the United States. As we 
approach the centennial anniversary of the Spanish American 
War, we must also reflect on the long road that the people of 
Guam have tried to secure and advance self-government in their 
island home. No better example can be made of the need for 
self-government than the other pieces of legislation that the 
Committee will be hearing. Both the Guam Judicial Empowerment 
Act, which I have co-sponsored, and the Guam Land Return 
provision of S.210, deal with issues that are the consequence 
of Guam's current territorial status.
    Those of us who have the Constitutional authority to 
establish policies over the territories must take our 
responsibilities seriously. We must engage the political 
leadership of Guam and pursue a positive resolution to the 
issues they have raised. We must review the current system in 
place and acknowledge the need for clarity and change in the 
Federal-territorial relationship. The aspirations of the people 
of Guam should establish a foundation for the Committee's 
consideration and I am pleased that we are here today to 
initiate that process.

    Mr. Hill. I now note that Congressman Becerra is here, and 
I will recognize Congressman Becerra.

STATEMENT OF HON. XAVIER BECERRA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Becerra. Thank you, Mr. Chairman, and thank you to all 
the members of the committee. Let me first state that I, too, 
am a supporter of H.R. 100, the Guam Commonwealth Act, and I 
want to thank the gentleman from Guam, Congressman Robert 
Underwood, for his diligent efforts on behalf of the people of 
Guam.
    Mr. Chairman, it is my privilege to come before you and the 
full Committee on Resources to support Guam's quest for 
Commonwealth status. As you know, next year marks the 
centennial anniversary of Guam becoming an American territory, 
and it is a most appropriate opportunity for the Congress to 
consider legislation that seeks to improve the political 
relationship between the Federal Government and Guam.
    It has been 15 years since the people of Guam set out on a 
course to obtain Commonwealth status, yet the people of Guam 
continue to be statutory U.S. citizens and cannot vote for the 
President of the United States. This situation certainly is 
unfair and unneces-

sary--and Congress must recognize the importance of this 
issue--and I hope that the committee will work closely with the 
leadership of Guam to make Commonwealth for Guam a reality. Our 
Constitution charges Congress with matters relating to the 
territories, and I believe that it is our responsibility to 
consider the will of the people of Guam and work toward Guam 
Commonwealth status.
    Since 1990, the leadership of Guam has been engaged in 
serious discussions with both the Bush and Clinton 
administrations regarding the island's political status 
movement. It is now time for Congress to obtain an appraisal of 
this work and to act accordingly. We have to remind ourselves 
that every significant change in Federal policy is rooted here 
in the House of the people. We must be engaged and willing to 
consider taking bold steps that are of mutual benefit to the 
United States and the people of Guam.
    Having been colonized by Spain more than 200 years ago, it 
is clear that the Chamorro people share a close cultural 
affinity with many of the people of America--citizens of 
America--who are of Latino descent. It is for these reasons 
that I take particular interest in the issues affecting Guam. 
As a Member of Congress of Latino descent, I will watch this 
process closely and will be willing to work and participate 
meaningfully in the positive resolution for Guam's quest for 
Commonwealth status.
    I look to the leadership of this committee, and Congressman 
Bob Underwood, to work on this issue, and I hope that a sincere 
effort will be made to accommodate Guam and its noble people.
    Mr. Chairman, with that, I will submit my statement. Thank 
you.
    [The prepared statement of Mr. Becerra follows:]

Statement of Hon. Xavier Becerra, a Representative in Congress from the 
                          State of California

    Mr. Chairman, it is my personal privilege to come before 
you and the full Committee on Resources to support Guam's quest 
for Commonwealth status. As you know, next year marks the 
centennial anniversary of Guam becoming an American territory 
and it is a most appropriate opportunity for the Congress to 
consider legislation that seeks to improve the political 
relationship between the Federal Government and Guam. It has 
been fifteen years since the people of Guam set on a course to 
obtain Commonwealth status. Yet, the people of Guam continue to 
be statutory U.S. Citizens and cannot vote for the President of 
the United States. This situation is unfair and unecessary. The 
Congress must recognize the importance of this issue, and I 
hope that the Committee will work closely with the leadership 
of Guam to make Commonwealth for Guam a reality.
    Our Constitution charges Congress with matters relating to 
the territories and I believe that it is our responsibility to 
consider the will of the people of Guam and work toward Guam 
Commonwealth status. Since 1990, the leadership of Guam has 
been engaged in serious discussions with both the Bush and 
Clinton Administrations regarding the Island's political status 
movement. It is now time for Congress to get an appraisal of 
this work and to act accordingly. We have to remind ourselves 
that every significant change in Federal policy is rooted here 
in the House of the people. We must be engaged and willing to 
consider taking bold steps that are of mutual benefit to the 
United States and the people of Guam.
    Having been colonized by Spain for more than two hundred 
years, the Chamorro people share a close cultural affinity with 
Latino people. It is for these reasons that I take particular 
interest in the issues affecting Guam. As a Latino member, I 
will watch this process closely and will be willing to 
participate meaningfully in the positive resolution of Guam's 
quest for Commonwealth Status. I look to the leadership of the 
Committee and Congressman Bob Underwood to work on this issue 
and I hope that a sincere effort will be be made to accommodate 
Guam.

    Mr. Hill. I thank you, Congressman Becerra, and I would now 
like to recognize former Delegate Ben Blaz.

  STATEMENT OF THE HONORABLE BEN BLAZ, FORMER DELEGATE, U.S. 
                    HOUSE OF REPRESENTATIVES

    Mr. Ben Blaz. Mr. Chairman, Mr. Miller, and members of the 
committee. First let me thank you for giving me the opportunity 
to testify on behalf of H.R. 100.
    I must say that the view from the beachhead down here is a 
bit different from the pompous head up there. The configuration 
here does look like part of a coliseum, and you wonder why the 
witnesses from time-to-time feel like gladiators--the Caesars 
sit up there. But there's something interesting about this 
particular setting. The banner behind you, Mr. Chairman, is 
star-spangled, and the supporting colors around it include my 
beloved Guam. We're in friendly territory, and I feel very 
comfortable, thank you.
    A hundred years ago, when Henry Glass, Captain Henry Glass 
of the Navy, sailed into Guam, after a couple of days he 
probably sent this message: ``Guam captured. Spanish prisoners 
under control, but the natives keep asking me what their status 
is.'' It is likely that the response came back rather tersely 
and probably stated: ``Political status is not your domain. 
Proceed to Manila. Join Admiral Dewey.'' And you know the rest 
of the story.
    But whether or not political status was the domain of the 
Navy for the ensuing 50 years, it dominated Guam. So much so, 
Mr. Chairman, that when I graduated from Notre Dame and was 
commissioned an officer and I wanted to go home and strut my 
uniform and medals before my village friends, I couldn't go 
because I did not have the proper security clearance. Following 
that, we were transferred to the Department of the Interior and 
there, often, we felt like wards, and often the administrators 
acted like wardens.
    We're now 100 years into this situation. What I'd like to 
point out is that in areas where the people of Guam have 
control in what they do, they have done exceedingly well. When 
we speak about self-determination, we instantly associate 
political self-determination, but gone unnoticed, and to the 
credit of the people of Guam, they have done exceedingly well 
in trying to preserve their identity, their culture, and their 
language, and they have kept themselves from being a mere 
footnote in history. They have attained cultural self-
determination.
    And despite the plethora of regulations and instructions 
and laws that were written for other places at other times, 
they have managed to succeed and attain a very significant 
measure of economic self-determination, but the one thing that 
is needed to solidify the foundation is beyond the capability 
of the people of Guam themselves, and that is political self-
determination.
    I know we have limited time, and earlier today Congressman 
Underwood gave us the 2-minute warning without any timeouts. So 
it's kind of difficult, quite frankly, to cover 100 years in 
100 seconds. So I'll take more than 100 seconds and say to you 
that in this body, which uses from time-to-time the logic, or 
de-logic, that this cannot be done, because it will set 
precedence--if you can't set precedence in the House of 
Representatives, there ain't no place on earth where you can 
set precedence. If you can take--I don't have any quotations 
from legislature to show the legislative intent as to why we're 
in this situation.
    So let me just end my presentation by getting a quotation 
from a Founding Father, and here's the quotation: ``I am not an 
advocate for frequent changes in laws and constitutions, but 
laws and institutions must go hand in hand with the progress of 
the human mind. As that becomes more developed, more 
enlightened, as new discoveries are made, new truths discovered 
and manners and opinions change, with the change of 
circumstances, institutions must advance also to keep pace with 
the times. We might as well require a man to wear still the 
coat which fitted him as a boy, as civilized society to remain 
ever under the regimen of their barbarous ancestors.''
    In closing, Mr. Chairman, I just want to say that what Guam 
is asking, it has been asking not since 1987, but in every 
decade of this century. A hundred years is a long time to wait 
in line. Thank you, sir.
    [The prepared statement of Mr. Ben Blaz follows:]
         Statement of Ben Blaz, Guam, former Delegate from Guam
    Mr. Chairman and Members of the Committee: I thank you for the 
opportunity to testify in support of H.R. 100, the Commonwealth Act for 
Guam.
    I am Ben Blaz. I am a Chamorro, a native son of Guam. I am now 
retired from Public Service, having served 30 years in the Marine Corps 
and 8 years in the House of Representatives as the Delegate from Guam 
(1985-1993). I will be seventy years old in a few months, on the 100th 
anniversary of the incident that triggered the Spanish-American War in 
1898. Although it lasted less than 4 months, its impact is felt to this 
day by both Spain and the United States and, most especially, by the 
entities that were ceded to the United States as prizes of the war.
    It has been a while since I have been in this room. Were I to send 
a message back in the manner that I used to do in my days as a soldier 
of the sea, it would read something like this:

        Landing successful. No hostile fire. Advise all units that 
        there is wide open terrain in immediate front which is elevated 
        at other end. Be further advised that the center pole flies the 
        stars and stripes of our country surrounded by flags of 
        supporting units including the flag of Guam. Friendly forces 
        now in sight; link-up imminent. Advise all units to move 
        smartly.
    About a century ago, the U.S.S. Maine, anchored in Havana Harbor, 
was blown up under mysterious circumstances. The incident gave birth to 
the war cry, Remember the Maine, To Hell With Spain. About 4 months 
later, Captain Henry Glass, in command of the U.S.S. Charleston, 
received orders to sail to Guam, capture it, and report back when that 
has been accomplished.
    On the morning of June 22, 1898, Captain Glass most likely sent a 
message along these lines: Mission accomplished. Guam captured; enemy 
soldiers under my control. What am I to do with the thousands of native 
Chamorros who are inquiring about their status? The response was 
probably: Civil Administration is not a matter of your concern. Proceed 
to Manila Bay. Report to Commodore George Dewey for duty in connection 
with the Philippines campaign.
    In the ensuing 50 years, Guam had a rocky relationship with U.S. 
military governance. In 1950, it was placed under the cognizance of the 
Secretary of Interior where it has remained for almost half a century. 
In those 100 years, Guam has indeed enjoyed the benevolence of the 
United States in terms of financial assistance. At the same time, 
however, the people of Guam have become increasingly frustrated by the 
benign neglect of its persistent quest for a well defined, 
participatory policy, with respect to its relationship with the Mother 
Country.
    The bill before Congress today has been characterized as something 
relatively new but the history books reveal otherwise. They are replete 
with references of attempts by the local population in every decade of 
this century to improve our relationship with our country. I recall 
vividly a letter I received from my father while I was a student at 
Notre Dame in 1950. He was greatly troubled by the modified version of 
American citizenship that was envisioned in the Organic Act. He argued, 
and rather strongly, that the Organic Act for Guam, if enacted, would 
lock in law a sta-

tus that he said would make us Associate Americans, or, as he stated it 
another way, Americans with an asterisk. He was adamant in his belief 
that he would rather not be a citizen at all than be a half hearted 
one. He feared that it would take another fifty years to change that 
status, if at all, once it is etched in the stone tabloids of Public 
Law. His stance on the issue did not endear him to his contemporaries 
who had campaigned so fervently for U.S. citizenship. He went to his 
grave with his sentiment unaltered. In time, his reservations proved 
eerily prophetic.
    Significantly, the sitting Governor of Guam and the two former 
Governors who will testify today, are all grandchildren of men who were 
very active at the turn of the century in their efforts to rid Guam of 
the designation, possession, and all that the term implies, and bring 
about a closer relationship with America. While the designation was 
modified at mid-century to unincorporated territory, the meaning has 
remained unchanged: Guam is not an integral part of the United States.
    This fact was made very clear to me during the 8 years I served in 
the House of Representatives. I was listed as a Member of Congress but 
I was not considered one of its Members. Although there was an attempt 
in recent years to elevate the status of the five Delegates to the 
Congress by giving them the right to cast a vote on the floor, that, 
too, had an asterisk with an exclamation point indicating that when 
their votes counted in the outcome, they are voided. In other words, 
when they counted, they didn't.
    But we have been included repeatedly in the areas that really 
count. In the most dear, the most precious, and the most basic of all 
tests to one's loyalty to one's country, our people have been present 
and accounted for in every war in which our country has fought in this 
century. I have traced with my own fingers the seventy names on the 
Vietnam Wall of the Guamanians who were killed in action in that 
conflict, a number notable for its size with respect to the population 
from which they came. My father's generation was given to saying that 
we are equal in war, but not in peace. When viewed from the perspective 
of casualties in war on a per-capita basis, the proportion is not in 
our favor. We cannot even claim equality in war.
    While the term Self-Determination has more or less been taken to 
mean political Self-Determination, there are two other areas in this 
category that have gone essentially unnoticed. The first of these has 
been the conscious effort of my people, the Chamorros of Guam, to 
preserve their language and their culture as a distinct people on the 
face of the good earth. This insures that we do not end up as a 
footnote in the history books as an extinct people. In this area we 
have succeeded in achieving Cultural Self-Determination.
    Similarly, Guam has attained a significant measure of economic self 
sufficiency while gingerly picking its way through a plethora of 
inhibiting laws and regulations, many of which were written for other 
places at other times.
    Nevertheless, Guam has managed to get closer and closer to 
achieving another milestone--Economic Self-Determination.
    The enduring quest for the part that would give us a solid 
foundation upon which to build as we prepare to enter the 21st century, 
is one that is beyond the capability of the people of Guam to 
accomplish by themselves--Political Self Determination. On the 
particulars of the bill before the Committee today, and, in deference 
to their respective offices, I yield to the leadership--our 
distinguished Governor, Carl Gutierrez, and my esteemed successor, 
Congressman Robert Underwood.
    Earlier this month, I had the privilege of escorting 50 veterans 
celebrating the 46th anniversary of our commissioning as Second 
Lieutenants in the Marine Corps. No one in the group had ever been to 
the House floor and few had ever visited the Capitol but all indicated 
a desire to do so and to say a prayer in silence in the House of the 
People. When we reached the floor, the group gave thanks for being 
spared our lives and expressed appreciation for the privilege of 
serving the United States in the field of battle. I stood in awe of my 
aging comrades whose sense of love and devotion to America was 
strengthened, not weakened, by the passing years.
    It was a precious moment that tugged the heart and wet the eyes. As 
I watched these old warriors look about the House chamber with great 
pride and admiration, I lamented the fact that I could not share the 
moment with my former colleagues. It was a very inspiring and 
reassuring scene to witness on the House floor. We have often heard the 
question, how did we happen to have a wonderful country such as this? 
The answer is that we have great citizens such as these. And among them 
are the people of Guam.
    Understandably, the U.S. Constitution was specifically designed to 
apply to the States of the Union. Provisions were made to insure 
uniform application of laws to all states and to territories that are 
embryonic states. Imbued with the notion of preserving the Union at all 
costs, there prevailed a kind of circle-the-wagons syndrome in the 
early days of the nation punctuated by pronouncements that the United 
States was not interested in aggrandizing itself with land acquisitions 
abroad. That feeling was not shared by many influential people who 
wanted to acquire strategically located islands in the Atlantic and the 
Pacific for use as forward bases to protect the homeland in North 
America. The Spanish-American War provided America the opportunity to 
make the acquisitions it needed and, as a consequence, acquired Cuba 
and Puerto Rico in the Atlantic and the Philippines and Guam in the 
Pacific.
    Cuba and the Philippines left the family a long time ago. 
Significantly, the citizens of both places continue to comprise a very 
large proportion of the immigrants to the United States. Similarly, 
Puerto Ricans and Guamanians also migrate to the U.S. mainland but they 
arrive as American citizens, having acquired them through collective 
naturalization decades earlier. These resettlements from Guam and 
Puerto Rico come about primarily in pursuit of opportunities and 
services not available in their home islands. For the longest time, 
many people believe that many of the benefits that they do not receive 
in their island communities was due to prejudice against island people. 
This, of course, is not an accurate view. Were, say, Members of the 
Natural Resources Committee to establish residency on Guam, they, too, 
would no longer enjoy some of the rights and privileges that they 
received as residents of States of the Union.
    The plenary powers of the Congress have been upheld over the years 
in the way that it ``administers'' the off-shore territories. 
Unfortunately, because the Uniformity Clause does not apply to the flag 
territories, it has resulted in an aggravating lack of uniformity in 
the application of U.S. laws and regulations that often defy reason and 
logic. The U.S. Supreme Court has consistently upheld Congressional 
actions in the past and can be expected to continue to do so in the 
future. A paraphrasing of a passage in the Bible aptly describes the 
existing condition: Congress giveth, Congress taketh away.
    What Guam seeks is an arrangement whereby its relationship with the 
United States is based on a mutually agreed document that is fair to 
both entities and without prejudice to either. For those who feel that 
the status quo is sufficient and are riveted to making no changes, the 
words of one of the greatest of America's early leaders seem 
particularly appropo:

    I am not an advocate for frequent changes in laws and constitutions 
but laws and institutions must go hand in hand with the progress of the 
human mind. As that becomes more developed, more enlightened, as new 
discoveries are made, new truths discovered and manners and opinions 
change, with the change of circumstances, institutions must advance 
also to keep pace with the times. We might as well require a man to 
wear still the coat which fitted him when a boy as civilized society to 
remain ever under the regimen of their barbarous ancestors.
    The author of these words once prompted President Kennedy to tell a 
group of American Nobel Prize winners who were being honored at a White 
House dinner that there had not been such a collection of genius 
gathered under its roof since Thomas Jefferson dined there alone. We 
take great pains today to insure accuracy of entries in the record of 
colloquies and verbatim accounts of debates to establish clearly 
legislative intent behind various pieces of legislation.
    (Not Available.) very accurate indications of their thoughts as 
they pondered nation-building. Even in the days of the American 
Revolution, Jefferson foresaw the need for changes in laws and 
institutions to go hand in hand with the human mind as new discoveries 
are made and we become more enlightened.
    You are likely to hear today a cacophony of voices from the 
witnesses but I urge you not to misread their meaning. Multiple layers 
of disappointment, discouragement, and frustration have been building 
up for many years over the issue of Guam's relationship with America. 
What have been very difficult to fathom are the contradictions and 
disparities in the way we do things at the national level.
    For a nation that has won the respect and envy of peoples 
everywhere for its willingness to commit its resources, human and 
material, to fight in foreign lands in the name of freedom and 
democracy on short notice, it reverts to glacial speed in its handling 
of affairs of its own citizens. For a nation that is widely acclaimed 
internationally for welcoming immigrants to its shores, it struggles 
trying to accommodate those under the American flag who live in the 
land of their own nativity: Indians, Eskimos, Hawaiians, Samoans, 
Chamorros. For a nation that reserves huge acreage of land on islands 
for the day when birds return, it does little to eliminate the snake 
that eats the eggs which come first. For a nation that devotes so much 
money and energy for the protection of fishes and birds, it has a 
bureau for the Indians and drawers for other Native Americans. It is 
against this background that one can begin to appreciate the tone and 
tenor in which the witnesses present their arguments in behalf of a 
different relationship with the United States.
    Guam has both the fortune and misfortune of being located where it 
is--13 degrees North, and 144 degrees East. Because of that 
happenstance, Ferdinand Magellan's ships with its emaciated and 
diseased crewmen had the good fortune of drifting into Guam on the 
waves of the Equatorial Current in 1521. Unfortunately, over the 
centuries since, Guam has found itself in harm's way as nations fight 
for possession of it because of its importance as an anchorage and 
refueling station for ships from elsewhere headed somewhere.
    Mother Nature has not been very kind to Guam either. Located as it 
is in the typhoon belt, it receives more than its share of typhoons 
and, occasionally, earthquakes to rearrange a few buildings. Like the 
legendary Phoenix of Greek mythology, however, Guam rises from the 
ashes and starts all over again and it now appears we are on the good 
fortune cycle.
    Guam's very location geographically, which has been its damnation 
in a manner of speaking, has become its blessing. As the whole world 
sharpens its focus on the Pacific and Asia as we enter the 21st 
Century, Guam finds itself no longer a doormat, but a turnstile, to the 
Asian mainland. The visit to America this week by President Jiang Zemin 
of China punctuates the enormous significance of a cooperative 
relationship between our nation and China. A prosperous and stable Guam 
under the U.S. flag would serve the best interests of the United States 
and the people of Guam.
    Extending the symbolism of good fortune into the future, Guam is 
virtually perfectly located in the world to bring about a monumental 
reality. Its location along the equatorial line with a constant sea 
surface temperature of around 80 degrees in the proximity of the 
deepest deep in the world, makes it the ideal location to harness the 
sun's energy via the sea. With unlimited supply of sea water and 
tropical sun, and the technology to do this economically, an alternate 
source of energy which is environmentally pure is staring at us from 
Guam.
    Guam has been referred to as a ward of the U.S. in years past. And 
those who have had jurisdiction over the island have acted as wardens. 
But that was yesterday. It is now tomorrow. And, as Mr. Jefferson so 
eloquently stated, ``as new discoveries are made, new truths are 
discovered and manners and opinions change, with the change of 
circumstances, institutions must advance also to keep pace with the 
times.''
    Over the years, we have heard a thousand nays. What Guam hopes to 
hear today are a few ayes. I urge you to find a way to say yes to 
Guam's plea for a closer relationship with the United States. That is 
what the people of Guam opted for in a plebescite a few years ago. If 
the Congress has the power to extend the provisions of the U.S. 
Constitution selectively to say no, the question then becomes, could 
the Congress use the same argument to say yes? I think it could.
    It's time. A hundred years is a long wait in line.

    Mr. Hill. I thank the gentleman, and I thank the panel for 
their testimony, and I want to remind members that committee 
Rule 3(c) imposes a 5-minute limit on questions.
    The Chair also wants to inform members that Deputy 
Secretary Garamendi has to leave shortly to catch an airplane, 
so let me first see if there are any questions on the majority 
side.
    Mr. Tauzin. Mr. Chairman, I'm Billy Tauzin from Louisiana. 
I have to chair a hearing in just a couple of minutes in 
another very important committee, the Commerce Committee, but I 
came specifically to let the people of Guam know--and 
particularly the three living Governors who are here who have 
traveled so far to be at this hearing--of the fine work that 
Congressman Underwood is doing on behalf of the pursuit of 
Commonwealth status for the people of Guam.
    You should know that he has not only helped convene this 
hearing and organize this very important learning experience 
for all of us in Congress, but he has personally visited with 
each one of us in our offices to educate us on the issues and 
to bring us into full appreciation of the wishes and 
aspirations of the people of Guam.
    I want to commend our colleague Robert Underwood for the 
great work he is doing, and beg his indulgence to the fact that 
I must go chair another hearing, but that we will evaluate 
carefully, the written testimony that we have before us. And I 
want to thank him on behalf of our committee, and those of us 
who have to make important decisions like this, for his great 
efforts at educating us and preparing us for the decisions we 
make on the future status of Guam.
    Robert, a job well done, and I commend you for this 
hearing, sir.
    Mr. Hill. I thank you, and any questions from the majority?
    Mr. Abercrombie. Mr. Chairman, I just wanted to pay a 
special welcome to Ben Blaz. I just think it's terrific to see 
him again. His contributions here in the Congress over the 
years are well recognized by those of us who had the privilege 
of knowing him, serving with him, and learning from him. And I 
particularly appreciate both the content and the passion and 
the history behind his comments today.
    Mr. Hill. I thank the gentleman. Any other questions from 
the minority?
    Mr. Faleomavaega. Mr. Chairman, I, too, would like to say a 
few words, and especially to welcome our good friend, 
Congressman Becerra, for his presence, and also a very 
distinguished former colleague of this committee and a Member 
of this body, former Congressman Ben Blaz, as Neil had stated 
earlier, for his presence.
    If there's anything that I would like to pay a special 
tribute to, to former Congressman Blaz, it is a statement that 
pretty well applies not only to the good citizens of Guam, but 
certainly to all our Pacific Islands community. And I've quoted 
this statement by Congressman Blaz because I think it's so 
apropos, even in our hearing today, and I would like to restate 
it again as a reminder to my colleagues in the committee.
    And Congressman Blaz said, as far as Pacific Islanders are 
concerned and as something for members of this committee and 
Members of this body to consider seriously, he said, ``You 
know, it's a funny thing about Pacific Islanders, the fact that 
we're U.S. citizens, we owe allegiance to the United States. We 
are equal in war, but not in peace.''
    And I think the consideration of H.R. 100 personifies 
exactly what Congressman Blaz has said over the years. And the 
fact that we fight and die in all wars in defense of this great 
Nation, yet we see some 175,000 U.S. citizens living in the 
territory of Guam being denied the very essence of what 
American democracy is all about.
    Now Mr. Chairman, I don't know if the members of our 
committee realize, this is since 1982 that the people of Guam 
voted by more than 75 percent in favor of a Commonwealth status 
relationship with the United States. And then, 15 years ago--15 
years ago--this took place in that referendum. Eight years 
ago--eight years ago--we held a hearing on this very same 
issue.
    And Mr. Chairman, I have your copy of some 100 pages that 
were written by former Secretary of the Interior, Mannie Lujan, 
a former Member of this Congress, dated August 1, 1989, 
containing the memorandum of the very essence of all of the 
provisions of the things we're discussing today. Eight years 
ago--and now we're here today and we have not even moved an 
inch.
    This is not a Democratic or a Republican issue, Mr. 
Chairman. This is not an issue between liberals and Democrats. 
This goes to the very heart and soul of what American democracy 
is all about, and I commend my good friend, the gentleman from 
Guam, for pur-

suing this, as much as for what Congressman Blaz had tried 8 
years ago--that we still have not paid attention. We just don't 
seem to get it.
    And we're at the height of condemning and doing all that we 
can--talking about human rights violations and Jiang Zemin's 
current visit here in Washington--and yet we're denying this 
very fundamental right to our own citizens--to our own 
citizens--who don't vote for the President and who are willing 
to die and fight for the defense of our nation.
    So those are just a couple of my observations at the 
hearing. And I'd like to say, Mr. Chairman, I'm very happy with 
the Republican majority. We're killing two birds with one 
stone--H.R. 100 and Senate bill 210--and I think it's 
fantastic, and I commend the chairman of our committee, Mr. 
Young, for taking these two pieces of legislation both in hand 
and hope that we'll get it out of here. I sincerely hope that 
we'll even mark up these two pieces of legislation after the 
hearing, as has been the practice of our majority friends. I 
think this is the best way to do legislation.
    [Laughter.]
    Mr. Faleomavaega. But I want to commend the chairman of the 
committee for bringing these two pieces of legislation that are 
not only important to our friends from Guam, but certainly 
important for the other insular areas. And I want to thank you, 
Mr. Chairman, and look forward to hearing from our members, 
both of those from the administration, and also the good people 
and the leaders of Guam. Thank you.
    Mr. Hill. I thank the gentleman. If there are no further 
questions, then I would like----
    Mr. Romero-Barcelo. Mr. Chairman, I'd like to have----
    Mr. Hill. The gentleman is recognized. I would just remind 
the gentleman that the Deputy Secretary does have to leave here 
shortly for an airplane, if we want to hear his testimony.
    Mr. Romero-Barcelo. All right, I will be short, brief. I 
just wanted to greet our friends here and our colleague, Xavier 
Becerra, and former Member, Ben Blaz--I've never served with 
him, but I've heard very good things about him--and thank you 
for being here with us today.
    And as being from the Commonwealth of Puerto Rico, I 
understand all the frustrations that you have in Guam and that 
all the other territories have. We are still also striving for 
our right to vote, our right to representation, and I'm sure 
that our chairman, Mr. Young, also remembers the frustrations 
when Alaska was not a State, and so did our previous two 
persons who testified, Senator Akaka and Congresswoman Patsy 
Mink, who also remember when Hawaii was not a State, and there 
were territories.
    And sometimes we're asked whether we are U.S. citizens. 
When I was a Governor of Puerto Rico, I remember I made a 
recommendation to the Agency for International Development for 
someone to be appointed who met all the requirements for the 
person that they were looking for for the position, and I got 
back a letter from the director of the Agency thanking me for 
my interest and saying that it was a very highly qualified 
person, and that he probably would have appointed him had it 
not been for the fact that he could only appoint U.S. citizens. 
So, this is from the head of an agency; this is a continuous 
frustration that we do have.
    And right now, when Congress has approved health care 
insurance for all children of America, all the statements that 
were made during all the hearings and publicly by everyone 
involved with the bill that was passed on health care insurance 
for the children of America--it said for all the children of 
America. But in the final moments, when the bill was adopted, 
in the negotiations between the Congress and the President, it 
turned out that Puerto Rico and the territories were given a 
different treatment, and we were not given equal participation. 
So there's even discrimination against the children in 
something like health care. When some things like that happen, 
something has to be done.
    So, this is why I'm very glad that we're here today, and I 
commend my colleague, Bob Underwood, for the job that he has 
done. There are so many issues that are similar to those of 
Puerto Rico. Some of the things I see that Guam wants, we're 
rejecting in Puerto Rico--some of us are, some are accepting 
it.
    But it's a very, very intricate issue, and it's very 
complicated, but there is one overriding concern. And that is 
that, as U.S. citizens, in this day and age, our Nation and our 
President and our Congress cannot go about bragging about this 
example of democracy throughout the world because we are 
remiss. There are millions of citizens, including 3.8 million 
in Puerto Rico who are U.S. citizens, who are disenfranchised, 
and that has to be solved.
    So, I think these hearings are very, very important, and 
I'm glad to be here and have the opportunity to be a member of 
this committee and participate in this hearing. Thank you very 
much for your presence here.
    Ms. Christian-Green. Mr. Chairman, could I just--I would be 
very brief.
    Chairman Young. Mr. Chairman?
    Mr. Hill. I thank the gentleman. I would like to recognize 
the Chairman of the committee.
    ChairmanYoung. Mr. Chairman, I would encourage the people 
in the back of the room, if you would like to immediately come 
up here and fill these chairs up so the ones in the hall can 
come in. Let's do some movement here. I want those people in 
the hall up here--out by the door. Come on in; move it up. Fill 
these seats so that now those in the hall can come in. After 
all, as Mr. Farr says, they've been flying 18 hours. As long as 
you're not press, now--I'm not talking about press.
    [Laughter.]
    All right. You didn't fly 18 hours--no, she's from Guam. 
Now, those out in the hall, come on in, as many as you can.
    Mr. Hill. I thank the chairman. If there are no further 
questions for this panel, I could excuse this panel, and we 
could ask Mr. Garamendi to move forward. And as soon as the 
room calms down, we can begin with his testimony.
    Chairman Young. There are still some seats up here, if 
there's anybody out in the hall. You can act like you're 
Congress people for a short period of time.
    Mr. Underwood. Can we mark this up and vote now, and 
include these people?
    [Laughter.]
    Mr. Miller. I think he's got a majority here.
    Chairman Young. But we've got the gavel.
    Mr. Hill. The Chair would remind members that Deputy 
Secretary Garamendi has to leave shortly, and so he's going to 
offer his testimony, and then Mr. Staymen will be staying on to 
answer questions.
    Mr. Chairman?
    Chairman Young. I'd just like to--because I have another 
Transportation Committee to go to--I want to compliment Mr. 
Underwood and other members of the committee for their interest 
in this legislation. It is my hope that we will have a group in 
Guam in February, and hope that everybody recognizes we'll have 
a better understanding--and also, hopefully, to American Samoa. 
And I want to congratulate all of you who came this far on this 
very historical and very important time of the hearing on Guam, 
and I do thank you. And for the record, I'd like to submit my 
written testimony.
    [The prepared statement of Mr. Young follows:]
  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska
    As Chairman of the Committee in the U.S. House of Representatives 
with jurisdiction over insular affairs affecting the U.S. territories 
and the freely associated states, I consider increasing self-governance 
in the insular areas to be one of the top priorities of the Committee 
on Resources. During this and the prior Congresses, the Committee has 
devoted considerable effort to advance self-government in the insular 
areas, and in particular, the most populous American territory in the 
Caribbean, Puerto Rico. The Committee has been formally petitioned in 
three successive Congresses by the Puerto Rico Legislature for action 
to establish in Federal law a process to resolve Puerto Rico's ultimate 
political status.
    It is significant to note that the people of Puerto Rico have 
enjoyed local self-government under a constitution since initially 
authorized and then amended and approved by Congress in 1952. Puerto 
Rico has operated under its constitution, wherein they named their new 
government the Commonwealth of Puerto Rico, for over 45 years without 
being required to ask Congress for approval to changes to its 
constitutional government. Now, this Committee recently approved 
legislation defining in Federal law a process to advance toward a final 
political status.
    At the end of last year, I wrote to Present Clinton about certain 
areas of concern regarding Guam Commonwealth. In my letter of December 
11, 1996, I explained that Guam already has the authority to enact a 
``Commonwealth of Guam'' structure for local constitutional self 
government, which Congress authorized in 1976. As that communication is 
relevant to the legislation before the Committee, I am submitting a 
copy of the President's reply and my letter.
    The Guam Legislature recently enacted an important resolution which 
is also related to the above communication and the current legislation 
before the Committee. Guam Legislature Resolution No. 85 enacted 
September 15, 1997, (copy included) requested that the 105th Congress 
modify existing Federal law
        ``To confirm that the adoption of a Constitution establishing 
        local government shall not preclude or prejudice the further 
        exercise in the future by the people of Guam of the right of 
        self-determination regarding the ultimate political status of 
        Guam.''
    It is significant to point out that a number of provisions in 
legislation being considered today which require changes to the Organic 
Act of Guam, would not require action by Congress if Guam were to in 
fact enact a constitution as already authorized in Federal law. 
Congress' 1976 authorization for constitutional government for Guam and 
the United States Virgin Islands is codified in Title 48 of the United 
States Code Annotated, Chapter 12, Historical and Statutory Notes (see 
attached).
    In response to Guam Resolution No. 85, Congress would amend the 
existing authorization for a Guam constitution to qualify in Federal 
law that the people of Guam would not prejudice or preclude their 
further right to self-determination. In addition, Congress could 
specifically state that Guam is authorized to develop a Commonwealth of 
Guam constitution for local self government. It appears that judicial 
decisions since enactment of the original authorization by Congress may 
now require a separate Federal law approving the draft constitution, 
rather than just a 60 day review period.
    Increasing self-governance in the territories is a political 
evolutionary process that culminates when the area becomes fully self-
governing, either as a separate sovereign outside of United States 
sovereignty with separate nationality and citizenship, or as an 
incorporated part of the United States. Over this century, for those 
territories or trust territories which haven't sought and attained 
separate sovereignty, this advancement in self-government has occurred 
to varying degrees in the territories to include some, and in the cases 
of the most politically developed, all of the following: extension of 
U.S. citizenship, application of the U.S. Constitution, inclusion in 
the U.S. customs territory and free trade agreements, establishment of 
a republican form of government with three functioning local branches 
of government, the authorization and establishment of local 
constitutional government, direct election of Governor, election of a 
representative in Congress, as well as the inclusion in U.S. defense, 
monetary, fiscal, postal, and telecommunication spheres. As each 
territory has its own set of economic, political, and social 
characteristics, it is up to each area to determine the pace and 
direction of its self-governance.
    I believe this hearing has the potential to assist the insular 
areas, including Guam, in advancing toward greater local self-
government. The statements by the witnesses today, including Senate and 
House colleagues, the Administration, and leaders from Guam and the 
freely associated states, will help Congress to objectively consider 
the diverse measures in the three bills before the Committee today, S. 
210, the Omnibus Territories Act, H.R. 2370, the Guam Judicial 
Empowerment Act, and H.R. 100, the Guam Commonwealth Act.
                                 ______
                                 
             Letter to President Clinton by Hon. Don Young
                 Don Young, Committee on Resources,
                                            Washington, DC,
                                                  December 11, 1996
The Honorable William Jefferson Clinton,
President of the United States,
1600 Pennsylvania Avenue, NW,
Washington, DC 20500
Dear Mr. President:
    I recently have seen press reports and reviewed public statements 
by local officials in the U.S. territory of Guam regarding current 
political status consultations between the Deputy Secretary of the 
Interior and representatives of the territorial government's 
``Commission on Self Determination.'' I am quite familiar with the saga 
of Guam's quest for a new political status. and some real concerns 
arise from the information we are receiving.
    For most of the last decade Congress and the executive branch have 
passed the buck back and-forth without responding to Guam's proposal 
for a ``Commonwealth of Guam'' in a manner that suggests a legally 
sound, politically feasible and intellectually honest alternative 
approach to achieving local self-government and defining options for 
resolving the status question. At this stage in the process, the only 
thing worse than further dithering would be to make commitments on 
behalf of the Federal Government that can't be kept.
    I remain optimistic that the U.S. and Guam can define and jointly 
implement a process to establish constitutional self-government. In 
addition, if Congress, the Administration and the territorial 
government are serious about the decolonization of Guam as contemplated 
by Article 73 of the U.N. Charter, 1997 can be the year that we start 
down that path by defining a legitimate self-determination process 
based on legally valid options for ultimately ending unincorporated 
status in favor of full self-government.
    Of course, under Public Law 94-584 Guam has had the ability since 
1976 to establish a ``Commonwealth of Guam'' structure of local 
constitutional self-government to replace the present territorial 
administration under the 1950 Organic Act. I voted in favor of Public 
Law 94-584 with the expectation that the institution of local 
constitutional self-government would provide the mechanism to address 
and resolve issues that have arisen such as the rights of Guam's 
indigenous Chamorro people, return of excess military land, immigration 
policy, and, of course, Guam's ultimate political status.
    Instead, Guam elected to link commencement of local constitutional 
self-government over its internal affairs to a proposed comprehensive 
government-to-govern-

ment political status pact which contained Federal law and territorial 
policy reforms that Congress may or may not ever approve. When 
presented with that expansive proposal the then majority in Congress 
told Guam's leaders to go work out the issues with the Executive. 
Predictably, the departments and agencies of the Federal Government 
grudgingly agreed to review what Guam was proposing, while correctly 
insisting all along that Congress would have to make the difficult 
policy and legal determinations.
    The delays, frustration and difficulty that Guam has experienced in 
seeking a competently formulated and constructive response from the 
Federal Government is due in part to the fact that determination of the 
disposition of the unincorporated territories is an authority and 
responsibility expressly assigned in the first instance to Congress 
under the territorial clause of the Constitution (article IV, section 
3, clause 2). Thus, history demonstrates that more than any other 
factor the degree of consultation and coordination between the 
executive branch and Congress on status measures within the scope of 
the territorial clause makes the difference between getting it done 
right, getting it done the hard way, or not getting it done at all.
    For example, the last time a President of the United States 
transmitted to Congress a major new territorial status proposal it was 
the free association agreement for the Pacific islands trust territory 
in 1984. The primary criticism of the Reagan Administration by leaders 
in Congress at the time--including me--was inadequate consultation with 
Congress before commitments were made by executive branch negotiators 
on behalf of the Federal Government.
    After more than twenty hearings before five committees in Congress 
and years of truly tortuous debate, the framework political status 
legislation for the Pacific trust territories was approved. More than 
thirty five pages of statutory amendments and reservations were added 
by Congress to the status agreements. The entire process was 
gratuitously destructive in many resects, due in part to provisions 
agreed to by the Federal negotiators without consulting Congress. The 
people of the islands and the Fedem1 government paid a high price for 
doing it the hard way, and it almost didn't get done at all.
    On January 31, 1995--in the first month of the 104th Congress--the 
Chairman of the Subcommittee on Native American and Insular Affairs, 
Mr. Gallegly, tried to send a clear signal regarding political status 
to the Administration, Guam, Puerto Rico, and all the unincorporated 
territories by candidly stating that ``. . . until a territory gains 
distinct sovereignty within or without the Constitution, the Congress 
cannot be bound by an unalterable bilateral pact of mutual consent.'' 
Yet, there reportedly is an agreement in the works under which the 
political, legal and economic relationship to be defined under the 
proposed ``Guam Commonwealth Act'' (GCA) could not be altered by a 
future Congress without the ``mutual consent'' of Guam.
    Since the GCA would be a Federal statute, a future Congress can not 
be bound to a political status relationship with an unincorporated 
territory as contemplated by the GCA. The ``solution'' apparently 
arrived at in the Guam discussions is to create ambiguity about the 
nature of the mutual consent clause. Thus, instead of an enforceable 
right of consent, Guam reportedly is prepared to accept a provision 
which admits of unenforceability. This may have some symbolic political 
value, but in the end it only underscores the disenfranchisement and 
lack of equal participation or real consent in the Federal political 
process for U.S. citizens in an unincorporated territory such as Guam.
    It is time for both Federal and territorial officials to stop 
bashing ``the bureaucrats'' for the lack of a political status 
agreement with Guam. We should be glad there are executive branch civil 
servants who will not bow to political pressure and sign off on status 
proposals that do not withstand scrutiny. An agreement that will 
unravel as soon as the ink dries, or another proposal that simply 
gathers dust, has no real value for the U.S. or Guam. Those of us 
elected to get results for the people we serve need to take 
responsibility for doing more than ``coming to closure'' with Guam in 
form but not substance. If we believe we can pretend to have a real 
agreement and then walk away or wash our hands of it, we are really 
just setting up the people of Guam for another episode of 
disappointment.
    We may have disagreement on some issues, but the Federal Government 
must never risk making a mockery of the decolonization process. We 
would do just that by attempting to make less-than-equal citizenship 
and permanent disenfranchisement seem more tolerable through the legal 
and political fiction of ``mutual consent.'' Also, I question whether 
the U.S. would be fulfilling its obligations to the Chamorro people by 
agreeing to a provision which seems to reduce the legacy of the native 
inhabitants of Guam to the possibility of their participation in what 
appears to amount to little more than a straw poll. The people of Guam 
deserve better, and we can do better.
    Thus, I stand ready to work with your Administration to develop a 
strategy for success in this matter, rather than continuing tactics of 
grid-lock and blame-shifting we have seen in the past. This Committee 
and its staff would be pleased to work with those responsible for the 
Administration's status consultations with Guam to ensure that this 
time we get it done right.
            Sincerely yours,
                                                 Don Young,
                                                          Chairman.

          Answer to Mr. Young's letter from President Clinton
Dear Mr. Chairman:
    I read your letter regarding Guam's commonwealth status with great 
interest, and I share many of the positions you expressed in your well-
reasoned analysis.
    Recentaly, I met with the Governor of Guam to discuss the pace and 
direction of the negotiations. We agreed on the need to move quickly to 
resolve several key questions involving the territory's political 
status. As you point out in your letter, the issues are complex and 
sensitive. I am aware of Guam's aspirations for self-government. At the 
same time, we must satisfy Federal concerns at the policy, legislative 
and constitutional levels.
    I am prepared to provide sustained attention from the Executive 
Branch to these negotiations. A successful outcome requires 
coordination among many agencies and extensive consultations with 
Congress. I look toward to working with you and your colleagues in the 
coming months as we move the Guam issue toward a conclusion that will 
be satisfactory to all involved.
            Sincerely,
                                              Bill Clinton,
                                                          President

    Mr. Hill. Thank you, Mr. Chairman. We now will hear from 
the administration, represented by the Deputy Secretary of the 
Department of the Interior, John Garamendi.
    Mr. Garamendi.

STATEMENT OF THE HONORABLE JOHN R. GARAMENDI, DEPUTY SECRETARY, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Garamendi. Mr. Chairman, members of the committee, I 
commend you for holding today's hearing on the Guam 
Commonwealth. It's an historic and auspicious time to do it; 
1997 marks the 10th anniversary of when the people of Guam 
voted to send the original Commonwealth Draft Act to Congress. 
Next year also marks the centennial of the Treaty of Paris, 
when the United States obtained Guam from Spain in 1898. The 
issue of Guam's political status represents an important piece 
of unfinished business that sorely needs resolution.
    So where are we today after these many years? First, the 
process followed by the three special representatives, myself 
being the third, in this administration, attempted to be 
creative and flexible in the executive branch consideration of 
the fundamental Guam Commonwealth issues. I've tried different 
formulations and approaches to reach compromises that could be 
supported by Guam and proposed to the administration.
    Final administration positions, however, are based on a 
consensus process among the different constituent interests 
that make up the Federal Government. They are also governed by 
constitutional, policy, and legislative constraints. While I 
may believe that my views are appropriate, and I suppose I may 
be the only one that has that view about their own ideas, even 
though I might believe they're appropriate, they do not 
necessarily constitute the adminis-
tration's position unless the entire executive branch endorses 
them and those policies meet constitutional and other tests.
    The second point: While there remain areas of 
disagreements, years of discussion between the administration 
and Guam have resulted in significant progress and numerous 
areas of Federal agreement and support. Although we are unable 
to support everything that Guam has originally proposed, there 
are a number of areas where we are supportive of the proposals 
that are responsive to the legitimate desires of the Guam 
people for greater self-government, for increased input into 
the Federal policymaking process, and for the application of 
Federal policies in a way that respect the uniqueness of Guam.
    Now these areas include the following: support for a 
Federal policy commitment to not unilaterally change the 
fundamental relationships between Guam and the United States; 
supporting the creation of a commission with significant 
representation and input by Guam to review and provide 
recommendations on the appropriate application of Federal 
policies to the island. Third, supporting an invitation for the 
people of Guam to express their desire for Guam's ultimate 
political status, supporting the amendment of appropriate 
provisions of the U.S. Immigration and Nationality Act to 
accommodate Guam's desire to limit the rate of permanent 
immigration to the islands, and to provide additional 
flexibility to address Guam's permanent labor needs. And, 
finally, supporting within certain parameters the right of 
first refusal for Guam to obtain Federal excess lands on the 
island.
    Finally, it should be noted that the executive branch has 
grappled with the original Guam Commonwealth bill for the 
better part of a decade, through the change of several 
administrations, both in Guam and in Washington. The general 
positions resulting from Federal review of the original bill 
have remained relatively consistent. The Guam Commonwealth 
Draft Act, as originally approved by Guam in 1987, cannot be 
supported by the Federal Government.
    Among the key concepts we cannot support are the following. 
First, legally binding the Congress or the executive branch to 
seek the consent of the Commonwealth Government before 
modifying the act creating the Commonwealth, or before applying 
any future Federal law, regulation, or policy to Guam. Second, 
providing for a legally binding Government-sponsored or 
endorsed vote on the ultimate political status of Guam in which 
only one group can participate to the exclusion of other U.S. 
citizen residents of Guam.
    Thirdly, transferring the Federal control over the adoption 
and enforcement of immigration and labor policies to the 
Commonwealth Government of Guam, and, finally, creating a joint 
commission under Guam's control, which would have the authority 
to issue final determinations on the application of Federal 
policies to Guam and to determine military lands to be 
transferred to the Commonwealth Government.
    In conclusion, we believe that much has come from the 
negotiations to date. These can be further refined and 
profitably achieved with continued and sustained effort and 
attention--not just by Guam and the executive branch, but also 
by Congress.
    Therefore, our first recommendation of options to pursue is 
to encourage Congress to join in the Guam status deliberations 
to help formulate a comprehensive Commonwealth legislation that 
is mutually agreeable to all parties. Participation by 
Congress, which is constitutionally vested with plenary powers 
over territorial matters, would add significant momentum in 
bringing this matter to a closure. On June 20, 1998, the 
centennial of the raising of the American flag on Guam occurs. 
This would be a good deadline to complete work on a substitute 
Guam Commonwealth bill.
    A second alternative would be to pursue individual Federal 
policy changes that Guam has proposed, which are supportable by 
the administration, many of which are not inherent in the 
definition of the island's constitutional status. We could do 
this through discrete and separate legislation, perhaps having 
individual bills for each issue considered, such as the 
application of Federal immigration, labor, transportation, 
trade, and tax policies to the islands.
    The administration is willing to pursue either of these 
alternatives. I thank you for the opportunity to testify, and 
I'll try to answer whatever questions you may have.
    [The prepared statement of Mr. Garamendi may be found at 
end of hearing.]
    Mr. Hill. I thank the witness for his testimony. The 
chairman will now recognize members for any questions they may 
wish to ask the witness. I will submit questions for the 
record, recognizing that you're on a tight schedule, and I will 
now recognize Mr. Miller.
    Mr. Miller. I would yield to Mr. Underwood. Thank you, Mr. 
Secretary, for your statement.
    Mr. Hill. Mr. Underwood.
    Mr. Underwood. Well, thank you, Mr. Secretary, for your 
statement, and I read it briefly this morning. And I want to 
say that at least we're at the point in which a clear decision 
is being reached as to how far the administration is going to 
go.
    Obviously, I want you to know that I think that it is very 
clearly the sentiment of the people of Guam that without 
consideration of Chamorro self-determination, we will not ever 
have any kind of political status change which will be 
meaningful for Guam. I want to stress that this is a core 
principle of our commonwealth legislation and I've noticed that 
you've touched on that in an unsupportive way.
    But I just want to ask you, on one page of your testimony 
you lend a great deal of hope for further discussion, and I 
certainly appreciate that. However, on the second page you de-
limit some of the proposals and the advances that you've 
indicated have existed. In terms of mutual consent, your 
statement says that you are willing to support a Federal policy 
commitment not to unilaterally change the fundamental 
relationship between Guam and the U.S., and in the second part 
you say that you are against legally binding the Congress or 
the executive branch to seek the consent of the Commonwealth 
Government before modifying the act creating Guam Commonwealth. 
It seems to me that you're willing to say that you are willing 
to make a promise, but just don't hold us to that promise. Is 
that a fair characterization of your position?
    Mr. Garamendi. Let me put it in my words. There should be a 
policy, and this administration believes that a policy should 
be put in place that the Commonwealth Act should not be changed 
without mutual agreement. However, to place that into the law 
creates very serious constitutional and legal problems that the 
administration believes cannot be overcome. Therefore, as an 
example, since the original Organic Act for Guam, which I 
believe was in the 1950's, there has not been a change that has 
not been mutually acceptable. So, I would say the policy has 
been long-established, but the legal issue is quite clear from 
the point of view of the administration legal lawyers.
    Mr. Underwood. OK. The second question I have--and I know 
you're running a tight schedule, Mr. Secretary--pertains to the 
issue of the final political status, the self-determination 
issue. You indicate that the administration is willing to 
support an invitation for the Guamanian people to express their 
desire for Guam's ultimate political status, but that you 
reject the notion that there can be provided for a legally 
binding, Government-sponsored or endorsed vote on the ultimate 
political status of Guam.
    The question I have is that under--unless I'm not seeing 
something that you may wish to say--is that under either 
scenario, there is no legally binding, self-determination vote 
for Guam possible, because even in the more expansive statement 
in which you indicate that the administration is willing to 
support an invitation for the Guamanian people, you did not put 
that it would be legally binding, Government-sponsored, or 
endorsed; yet you're quite willing to limit those possibilities 
for the exercise of Chamorro self-determination, but you're not 
quite willing to expand and make a full commitment on the 
exercise of any future political status vote by all the people 
who are currently on Guam. And what that means is that, 
basically, it seems to me, is that it's a denial of the 
exercise of self-determination all the way around, either for 
the Chamorro or all people who are currently on Guam.
    Mr. Garamendi. I don't believe that to be the case. If 
there is a Government-sponsored election that includes all of 
the legal residents who are eligible vote, then I believe that 
that would have great weight. Obviously, the ultimate 
disposition of the status of Guam resides in this building--or 
in these buildings. It resides with Congress, as stated by the 
Constitution. And so that issue is, I think, very clear.
    Equally clear are the concerns that the administration has 
about sponsoring a vote in which only a subgroup of people who 
are legal residents and eligible to vote, could vote. I would 
like to be certain that we provide you with written testimony, 
some of which is already in my statement--of the long, written 
statement--on this matter, and if further clarification is 
desired by the committee, we would be happy to respond in 
writing. I don't want to confuse the issue with a potential 
misstatement by myself.
    Let me take advantage of what appears to be just a few more 
seconds to state one more thing that is very obvious to me, and 
that is the enormous energy, intellectual capacity, and 
determination that has been applied to the months of 
negotiations in which I have been engaged in and applied by 
yourself, Mr. Underwood, and by the Governor of Guam, Mr. 
Gutierrez. The two of you have been extraordinary, both in your 
determination to push this issue forward and in the 
intellectual depth to which you have taken this matter. You 
have taught me a great deal; I have learned a great deal, and I 
have great respect for both of you.
    Mr. Underwood. Well, I appreciate those very kind words, 
and I would be less than candid if I didn't say that the 
Federal bureaucracy matched this intellect and this energy 
going in the opposite direction, perhaps with greater success--
apparently.
    Mr. Garamendi. I'll let you----
    Mr. Underwood. But I certainly have some questions for the 
record. I just want to reiterate again that the issue of 
Chamorro self-determination, the indigenous people of Guam who 
were the people that were colonized in the case of Guam, will 
never go away until it's fully resolved in one way or another. 
And one way or another, that exercise will occur.
    I have to reiterate my strong concern about the manner in 
which the administration has taken this position, but I will 
say that you have left the door open, and I'm happy that there 
is the door open now. You may just have to be careful that 
there are going to be hundreds of people running through that 
door.
    Mr. Garamendi. Well----
    Mr. Underwood. Thank you.
    Mr. Hill. I thank the gentleman. I would remind members of 
the committee that Mr. Garamendi does have to leave for an 
airplane, and I would remind all members that they can submit 
questions for the record.
    Mr. Abercrombie.
    Mr. Abercrombie. Yes, thank you very much. Mr. Garamendi, I 
appreciate that you're going to have to leave shortly, but I 
think there are some questions here with regard to Commonwealth 
that should be on the record now, and folks should hear it as 
quickly as possible.
    There are parallels to the difficulties in Puerto Rico 
here. I'm glad this hearing is being held today because I think 
it points out how you cannot write a definition of Commonwealth 
to suit yourself, and I think this is one of the problems that 
is not fully understood in Puerto Rico. I agree with you, I 
believe, if I understand you correctly. Legally binding the 
Congress or the executive branch to seek the consent of the 
Commonwealth Government--that's one of the objections you have, 
right?
    Mr. Garamendi. One of the serious problems we have is----
    Mr. Abercrombie. Yes. You cannot--the Congress is never 
going to acquiesce to allowing someone else to determine 
whether or not they want to acquiesce or concede to what the 
United States wants it to do if they, in fact, are citizens and 
going to have a relationship in a Commonwealth, right?
    Mr. Garamendi. That is a fundamental issue.
    Mr. Abercrombie. It's not only an issue of policy, but it's 
probably one of constitutionality, is it not?
    Mr. Garamendi. That is the assertion of this 
administration. It is a constitutional issue, and it's one that 
is very difficult to overcome.
    Mr. Abercrombie. So if 100, if H.R. 100 addressed that 
issue and eliminated that, that would eliminate one of the 
problems, right?
    Mr. Garamendi. That is correct. If the----
    Mr. Abercrombie. OK, thank you. You don't have to expand. 
You can expand later, but I realize you're short of time. But 
the short answer is that that is a stumbling block; if that's 
removed, then it makes the objections much less high in 
profile, right?
    Mr. Garamendi. That is correct.
    Mr. Abercrombie. OK, again; then the second thing--on 
providing for the vote with the Chamorro people. Having come 
from a State and having served in a legislature which 
consciously put forward a constitutional amendment allowing 
Hawaiians to vote and excluding people who were not Hawaiians 
to vote, with everybody voting to do that--in other words, I 
was in a legislature that voted to do that. I consciously 
excluded myself from being able to vote for trustees of the 
Office of Hawaiian Affairs in recognition of the fact that the 
indigenous people of Hawaii deserved an opportunity to resolve 
all the issues--social, cultural, economic, et cetera. And we 
are not only surviving, but I think this process is going to 
work through.
    If we can construe in H.R. 100 something where that does 
take place, because my information is that virtually all of the 
people there before 1950 have some Chamorro origin. Now there 
might be some who don't. I don't know--1,000 or 2,000, whatever 
it is--they'd be in the same category as I am. Maybe they're 
Haoles--I don't know--which is a Hawaiian word for--has come to 
mean--it usually meant strangers; it's now come to mean 
Caucasians, generally preceded by a couple of colorful Angle-
Saxon adjectives--[Laughter.] But there's no great harm done; 
we can work on it. If an acceptable formula could be worked out 
there--because Mr. Underwood is quite correct; the issue has to 
be resolved--might you find yourself more amenable on that 
issue?
    Mr. Garamendi. We attempted to find a way of resolving this 
in a non-Governmental-sponsored vote, and that's what I had 
proposed.
    Mr. Abercrombie. Well, just for today's hearing, Mr. 
Garamendi, and for Mr. Chairman, I do recommend that we maybe 
take a look at the history of the establishment of the Office 
of Hawaiian Affairs in Hawaii as a possible--not necessarily a 
model, but at least a method that was arrived at which 
apparently has been able to achieve constitutional authority; 
it hasn't been challenged. And maybe we could do some 
modification of that and find it applicable here.
    Mr. Garamendi. One of the fundamental points in my 
testimony is that this administration believes it is wise and a 
fruitful policy to continue discussions with the people of Guam 
through their elected representatives and those who they choose 
to represent them in these matters. Certainly the issue you 
raised could be considered. There are very serious 
constitutional issues surrounding this particular issue, and we 
would be happy to share with the committee the views of the 
constitutional lawyers in the Department of Justice on these 
matters, including the issue--the proposal that you made.
    Mr. Abercrombie. Thank you; I appreciate that. I'm just 
presenting for you, Mr. Chairman, that I don't think this is 
necessarily insurmountable if people of good faith and good 
will work at it.
    Finally, Mr. Garamendi, I think I agree with the positions 
here about transferring control of the adoption and enforcement 
of immigration and labor policies and the application of 
Federal policies. If the Commonwealth takes place, my position 
would be, and I presume your position and I presume the 
constitutional position would be--and I'm almost certain that 
the Congress would have this--if you're going to have 
Commonwealth status, then all Federal laws are going to be 
applicable. You're not going to pick and choose, especially 
where labor laws and the rest are at issue. That's what the 
Marianas are going to find out real quick, that you don't start 
claiming U.S. citizenship and then say, not necessarily for 
those we don't like or those we want to exploit.
    Mr. Garamendi. The position that we have is that there are 
unique circumstances in Guam, as in States, and those 
circumstances may require or suggest that a law be modified to 
deal with the uniqueness of those circumstances. We think 
that's appropriate----
    Mr. Abercrombie. That's fine.
    Mr. Garamendi. [continuing] and it's certainly up to 
Congress; you do it all the time.
    Mr. Abercrombie. Sure.
    Mr. Garamendi. And that, we think, is an appropriate way to 
go. With regard to labor issues, there is an extensive 
discussion of this in my written testimony. If you have further 
questions, I'd be happy to try to answer them.
    Mr. Abercrombie. Yes, I did read through that, and I 
appreciate that. But as a general rule, your position is is 
that Federal law is applicable--period.
    Mr. Garamendi. To the extent that Congress desires it to 
be, yes.
    Mr. Abercrombie. OK; thank you very much. I might say then, 
in conclusion, Mr. Chairman, that I think it's laid out fairly 
clearly here as to what we have to do and where we have to go, 
and I would say, in the end, that it has to be very, very clear 
to the people of Guam, just as I think it is being made clear 
to the people of Puerto Rico, that Commonwealth does not mean 
you get to act like an independent nation when it suits you, 
and then claim all the full rights and privileges of U.S. 
citizenship when it suits you.
    Mr. Hill. I thank the gentleman. The gentleman's time has 
expired. I would recognize Ms. Smith.
    Mrs. Linda Smith. Thank you, Mr. Chairman. Has this witness 
been sworn in? Have these witnesses been sworn in?
    Mr. Hill. No, they have not.
    Mrs. Linda Smith. Could you do that?
    Mr. Garamendi. Mr. Chairman, I'm certainly happy to do 
that. I assume that every statement I make is taken to be 
accurate and truthful to the extent I know it, and subject to 
all the rules of this Congress whenever I speak here.
    Mr. Hill. If the gentlelady--Mr. Garamendi does have to 
leave, and----
    Mrs. Linda Smith. OK. I think his statement, if that would 
be taken down for the record, would be fine.
    I guess what I'm wanting to ask about is to the Secretary--
the questions. I have been very disturbed at the Guam 
Governor's statement that money helped grease the skids for the 
change in policy with Guam. It is a problem that has troubled 
me, and often there was implication that money did pass for 
policy with Guam. So I would like to ask you just three 
questions, and just a yes or no is fine.
    Were you at any time contacted by Don Fowler or anyone else 
at the Democrat National Committee on Guam Commonwealth issues, 
and if so, how and when?
    Mr. Garamendi. Your question goes to the Guam Commonwealth 
issues and the specifics of the negotiations.
    Mrs. Linda Smith. Yes. Were you contacted by Don Fowler 
from the Democrat National Committee on Guam Commonwealth 
issues?
    Mr. Garamendi. I would prefer to give you a written reply 
to that question so as to be quite accurate. My process in this 
was over a 2-year period, and I want to be accurate in my 
statement so I will provide you with a written reply.
    [The information referred to follows:]
    Mrs. Linda Smith. OK; then I will give you others. Did you 
at any time during your tenure as negotiator discuss with 
anyone or correspond with anyone about the impact of Guam 
Commonwealth decisions on the Presidential campaign?
    Mr. Garamendi. No.
    Mrs. Linda Smith. Did you at any time during your tenure as 
negotiator discuss or correspond about political contributions 
with anyone, including but not limited to the Governor of Guam, 
anyone from the Guam Commission on Self-Determination, or their 
lobbying firm, Brady or Berliner?
    Mr. Garamendi. If your question goes to the issue of 
whether I was involved in any solicitation of contributions or 
had any role in any contributions that were made, the answer is 
no. If the question is broader--did I ever talk to anybody 
about contributions?--there were newspaper articles about that, 
and I certainly discussed those newspaper articles with my 
staff.
    Mrs. Linda Smith. Would you put that in writing, also, and 
the connection to your position and how you separate your 
position from those particular discussions? There is a great 
amount of concern with this administration and the money 
flowing for foreign policy, and so I am concerned about this. 
And it makes it very difficult to look at any decision in light 
of this. Thank you.
    [The information referred to follows:]
    Mr. Peterson. [presiding] Any other members wish to 
question? Mr. Kildee.
    Mr. Kildee. Just one question; I know you have to leave. 
Aside from the status of Guam as a whole, what is the 
administration's position on a special status for the Chamorro 
people, similar to the sovereignty and territorial integrity of 
federally recognized Indian tribes on the mainland?
    Mr. Garamendi. We have not explored that issue, and at this 
point there is no policy about that.
    Mr. Kildee. So you would have no--you're not on record of 
having any objection to, say, the Chamorro people having 
sovereignty similar to that of the 500----
    Mr. Garamendi. I do not want you to misconstrue my answer. 
My answer was, we have not considered that and we have no 
position.
    Mr. Kildee. But you have not rejected it, either.
    Mr. Garamendi. We have no position either for or against 
it. We have not considered that issue.
    Mr. Kildee. Could you comment on that type of status, where 
the Chamorro people would have a sovereignty and a territorial 
integrity similar to the over 500 sovereign tribes on the 
mainland?
    Mr. Garamendi. I would defer my comments and present them 
to you in writing. This is a complex issue on the mainland and 
certainly would be even more so in one of our territories, a 
Pacific Island territory.
    Mr. Kildee. It's not that complex.
    Mr. Garamendi. It would deserve a written response and a 
thoughtful response, which I'm not prepared to give you today.
    Mr. Kildee. It's not really that complex on the mainland. 
It dates back to 1789 and our Constitution, and dates back to 
1832 when Justice John Marshall said that the natives on the 
continent were sovereign nations. And so it's long in our 
history, and the Constitution itself recognizes three 
sovereignties. It talks about foreign nations, the States, and 
Indian tribes, and then John Marshall, in his famous 1832 
decision, clearly outlined the real sovereignty of the Native 
American tribes in the mainland.
    Mr. Garamendi. Your understanding of American history on 
this matter is obvious. This is a complex issue. Guam is 
considerably different in its history and in its acquisition 
than other parts of America, and certainly different and came 
substantially after Mr. Marshall's statement on these matters. 
As it applies, I am uncertain. It would be inappropriate for me 
to give you a response other than what I have said, which is it 
is complex; it deserves a full analysis, and I will present you 
with an analysis in writing from this administration.
    [The information referred to follows:]
    Mr. Kildee. I really would suggest, in the meantime, before 
you prepare the answer, to read Worcester v. Georgia and John 
Marshall's decision because it has some very profound 
statements on sovereignty, and that was issued by John 
Marshall--Worcester v. Georgia--in August 1832.
    Mr. Garamendi. I would happy to receive from you your 
thoughts, in writing or otherwise on this matter, and your 
obvious legal analysis which you have done.
    Mr. Kildee. Thank you very much. Thank you, Mr. Chairman.
    Mr. Garamendi. Thank you.
    Ms. Christian-Green. Mr. Chairman?
    Mr. Garamendi. Mr. Chairman, I really must leave.
    Mr. Peterson. [presiding] You must leave--OK; we'll excuse 
Mr. Garamendi.
    Mr. Garamendi. I'm about to really mess up California water 
policy if I miss this airplane.
    Mr. Peterson. OK; please feel free to leave.
    Mr. Underwood.
    Mr. Underwood. Thank you very much, Mr. Garamendi, and I'm 
sorry that we've delayed you more, but I just wanted a 
rejoinder to the point made by Mr. Kildee. This doesn't involve 
you directly. The issue of----
    Mr. Garamendi. May I take leave?
    Mr. Peterson. Yes; go, go.
    Mr. Underwood. I think the issue of the Chamorros becoming 
a tribe in the sense that Native American tribes have sought 
tribal sovereignty is best resolved through the issue of 
Chamorro self-determination, and that's really an issue which 
is a core part of the draft Commonwealth Act. And I would 
certainly invite every person who is here representing Guam, 
all of them are Chamorros themselves except for maybe two or 
three, to put that question into their testimony, whether they 
really are seeking this status or not.
    I must confess that this is a red herring issue. The issue 
of how the Chamorro people see themselves is rather clear. It 
is embodied in this Act. People want to get on with the 
exercise of Chamorro self-determination. I have never heard of 
any reputable person from Guam stand up and say that the 
Chamorro people are seeking tribal status and seeking any kind 
of reservation on the island of Guam. We see the exercise of 
Chamorro self-determination as indistinguishable between the 
Chamorro people and the island of Guam.
    Thank you.
    Mr. Peterson. Thank you. At this time we will call upon 
Allen Staymen, Director, Office of Insular Affairs, U.S. 
Department of the Interior, to share with us his testimony.

    STATEMENT OF ALLEN STAYMEN, DIRECTOR, OFFICE OF INSULAR 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Staymen. Thank you very much, Mr. Chairman. I ask that 
my statement on S. 210 and H.R. 2370, the other two bills on 
the agenda today, be made a part of the record, and I will 
quickly summarize.
    Mr. Peterson. Without objection.
    Mr. Staymen. Except for sections 7 and 10, the 
administration supports enactment of S. 210. My written 
statement details several technical and clarifying amendments 
to the bill, and I would like to highlight those which are most 
significant.
    On section 1, regarding food assistance to the communities 
affected by the U.S. nuclear weapons testing program in the 
Marshall Islands, we believe additional language is needed to 
deal with the procedural constraints of determining baseline 
population estimates for these communities and obtaining 
additional appropriations.
    On section 4, regarding excess lands on Guam, the 
administration seeks modifications to resolve several concerns. 
First, changes to ensure that those Federal agencies that have 
been legitimately using DOD lands for the 2-year period prior 
to the time the land is declared excess will be able to 
continue those uses. Second, that the definition of refuge be 
clarified to read, quote, ``overlay component of the refuge'', 
close quote, because refuge lands, per se, are not subject to 
administrative transfer or the Federal Property Act.
    Third, that the phrase at the end of subsection (c) that 
states, quote, ``to the extent that the Federal Government 
holds title to such lands'', close quote, be deleted. This 
phrase is misleading. Obviously, if the Federal Government does 
not own land, it cannot be accessed or subject to the 
provisions of this bill.
    Fourth, the definition of public purpose needs to be 
clarified. It might be argued that by referencing the public 
benefit definition of the 1994 Guam Excess Lands Act, with its 
congressional review of a Guam lands use plan, there is a 
possibility that subsequent transfers of lands to private 
parties could be found to be within the definition of public 
purpose. We recommend that the definition of public benefit, 
incorporated by reference to the 1994 Act, include only those 
purposes specifically enumerated in that Act.
    Fifth, we would like to clarify that any conservation 
protections on excess land would remain in effect pending 
congressional action pursuant to subparagraph (d)(3)(E). This 
is a concern, because the agreements between the Fish and 
Wildlife Service and the Department of Defense automatically 
terminate upon transfer of the land to any other party. We do 
not believe it was the intent to have these conservation 
protections lapse as the result of the transitional transfer of 
lands to the GSA. This amendment is essential to maintain the 
status quo with respect to conservation protections until 
either the Government of Guam and the Fish and Wildlife Service 
have reached an agreement on its future disposition, or the 
Congress Acts.
    The administration has no objection to H.R. 2370, but we do 
have clarifying amendments detailed in my written statement. 
I'm pleased to respond to any questions you have on these two 
bills.
    Mr. Peterson. Yes, Mr. Staymen. First, there are a number 
of provisions in S. 210 affecting the freely associated States, 
including the majors, to help those communities affected by 
U.S. nuclear testing. The U.S. established trust funds for 
their radiological clean-up of nuclear materials on affected 
islands, which involves the Department of the Interior. Since 
the people of these and affected islands must remove the 
nuclear contaminants in order to be able to safely resettle, 
where would you recommend the radioactive materials be stored?
    Mr. Staymen. In fact, Mr. Chairman, most of the scientific 
research that has been done on the resettlement of those 
islands suggests that the material does not have to be removed. 
The problem is not so much direct exposure from people living 
on those islands; it's the dose which they would get from 
eating the food grown on that island. Research has shown that 
if the islands are treated with normal potassium fertilizer, 
that the plants will not absorb the radioactive elements in 
nearly the proportion that they would without such treatment, 
so that the dose which a person gets subsequent to a fertilizer 
application is on the order of one-tenth of what they would get 
before. In other words, there could be a 90 percent reduction 
in the effective dose to individuals without any removal of 
soil.
    Nevertheless, some of the islands have prudently decided to 
do a limited scrape in those areas where housing would be built 
and children would be playing. And my understanding is, those 
soils are anticipated to be used in construction for things 
like bridges and breakwaters where they will essentially be out 
of the way from regular use.
    But the levels of radioactive materials and the dose that 
currently exists on those islands--I think it's fair to say-
it's right on the fence on whether or not it is a health 
concern or not. But it's prudent that they do the scrape, and 
it's prudent that they do the potassium treatment.
    Mr. Peterson. Any other questions? Mr. Underwood. Oh--Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Staymen, I 
assume you're going to be answering questions concerning Mr. 
Garamendi's earlier statements. Or are you just going to be 
responding to----
    Mr. Staymen. That's right; I'm just authorized on these two 
bills.
    Mr. Faleomavaega. All right. I do have a couple of 
questions on the earlier statements that Mr. Garamendi made 
concerning H.R. 100. He mentioned there were some 
constitutional problems affecting the relationship between Guam 
and the United States, and I wanted to ask you--this may be an 
exercise in futility, but I think there are some problems that 
I have with his statement about constitutional issues here.
    As you know, under the United Nations there is a category 
called non-Self-Governing Territories, and you're also aware of 
the fact that Guam, the Virgin Islands, and American Samoa are 
listed under that classification as non-Self-Governing 
Territories. Now, on the other hand, the word ``territories'' 
under provisions of the Federal Constitution provides for the 
plenary authority that Congress has over territories. But there 
are several classifications of territories, and let me share 
with you a couple of them.
    Guam, Puerto Rico, Virgin Islands, and American Samoa are 
all unincorporated territories. Now American Samoa is the only 
territory that is both unincorporated and unorganized. Now my 
understanding is that territories are such that not all the 
provisions of the Federal Constitution apply to these certain 
classifications given to territories. Now we all know that 
territories that have now become States were all incorporated 
territories, at least according to the insular cases the 
Supreme Court has held on that, that eventually they would 
become States. Well, none of these territories, I don't think, 
has any chance--with the exception of my friend from Puerto 
Rico--on the question of Statehood.
    My question on the constitutional issues is that where does 
it say that there's a conflict in the Constitution, given the 
fact that Guam is under this classification as a non-Self-
Governing Territory, where not all of the provisions of the 
Federal Constitution apply?
    Mr. Staymen. I will have to take your question back for Mr. 
Garamendi to answer in writing, Mr. Congressman.
    Mr. Faleomavaega. Now, if I'm correct in listening to Mr. 
Garamendi's reasoning, it is that the territorial clause of the 
Federal Constitution applies absolutely to Guam, the Virgin 
Islands, and American Samoa. Am I correct in that?
    Mr. Staymen. That's my understanding of the 
administration's position, yes.
    Mr. Faleomavaega. OK. And if this is so, then why are we 
listed under the United Nations classification as a non-Self-
Governing Territory? Well, anyway I----
    Mr. Staymen. The actions of the United Nations don't 
necessarily have to be coordinated with the actions of the U.S. 
Federal Government. I think the dilemma is that all of us here 
and all of you there have to swear to uphold the provisions of 
the U.S. Constitution.
    Mr. Faleomavaega. The dilemma is that the right of self-
determination is the issue that is still pending among these 
non-self-governing territories.
    Mr. Staymen. Again, I'll have to take your questions back 
and have Mr. Garamendi in writing.
    Mr. Faleomavaega. I would appreciate a clarification of 
that issue.
    Mr. Staymen. Certainly.
    Mr. Faleomavaega. On your testimony on Senate bill 210, can 
you explain a little more about section 8 of the bill that 
provides the current responsibility of the President to report 
to Congress on the impact of the Compact of Free Association? 
Are we having any problems with the compact provisions? What is 
this for?
    Mr. Staymen. The reason for this is that under the terms of 
the compact, the administration has to submit a report to 
Congress annually with respect to the impact which the compacts 
have had on the U.S. territories and on Hawaii. The procedure 
for developing and submitting those reports has been, I think 
it's fair to say, very contentious and difficult. The 
administration has to develop information about the impact of 
Micronesians in the islands, and necessarily must go into the 
islands and conduct censuses and develop data. It's been very 
difficult to obtain that data.
    We generally believe that the islands themselves are in a 
much better position to evaluate and report on what the impact 
of Micronesians coming into the community is than is the 
Department of the Interior back here in Washington. Our hope is 
to work closely with them and continue to financially support--
and if necessary with Federal technical assistance--support 
them in developing that information, then we would pass that on 
to Congress.
    Mr. Faleomavaega. And I don't want to put you in a 
situation where you have to say something on behalf of Mr. 
Garamendi, but I just wanted to know about--where are we in our 
current negotiations with the Commission on Guam, as far as 
H.R. 100 is concerned? Are we about 10 percent into the 
process? I said earlier that we haven't even moved an inch, and 
correct me if I'm wrong in my humble opinion of where we are 
right now, but are we about 30 percent complete in our current 
negotiations with the leaders of Guam? Can you----
    Mr. Staymen. I'm sorry; again, I'm going to have to refer 
to him.
    Mr. Faleomavaega. OK.
    Mr. Staymen. I'm not a part of that process.
    Mr. Faleomavaega. You mentioned there were two sections in 
Senate bill 210 that the administration does not support?
    Mr. Staymen. Right; those are the two sections----
    Mr. Faleomavaega. Which sections are those, again?
    Mr. Staymen. I believe it's 7 and 10, which establish two 
Presidential commissions, one with respect to the Virgin 
Islands, one with respect to Samoa, to study their future 
economic development. The administration supports the notion 
that we should have studies and that both Samoa and the Virgin 
Islands are confronted with serious economic development 
challenges, but we think that can be done through existing 
authorizations, and the Presidential commission is not the 
appropriate institution.
    Mr. Faleomavaega. I know we discussed the issue on this 
earlier, Mr. Staymen, saying that the administration does not 
like a proliferation of Presidential commissions, but it's OK 
to have a Presidential commission on the study of gaming--
gambling, but when it comes to territories, the administration 
does not feel that we should have the same status in looking 
into the serious, serious economic issues facing both the 
Virgin Islands and American Samoa.
    Mr. Staymen. That's correct.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I'd like to 
ask unanimous consent, Mr. Chairman, for my statement to made 
part of the record.
    Mr. Peterson. Without objection.
    Mr. Faleomavaega. Thank you.
    [The prepared statement of Mr. Faleomavaega follows:]

 Statement of Hon. Eni F.H. Faleomavaega, a Delegate in Congress from 
                    the Territory of American Samoa

Mr. Chairman:
    Thank you for calling this hearing on three bills which 
will have a direct impact on our U.S. territories. Before I 
begin my testimony, I want to welcome our distinguished guests 
to the hearing room today. To Senator Akaka and my colleagues 
in the House, I say thank you for taking the time to testify 
this morning. To Deputy Secretary Garamendi, I understand that 
you have a plane to catch this morning, and I appreciate your 
willingness to appear before us today given the time 
constraints.
    To those who have travelled for days to get here from Guam, 
I welcome you to Washington, DC. I know it is expensive to come 
here and I appreciate the commitment in time you have made to 
testify today. I wish we could provide more time for each of 
you to speak, but with 20 witnesses scheduled to testify this 
will be a lengthy hearing, and I trust you understand our 
reasons for limiting the time afforded each person to testify.
    Mr. Chairman, I do not want to use a lot of our time with a 
statement this morning. We are considering three bills which 
together address many of the pending problems in our 
territories. Perhaps the most controversial of the legislation 
is H.R. 100, the Guam Commonwealth Act.
    I commend my friends in Guam who have been working on their 
political self-development. Like the people of Puerto Rico, 
trying to define a new relationship with the United States is a 
difficult and time-consuming undertaking. In Puerto Rico, the 
key topic of discussion is which of three statuses to choose. 
Guam appears to be moving toward that discussion also, and 
while I am a co-sponsor of H.R. 100 and support many of its 
provisions, I also know there are many controversial provisions 
which will need to be addressed before this bill can move 
forward.
    The Guam Judicial Empowerment Act, H.R. 2379 is almost a 
technical correction, and I hope we can incorporate that 
provision into legislation containing portions of S. 210 which 
fall within the Committee's jurisdiction, and move them all 
forward early next year.
    S. 210 contains a provision to create a Presidential 
Commission to assist with the economic development of American 
Samoa. As I am sure Deputy Secretary Garamendi is aware, I have 
been exploring alternatives with officials of the Department of 
the Interior to move this project forward, and I hope the 
Department remains committed to providing this assistance.
    Thank you again, Mr. Chairman. I look forward to hearing 
the testimony this morning.

    Mr. Peterson. Any further questions for Mr. Staymen? Mr. 
Underwood.
    Mr. Underwood. I know we discussed this earlier, Mr. 
Staymen. I have a number of questions that I'd like to ask for 
the record for S. 210, and I would like to ask you to stay, but 
I really want to get an opportunity for the three Governors to 
speak. Right now it's 2:20 in the morning on Guam, and the 
first panel from Guam are actually the people that certainly 
the committee is most interested, I think, in hearing, as well 
as the people back home. So, I would request that you stay and 
we could bring you back up and ask some questions.
    Mr. Staymen. That's fine by me, Congressman.
    Mr. Underwood. Thank you.
    Mr. Peterson. We thank the gentleman. Any other further 
questions for Mr. Staymen?
    Mr. Ortiz. Mr. Chairman?
    Mr. Peterson. Yes.
    Mr. Ortiz. I would like to include my statement for the 
record with unanimous consent.
    Mr. Peterson. Without objection.
    [The prepared statement of Mr. Ortiz follows:]

 Statement of Hon. Solomon P. Ortiz, a Representative in Congress from 
                           the State of Texas

    I want to thank Chairman Young and Ranking Member Miller 
for holding this hearing today on legislation to establish the 
Commonwealth of Guam.
    This is a significant step in the process for Congressional 
review of Guam Commonwealth, and I want to commend my friend 
from Guam, Congressman Robert Underwood, for his work in 
bringing this legislation before us today.
    It is obvious that the people of Guam and their political 
leadership remain committed to pursuing Guam Commonwealth 
status.
    After years of work, they endorsed Commonwealth in 1982, 
and the Draft Guam Commonwealth Act in 1987. Since then, they 
have been in negotiations with the United States to change 
their political status.
    This is a step which will have an absolute impact on their 
relationship with the Federal Government. The people of Guam 
should be commended for their committment to what has been a 
long and demanding process.
    I am looking forward to hearing the perspectives of our 
participants and their accounting of the progress toward 
Commonwealth.
    It is important to assert Congressional oversight of this 
process and resolve the issue of Guam's history, as well as 
it's future.
    Thank you Mr. Chairman.

    Ms. Christian-Green. Mr. Chairman? Mr. Chairman?
    Mr. Peterson. Donna.
    Ms. Christian-Green. I'd also ask that my statement be 
included for the record.
    Mr. Peterson. Without objection.
    [The prepared statement of Ms. Christian-Green follows:]

    Statement of Hon. Donna M. Christian-Green, a Representative in 
               Congress from the State of Virgin Islands

    Thank you Mr. Chairman for the opportunity to make these 
opening remarks.
    Mr. Chairman and my colleagues, this is a day for all 
Americans to be proud. More than 10 years after overwhelmingly 
voting to become a U.S. Commonwealth, the people of Guam are 
finally getting a hearing on what blueprint they have chosen 
for their future relationship with the United States.
    Let us join then in celebration of this first step of self-
determination and pledge to continue to support their efforts 
to see the completion of this process before the 100 
anniversary of the Guam joining the American family.
    I want to welcome my fellow islanders from Guam who, by 
your numbers and presence here today after traveling from so 
far away, demonstrates your strong support for your Guam 
Commonwealth Act.
    I thank you for your commitment and say that I will do all 
I can, as a member of this Committee, to support you in getting 
the Guam Commonwealth Act enacted into law.
    I am pleased to see that three of Guam's Governors have 
joined together in a bipartisan show of support for their 
island's future political status to be here today. Welcome 
Governors. We are pleased to have you with us today.
    I am also very pleased to welcome my colleagues from the 
House and the Senate, along with the former Representative from 
Guam, a previous long time member of this Committee, the 
Honorable Ben Blaz.
    Mr. Chairman, the people of Guam have been a territory of 
the United States since 1898. They have been seeking to become 
a U.S. Commonwealth for almost 10 years. In my view, this has 
been more than enough time for this body and the Administration 
to have come to some agreement in getting this process 
completed.
    To my colleagues and the representatives from the 
Administration who may be concerned about our ability to grant 
Guam control over immigration, input into the application of 
Federal laws, or the authority to enter into international 
agreements, I say don't let your concerns prevent you from 
doing what is right. I believe we have a responsibility to do 
all that we can to provide Guam these articles of respectful 
political rights and full self government.
    Nothing less than these rights should be afforded to Guam 
or any of the other insular areas should they choose to remain 
part of the U.S. family--like Guam has--without the opportunity 
for statehood.
    In conclusion Mr. Chairman, I want to say a few words about 
the third bill that is on the agenda of today's hearing, S. 
210.
    S. 210, as it came to the House from the Senate, contains 
four provisions pertaining to my district, the U.S. Virgin 
Islands. Because of their urgency importance to the economy of 
the V.I., two of the provisions were added on to another bill 
which I hope will very shortly be signed into law by the 
President. The remaining two Virgin Islands provisions in the 
bill do not currently enjoy the level of support that makes 
their consideration in order at this time.
    I want to once again thank Chairman Young and Ranking 
Member Miller for their assistance in moving the two economic 
provisions of S. 210 that are so very important to the Virgin 
Islands.
    While S. 210 encompasses almost all of the U.S. Insular 
Areas, this hearing and this day belongs to the people of Guam 
and their quest for Commonwealth.
    Mr. Chairman the Congress is empowered under the U.S. 
Constitution to make all decisions on the future political 
status of the U.S. territories. To this end, the people of Guam 
have made their choice. We should respect Guam's decision and 
exercise our constitutional authority to make their choice a 
reality as expeditiously as possible.
    It is time that we act. The people of Guam deserve no less.

    Mr. Peterson. We thank you, and we'll call upon you a 
little later then.
    Mr. Staymen. Thank you.
    Mr. Peterson. Before we bring the next panel up, I'd like 
to recognize former Delegate, Ron DeLugo, from the Virgin 
Islands. We welcome you here today. If you could stand so you 
could be recognized.
    [Applause.]
    We are very thankful you could come, and we hear you were 
subcommittee chair prior and did a fine job.
    At this time I will call upon Mr. Underwood, the Delegate 
from Guam, to introduce our next panel of very esteemed 
witnesses.
    Mr. Underwood. I thank you, Mr. Chairman, and before I do 
that I would certainly like to add my own words of welcome to 
Congressman DeLugo. For the time that he was here, he certainly 
helped me a lot in terms of understanding the operations of 
this committee, and has always been a long and steadfast friend 
of Guam. And we certainly appreciate his interest, his 
continuing interest, and continuing leadership on issues 
pertaining to the insular areas.
    I also have and would like to add a statement from Senator 
Inouye and Representative Patrick Kennedy, and also Bob Smith. 
They've asked me if I could enter their statements into the 
record on behalf of this legislation.
    Mr. Peterson. Without objection.
    [The prepared statement of Senator Inouye follows:]

  Statement of Hon. Daniel K. Inouye, a Senator in Congress from the 
                            State of Hawaii

    I appreciate this opportunity to share my thoughts with you 
on H.R. 100 and the very important issue of Guam's interest in 
achieving commonwealth Status. The people of Guam have stated 
their desire and goal, and it is my hope that the Congress and 
the Executive branch can work with Guam's representatives to 
achieve that goal.
    The relationship between Guam and the United States is one 
that stretches back nearly 100 years. During this period, we 
have witnessed two world wars and several regional conflicts. 
The United States as a whole and Guam in particular experienced 
tremendous losses during these periods. However, together, we 
have always been able to endure difficult times and overcome 
adversity. Through our shared experiences, Guam and the United 
States have forged an important relationship based on trust and 
mutual cooperation. Like any longstanding relationship, 
periodically changes must be made to ensure the health of both 
of both parties involved. It is the prospect of political 
change that brings us here today.
    Naturally, the political status of one's homeland is an 
area of concern and importance. In 1987, after years of 
deliberation and public discussion, the people of Guam, in two 
separate plebiscites, voted in favor of making Guam a 
commonwealth of the United States. In February 1988, this 
document, the Guam Commonwealth Act, was submitted to Congress 
for consideration and has been introduced in four consecutive 
Congresses since--the 100th through the 104th.
    The 1987 plebiscites have made clear the preference of the 
Guamanian people that Guam become a commonwealth of the United 
States. However, the fact that here in the 105th Congress we 
are once again considering the political status of Guam 
illustrates the difficulty and complexity of the issues 
involved. While self-determination is the right of all people, 
greater union with the United States requires greater adherence 
to our Constitution. It is at this juncture that there have 
been disagreements between the Administration, both past and 
present, and the terms of commonwealth as stipulated by the 
Guam Commonwealth Act. While some of these issues are still 
unresolved, I am hopeful that continued discussion between the 
people of Guam and the U.S. Government will produce a mutually 
agreeable settlement.
    The Guamanian people have overwhelmingly voted in favor of 
a greater union with the United States. It is a great 
compliment and honor to America that the people of Guam would 
desire their future to be inseparably tied to our own. I am 
confident that the Federal Government and the government of 
Guam will continue to move forward and resolve any differences 
that prevent Guam from becoming a commonwealth of the United 
States. Let us continue to build on the foundations of trust 
and cooperation that have already been established and move 
forward into the future.

    [The prepared statement of Mr. Kennedy follows:]

Statement of Hon. Patrick J. Kennedy, a Representative in Congress from 
                       the State of Rhode Island

    Mr. Chairman,
    I want to thank you for holding this important hearing to 
determine the political status of Guam.
    I want to welcome Governor Gutierrez and all the witnesses 
from Guam who have travelled a long way to be here with us. To 
me your participation sent this government a signal that the 
people of Guam are serious about resolving their political 
status.
    For 100 years the people of Guam have been a part of United 
States. Its citizens have shared in our times of national 
triumph and struggle.
    During the World War II the people of Guam endured the 
atrocities of military occupation and many people still bear 
those scars today. Despite their pain, the people of Guam 
heroically assisted the Marines in retaking the Island and once 
again raising the flag of Democracy within its borders.
    Today, Guam is asking to continue the process of 
determining its permanent political status. They have waited 
long enough and it is high time our government got down to the 
business of letting this process go forward.
    To be sure, Guam's political status as an unincorporated 
territory is in Congressman Underwood's terms 
``unsatisfactory.'' Clearly, the current situation leaves the 
Island's inhabitants disfranchised and in political limbo.
    I recognize that there is a complicated history with regard 
to the Island's political status. I hope that some of the most 
common questions can be answered here. But let me say that I 
firmly believe that it is the responsibility of this Congress 
to act decisively on this issue.
    We must help facilitate a process by which the people of 
Guam can exercise their right to self-determination. And in my 
opinion self-determination begins with the Islands historical 
inhabitants.
    The future of the Chamorro people depends upon the United 
States to take a leadership role in solving the Island's 
political status. They have sacrificed much so that the United 
States may defend human rights abroad.
    We should not forget that it was from Guam that B-52 
strikes against Iraq were launched in 1996 and it was Guam that 
took in the Kurdish refugees of the Persian Gulf.
    Let us act decisively and set about a process that is 
mutually beneficial to both the United States and Guam.
    Let us commit ourselves to a process that ensures the 
freedom's of our nation, and also respects the proud history of 
the Island.
    Thank you Mr. Chairman for your leadership and I am looking 
forward to working with you as we continue this critical 
process.

    [The prepared statement of Mr. Bob Smith follows:]

 Statement of Hon. Robert F. (Bob) Smith, a Representative in Congress 
                        from the State of Oregon

    Mr. Chairman, I would like to commend the gentleman from 
Guam, Representative Underwood, for his excellent work on 
behalf of the people of Guam for bringing before this Committee 
H.R. 100, H.R. 2370, and S. 270.
    I am aware that H.R. 100, the ``Guam Commonwealth Act,'' is 
particularly important to the people of Guam in order to 
resolve their political status. Guam has been working 
diligently for the past decade to negotiate first with the Bush 
Administration and most recently the Clinton Administration on 
an agreeable commonwealth status. To date, these efforts have 
not been fruitful. This hearing will serve the critical role of 
allowing all of the issues to be brought out in the open for 
members of the Committee to evaluate for themselves. This is 
all the more critical because it is ultimately this Committee's 
and Congress' responsibility, working with Guam's elected 
representatives, to decide Guam's future.
    Mr. Chairman, I thank you for holding this important 
hearing and I would again like to commend Representative 
Underwood for his work on behalf of the people of Guam.

    Mr. Underwood. At this time it gives me very great pleasure 
to introduce the three Governors of Guam, the three living 
Governors of Guam. Guam has only had the opportunity to select 
their chief executive since 1970, and it's been pretty much an 
even split since that time--I think maybe three Republicans and 
two Democrats--but I'm very proud to see that both parties are 
represented here this morning.
    We have with us former Governor Paul Calvo, who was chief 
executive for one term; former Governor Joseph Ada, who was 
chief executive for two consecutive terms, and we have the 
incumbent, The Honorable Carl T.C. Gutierrez. As it is pretty 
much common in Guam, I can say with some assurance that I'm 
related to two of these gentlemen, one very closely, actually, 
and the other on both my mother's and my father's side.
    As to Governor Calvo, I don't know if we're related, but 
you're older than me, and you probably know that we are 
somewhere along the line. But certainly it is with great 
pleasure that I introduce these three gentlemen--distinguished 
gentlemen--to the committee, and I'll leave it to you to call 
the first witness. Thank you.
    Mr. Peterson. I thank the gentleman from Guam. At this 
time, we'll call upon Governor Gutierrez for his statement.

  STATEMENT OF THE HONORABLE CARL T.C. GUTIERREZ, GOVERNOR OF 
                              GUAM

    Governor Gutierrez. Thank you very much, Mr. Chairman, and 
Buenas dias to the members of this Committee on Resources.
    Thank you for holding this hearing on H.R. 100, the Guam 
Commonwealth Act. I say on behalf of the people of Guam and as 
chairman of the Commission on Self-Determination, I am very 
honored to present testimony in support of democracy and 
defense of human dignity, and in defiance of the continued 
colonial status of Guam by the United States.
    The Guam Commonwealth Act embodies the political hopes and 
aspirations of the people of Guam. We are here to end the 19th 
century colonialism and to create a 21st century partnership 
between Guam and the United States of America. We 
wholeheartedly embrace the principles of democracy, upon which 
this great Nation was founded. They mirror Chamorro principles 
of family and community, which lie at the heart of our island 
way of life. Given the history of this Nation, I cannot imagine 
anyone, anyone in this room, defending colonialism. This great 
country, founded to end colonialism, can never justify the 
continued colonial rule of Guam.
    As events around the world constantly remind us, Mr. 
Chairman, once a people have tasted freedom there is no turning 
back. For us it is not a question of whether colonialism will 
end; it is simply a matter of when and how it will come to an 
end. The people of Guam, by virtue of our relationship with the 
United States over the past 100 years, have been able to 
witness, but not experience, true democracy.
    Democracy has been so close. It is taught, it is 
illustrated, and held up as the ideal. Yet, representative 
democracy does not exist in the Guam-United States 
relationship. We are frustrated, and we are losing patience. 
How much longer will we, American citizens, be denied our 
rights? As we approach a century under the American flag, we 
are asking, when will the colonized people of Guam be granted 
the right of self-determination? And the time to act is now, 
Mr. Chairman.
    Today, we bring Commonwealth quest to you because Congress 
has the plenary power and responsibility under the Constitution 
to resolve this issue. We can work together now to forge a 
democratic partnership worthy of this great Nation, but if we 
delay, the spirit of cooperation may fade and a collaborative 
opportunity may be lost. The Commission on Self-Determination 
has submitted detailed analysis of the provisions of H.R. 100 
and our assessment of the 8 years of frustrating discussions 
with the executive branch preceding this morning's hearing.
    In my brief before you today, I would like to focus on the 
core issues and the core principles on which we can build a 
mutually respectful partnership. And let me start, Mr. 
Chairman, with an issue that I know is of concern to you and 
most of the members of this panel, one where I hope we will be 
able to find common ground--and I am speaking of mutual 
consent.
    I am pleased that our panel this morning includes former 
Governor Ada, who was instrumental in negotiations on mutual 
consent with former Special Representative, Mr. Heyman. They 
concluded an agreement on new language which affirms that our 
fu-

ture relationship cannot be altered without our mutual consent. 
It is essential that any Commonwealth Act adopted by Congress 
include a mutual consent provision.
    A second core principle, undoubtedly the most misunderstood 
provision of the Draft Commonwealth Act, is Chamorro self-
determination. It is the inalienable right of the indigenous 
people of Guam to a process of de-colonization in accordance 
with international standards, standards that the United States 
has agreed to. This is a right which all the voters of Guam, 
Chamorro and non-Chamorro alike, have endorsed through a 
plebiscite. It is a process which will be defined in the Guam 
constitution, which itself would be brought before all the 
people of Guam, and, subsequently, brought before this 
Congress.
    Mr. Chairman, I am confident that under your leadership we 
can uphold the principles of self-determination.
    The third principle, which gives the people of Guam 
meaningful participation in the Federal Government--today our 
participation is non-existent and it is wrong. There is no way 
that Washington can understand the impact of laws and 
regulations on an island community 10,000 miles away, 
notwithstanding the heroic efforts of our Delegate Underwood. 
Short of giving us a vote in Congress, there simply must be a 
process to give us meaningful participation in which the way 
laws are written that govern the lives of the people of Guam, 
10,000 miles away. And we have proposed a joint commission, and 
that has been detailed in my testimonies given earlier.
    You know, Mr. Chairman, Guam serves as a strategic military 
location. That's what it was founded for; that was what it was 
taken for. We need to be able to move away from that and focus 
our attention to Guam being the economic strategic location, 
being the natural economic bridge between Asia and the West. 
And I say to you that some of those laws that constrain our 
economy--despite those constraints--we have built an economy, 
almost $3.5 billion of gross domestic product, bringing in 1.5 
million tourists a year with only 150,000 people. And we did 
this with all the constraints--and I liken it to building an 
economy with a pair of pliers and a screwdriver.
    This Commonwealth Act will provide us the power tools to 
not only sustain and grow our economy, but could be a major 
contributor to the United States of America. And we ask you to 
consider that as we move forward, because we want to be that 
bridge. It's very important that we get brought in to the 
national economic strategy, not just for the military strategy 
and national security interests. We can be a participant, and I 
say to you, Mr. Chairman, that Guam desires to be a part of the 
United States. We love--and we are patriotic.
    I know that time is very short. It took me 18 hours to get 
here and 5 minutes to say what I want to say, and it's running 
short. But I'll continue to turn the page, and I hope some of 
your questions will give me an opportunity to expand a little 
bit more on why we, as a people, need to have some meaningful 
participation. Because for 100 years we have been very patient, 
as the Chamorro way dictates, as our way of life dictates, but 
we cannot move on to the 21st century.
    And if you want to consider and continue to defend 
colonialism, then the people of Guam will have to get back to 
the drawing board and reconsider whether we, in fact, are going 
to be continually held to a standard that someone else sets for 
us. We want to be part of the United States of America 
continually, but, please, include us in the representative 
democracy that you so espouse.
    And I just say that this morning our Archbishop celebrated 
mass, and he called on the Holy Spirit to come and descend upon 
this great Nation here in Washington, DC so that you could be 
enlightened to be able to do what was right for the people of 
Guam. Thank you very much.
    [The prepared statement of Governor Gutierrez may be found 
at end of hearing.]
    Mr. Peterson. I would like to thank the Governor of Guam 
for his fine comments and his impassioned testimony.
    Now we will call upon the former Governor, Mr. Calvo.

 STATEMENT OF THE HONORABLE PAUL M. CALVO, FORMER GOVERNOR OF 
                              GUAM

    Governor Calvo. Mr. Chairman, I am here to testify in full 
support of the enactment of the U.S. Commonwealth status for 
Guam.
    On February 13, 1917, Captain Roy Smith, the naval Governor 
of Guam, appointed 34 island leaders to an advisory council 
whose staff was to consider and recommend measures for the 
improvement of the island and the welfare of its inhabitants.
    Mr. Peterson. Could the gentleman speak a little more 
directly into the mike? Thank you very much, and I'm sorry for 
interrupting you.
    Governor Calvo. Though its purpose was strictly to 
recommend to the Governor, it was given the title of the First 
Guam Congress. My grandfather, Tomas Anderson Calvo, was a 
member of that body. In his opening address, he enunciated the 
aspirations of the people of Guam. It has been 80 years since 
my grandfather asked if Guam would be accepted as a full-
fledged member of the American family.
    I come before you today respectful of the power which the 
Congress of the United States wields, and mindful of how you, 
the Membership of this esteemed body, are capable of answering 
a question that has lingered over three generations of my 
family history. Is America willing to accept Guam as an equal 
member of the American family? If the answer is yes, than I can 
predict a bright future for Guam and the Marianas, as well as 
for the strategic interests of the United States.
    My prediction, Mr. Chairman and members of this committee, 
is not some far-fetched pipe dream. The Asian Pacific countries 
are the largest trading partners of the United States. It is 
obvious that America's future lies to the west of San 
Francisco's Golden Gate. America's future lies even west of 
Pearl Harbor. An America that remains engaged in Asia and the 
western Pacific will be a strong and prosperous America, well 
into the 21st century.
    One only has to look at the economic miracle that has taken 
place in Guam over the past 30 years to see the exciting 
possibilities of an American economic strategic interest. It 
was President John F. Kennedy who lifted Guam's close military 
security status in 1960. The gross island product at that time 
was $50 million. Guam's economy relied heavily on public sector 
employment and huge military spending and Federal subsidies.
    That all changed once Guam was opened to the world. 
Investment from Asia, most particularly from Japan, flowed in. 
Guam's gross island product in 1996 was over $3 billion. The 
island prospered despite a 30 percent reduction of military 
forces in 1994. The island prospered despite hostile and 
unilateral Federal Government action, which led to the demise 
of Guam's watch and garment manufacturing industries of the 
1980's. Our island has prospered despite recent devastating 
typhoons and earthquakes. Our island will continue to prosper 
because we are a part of America and we are a part of Asia, the 
two most dynamic regions of the world.
    I dream of an America who will recognize and act upon the 
cries of its second-class citizens in the western Pacific. I 
dream of a day when those second-class citizens will finally be 
allowed to full incorporation into the American family. I dream 
of a day when Guam and the Marianas will be America's economic 
jewel in the Pacific and America's physical link to Asia.
    As a former Governor, I have had the opportunity to read 
Haley Barbour's ``Agenda for America,'' which outlines the 
viewpoints on the future direction of the United States. The 
book envisions a more secure and strong America that bases 
itself on a strategy of peace through strength. It premises 
that American foreign policy would rest on three principles of 
peace through strength. First, its political leadership; 
second, economic strength, and, third, its military power. It 
is my firm belief that a fully incorporated Guam and Marianas 
would strengthen the foundation of these three principles of 
foreign policy.
    I will close by declaring my unwavering loyalty and 
allegiance to the United States, but I must, in all good 
conscience, respectfully caution this fine body that the 
patience and the good will that has been so clearly 
demonstrated by so many generations of our people is not 
infinite. There is indeed a frustration growing amongst our 
people. Positive steps need to be taken and, frankly, ladies 
and gentlemen, the time to take this important and needed step 
is now. You have the power to take those steps.
    For generation after generation, proud Chamorros and all 
other American citizens of Guam have proudly sung the national 
anthem, recited and proudly believed in the Pledge of 
Allegiance, and in every war America has fought since the turn 
of the century bled and died for our Nation. We have 
demonstrated repeatedly that we love and will die for our 
country. We want, we need, and clearly by historical record, we 
have earned the right to be accepted in full by the United 
States of America.
    I ask you ladies and gentlemen, once and for all, is 
America finally ready to accept us? Thank you, and [speaking in 
Chamorro] ``Si Yu'os ma'ase.''
    [The prepared statement of Governor Calvo may be found at 
end of hearing.]
    Mr. Peterson. I would like to thank the former Governor 
Calvo for his fine comments, and now we'll call upon Governor 
Ada. And I would urge all the witnesses to speak closely to the 
mike; they're not real sensitive.

 STATEMENT OF THE HONORABLE JOSEPH F. ADA, FORMER GOVERNOR OF 
                              GUAM

    Governor Ada. Mr. Chairman, and members of this august 
body, this document is the creation of our people in 
plebiscite. This document was approved by the majority of Guam 
voters, and especially by the Chamorros in Guam.
    The document that is H.R. 100 is already an historic 
document, regardless of what happens to it, for the simple 
fact, Mr. Chairman, we have before us the only democratically 
expressed view on the political status of Guam that has ever 
existed in the 300 years that Guam and the Chamorro people have 
been administered by Governments other than ours. This document 
is the only expression of the democratic voice of our people 
that exists with respect to political status, the only one. For 
that reason alone, it must be treated with respect as you 
deliberate on the fate of that expression.
    Today you are hearing from Guam--Democrats and Republicans. 
All of us, whether Democrats or Republicans, as Governors and 
Guam legislature, have fought for self-determination for the 
Chamorro people and self-government for Guam, because in Guam 
there is no Republican position or Democrat position on 
Commonwealth, because on this issue we are united.
    I spent 8 years fighting for this Act as Governor. We 
brought this Act to an earlier Congress, and they insisted that 
we first begin discussions with the executive branch. That we 
did. We spoke to the task forces in both the Bush and Clinton 
administrations. At first, these discussions with the 
administration were extremely difficult. In the beginning, the 
Bush task force tried to claim that we were already self-
governing, even though every Federal court decisionmakes it 
clear we are not.
    Just because we can elect a legislature and a Governor, as 
you know Guam only is permitted to do these things by 
delegation of Congress, Congressional authority in the Organic 
Act. This Congress has the authority, tomorrow, to throw our 
legislature out of office, nullify all local laws, to replace 
the Governor of Guam with the Commander of Naval Forces 
Marianas or Presidential appointees or naval officers, as 
indeed was done in the past.
    As one Federal court put it, ``Guam has less self-
government than Boulder, Colorado.'' It does not matter if Guam 
writes a constitution if that constitution is subject to 
congressional amendment or approval, or if that constitution 
does nothing to address the imbalance between Federal and local 
authorities.
    What we seek in this Commonwealth is increased actual self-
government for the people of Guam. We seek recognition of the 
fact that the Chamorro people have never been granted an 
exercise of their self-determination and recognition of their 
process to give the Chamorro people the opportunity to exercise 
that right.
    Under Commonwealth, although Congress would retain very 
significant powers over Guam, very specific authorities would 
be vested in the Government of the Commonwealth. These powers 
would be permanently vested in the Commonwealth, not delegated 
and subject to revision. This is critical. That is why in the 
past I have referred to mutual consent as the heart of this 
act. Without mutual consent, this act just becomes another 
Organic Act.
    When I left office, we were working closely with the 
Clinton administration, as we had with the Bush administration. 
Through their representative we signed agreements in which the 
administration agreed to mutual consent over the act. 
Unfortunately, in the Bush administration, signed agreements 
were reneged upon, and now it seems in this administration 
agreements reached with Mr. Heyman and his successor, Mr. 
Garamendi, are also being reneged upon. We have trusted in the 
administration, and Mr. Chairman, our trust has been betrayed.
    Mr. Chairman, with all due respect for my language, Mr. 
Garamendi has just massacred the heart and soul of our people, 
their dreams and aspirations. He has been dishonest in his 
statement. Mr. Chairman, we shall continue to fight. I am sure 
that what I say today--that the Federal immigration in Guam 
will refuse my entry into my homeland.
    We look to this Congress to restore our faith in the 
process. Our experience is the strongest proof of why mutual 
consent is so necessary. After all, if executive branch 
representatives and task forces are constantly changing their 
minds and betraying agreements, how can we relay on somebody's 
simple word? We need certainty, and only mutual consent can 
provide that certainty.
    Self-government--given the limited self-government we seek 
at this time--is only possible if Congress partially disposes 
of its plenary powers under the Territorial Clause. In our 
view, there is no doubt Congress has the power to do this under 
the plenary powers granted by the Territorial Clause, and the 
people of Guam deserve to have this done.
    There are many ways that Commonwealth benefits Guam, but 
perhaps the greatest benefit we receive is the least tangible 
justice. In peace and war, Chamorros have been loyal friends of 
America. We have been alongside you in many wars. We have 
supported you, given of our land, our blood, our lives, and 
nobody can deny that. If any people have earned the 
consideration of this Government, I can say without fear and 
contradiction, it is the Chamorro people. I hope the reward for 
loyalty is just respect. I hope that after 300 years you will 
do what the Spanish never did, and what so far this Federal 
Government has not done. We hope you will do what is right for 
the Chamorro people, for the people of Guam, for America.
    And last, Mr. Chairman, I resent the fact that Mr. 
Garamendi does not believe in our people to exercise self-
determination. It is an insult to say that our people cannot 
distinguish between right and wrong. We are people just like 
you. We are people like people in America and in every other 
country, and those people are fortunate to have self-
determination. And we have been robbed of that self-
determination for over 300 years, and we're still the victim of 
discrimination.
    Mr. Chairman, I ask this august body to take a handle on 
this process because we cannot trust the administration 
anymore. For over 8 years they have said, ``Let's do this; 
trust us--and trust us and trust us.'' And yet as we turn 
around, and at the end of every administration, they have 
reneged on all of the agreements that we have signed, too. That 
is not justice. I beg of this august body to take handle of 
this and achieve for the people of Guam the same dream that 
this American country is noted for in helping countries achieve 
their democratic process.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Governor Ada may be found at end 
of hearing.]
    Mr. Peterson. I'd like to thank Governor Ada for his fine, 
impassioned testimony, and the other two Governors for their 
testimony.
    At this time, we will open it to questions. Does the 
gentleman from Tennessee, Mr. Duncan, have a question?
    Mr. Duncan. Well, Mr. Chairman, no; I don't have any 
questions. I just would say I thank the witnesses for coming 
this great distance and taking such time to get here, and I 
certainly can understand why they would desire more self-
government. I did read this description of the bill that says, 
``U.S. income taxes will generally not apply to Guam, yet Guam 
will receive the full State level of Federal assistance and 
programs.'' And I wonder if there might be some way we could 
get that to apply to the citizens of Tennessee, also.
    [Laughter.]
    But I am very favorable toward what they're requesting. 
That's all I would say at this time.
    Mr. Peterson. Mr. Farr, from California.
    Mr. Farr. Well, thank you, Mr. Chairman. I want to welcome 
everyone to Washington, and to my Chamorro friends, Hafa Adai.
    I want to tell this committee something. I served in the 
California State legislature, and in 1992 I had the opportunity 
to lead a group of State legislators from the Western United 
States to Guam for a legislative conference. That experience 
opened my eyes. It opened my eyes to the fact that so few 
people who live on the mainland even know where Guam is or how 
far away it is. In fact, you can't get there from here. You 
can't get from Washington to Guam. You can't get from the west 
coast to Guam without going through Hawaii or some other place 
offshore. It is so far away that most people on this side of 
the globe don't get there.
    What I was struck by is what an incredible island it is, a 
beautiful place that obviously generates its income from 
tourism and the pride of the Chamorroan people. It's an 
incredibly rich culture, and it's a very diversified island. In 
fact, I would submit that that island is more diversified than 
any congressional district, and there are only 135,000 people 
on the island. The island's economy is in the region.
    Everything done there, though, is dependent on Washington, 
DC. Why does Washington want to be so possessive, so paternal 
about a place that most of the bureaucrats have never even 
visited? And yet those bureaucrats are in control of the 
ambient air quality of Guam. People don't even know about 
prevailing winds; the wind blows all the time. Anything that 
goes up gets blown away, and yet you have bureaucrats out there 
checking the ambient air quality, trying to do things on 
wetlands in Guam. It's a small island, and yet we put all that 
bureaucratic legislation on top of them.
    I mean, if you are in Guam and you sit there and try to 
understand why this country has been so possessive of an 
island, not allowing people to have self-determination, I think 
you begin to echo what the Chamorro people are saying, which 
is, ``Let my people go.'' Congress, let this bill go. Move it 
through Congress; put the pressure on the President to make 
sure that they deal with this island to give people some self-
determination. That is the American way.
    Thank you, Mr. Chairman.
    Mr. Peterson. Mr. Cannon?
    Mr. Cannon. Thank you, yes. I would like to ask one 
question just to give the panel an opportunity to dispute a 
little more on the issue.
    First of all, I was thinking that maybe many of the States 
would like to join in Mr. Farr's sentiments and get rid of many 
of these federally imposed laws. In fact, you could come over 
on this side if you'd like, Mr. Farr. We'd love that.
    Mr. Farr. Well, you have State's rights, and they don't 
have State's rights; that's what they're asking for.
    Mr. Cannon. That's right. On the other hand, this august 
body is often difficult to work with, and then if we're not 
able to pass the Guam Commonwealth Act, what are the three of 
you thinking are the next steps for Guam? When I say ``not 
pass,'' I mean in this session or the next session. It may take 
us a while to move that forward. What do you think are the next 
steps for Guam?
    Governor Gutierrez. Well, I think the process at this 
particular time, as the door was opened by this administration, 
is to have a tri-partite negotiation process between the people 
of Guam, as mandated by H.R. 100, this administration, and this 
Congress, who has this plenary power to make that final 
decision. What we have been going through in an exercise of 
futility is the fact that we have to come back and negotiate 
with this Congress again. We have made a lot of progress.
    I think the core principles as embodied in H.R. 100, as the 
people of Guam have voted on it, need to be brought to a 
closure. The opening of this administration to say that if we 
put this tri-partite negotiation together, that we should look 
at June 20, 1998 as the drop-off date that we should come to 
some kind of a resolution to this 100-year quest by the 
Chamorro people, it's only right, Congressman, that if all else 
fails with this Congress, the people of Guam then will decide 
that; and I would not want to second-guess what the people of 
Guam would do.
    I am the chairman of the Commission on Self-Determination, 
present Governor, and I'm carrying the mandate of the people of 
Guam to this Commonwealth Act, and I can only speak to that at 
this particular time.
    Mr. Cannon. Do the other members of the panel want to 
address that at all?
    Governor Calvo. I am the oldest of the Governors here, so I 
have been removed from politics, but I can tell you that not 
only are our aspirations, Mr. Chairman, good for us, but I 
think it is a good investment, a very good investment for this 
Congress to consider giving us what we're asking. And the 
reason I say this is because we just had a situation where what 
happens in Hong Kong affected the whole Nation, the whole 
globe. And I think that you have an opportunity to have a 
presence--not just a colony, but a presence--U.S. soil.
    And you know, I know that we have been coming to the 
Congress here, and we're saying, ``Hey, practice what you 
preach.'' You tell China what happened in Tiananmem Square was 
wrong. You know, you tell third-rate countries that, ``Hey, you 
should treat your citizens--remember civil rights and civil 
liberties.'' That is nice, but I'm sure that everybody asks, 
``What's in it for us?'' And I say you are against us because 
we are thousands of miles away, and although we are Americans 
by virtue of your act, you can take it away from us at any 
time.
    But if you were to--the trading partners of the United 
States, which are Korea, Japan, China, New Zealand, Australia, 
and Taiwan, they comprise about 46 percent of all the global 
production. And they say that in China, by the year 2010 or 
2015, it is going to surpass the United States. I think that 
it's not just good for you to consider what's good for us, but 
it is good investment for the United States.
    And even though I'm not involved in the process that 
Governor Gutierrez is involved in, being the chairman, I think 
that besides asking the question of what is good for us, the 
people of Guam, ask what's good for the United States. Because 
this is where the action is--so pass it.
    Governor Ada. Mr. Chairman? May I also respond?
    Mr. Peterson. Mr. Ada wants to answer.
    Governor Ada. Mr. Chairman, I've been in politics for 24 
years, and I've often come to Congress to testify before the 
Ways and Means Committee. And I always remember Congressman 
Yates looking at me, testifying before him on budgetary 
matters, and he would always say to me, ``Mr. Speaker, why 
don't you go back home and develop your economic potential, and 
do something back home to generate revenues for your people?'' 
And I looked up to him, Mr. Chairman, and in my own mind I 
wanted to tell him, ``Mr. Chairman, you have tied our hands for 
so many years that we cannot move ahead economically.''
    This is the reason why, Mr. Chairman, that we are embarking 
on this Commonwealth, because we want some economic liberty 
where we have very limited resources in Guam, and we cannot in 
any way move ahead and take advantage of the creativeness of 
our local people to go into ventures without having the Federal 
Government coming in and tying our hands.
    The Governor here mentioned prosperous garment factories in 
the 1970's, prosperous watch factories in the 1970's; hundreds 
and hundreds of our local people were gainfully employed. But 
through the efforts of the people in the US, the garment 
industry people and the watch industry people--the lobbies--who 
had influenced the administration to kill the industry that we 
had in Guam that we had been exporting--approximately $100 
million worth of garments and watches into the United States--
and at the same period of time other countries, like Hong Kong, 
Taiwan, and Japan, have been exporting into the United States 
$6 billion worth of garments and watches, compared to the $100 
million worth of garments and watches from Guam, and this as a 
result of the lobbies killing and robbing our people of their 
livelihood.
    These are the kinds of things that we want to prevent in 
this Act, and this Act will help. If you look into this Act, 
Mr. Chairman, and members of this august body, you will find 
that it will mutually benefit all of us because it will give 
our people that opportunity to achieve their dreams and 
aspirations, to be innovative and creative, and at the same 
time be less reliant on the Federal Government coffer. And we 
have done that so far, even with the fact of the Federal 
constraints imposed upon us. We have accomplished what other 
people can't believe that we have so far, for many years.
    But we are looking for the next generation. It is our duty 
and obligation to provide the economic environment for the next 
generation, because we just can't work for this generation. And 
that's what this Commonwealth is all about, Mr. Chairman.
    Mr. Abercrombie. Mr. Chairman--would the gentleman yield on 
that last answer?
    Mr. Cannon. Yes.
    Mr. Abercrombie. I want to make absolutely sure--Governor 
Gutierrez has presented a much different approach, Mr. Ada. Are 
you telling me that this Commonwealth bill is an opportunity 
for you to have labor that will not meet standards, like 
minimum wage and health and environmental standards? And that 
you want to have Guam considered as if it was China and the 
rest, which I oppose?
    Governor Ada. Mr. Congressman, I am glad you asked that 
question, and I challenge each member of this august body----
    Mr. Abercrombie. Just a moment, Mr. Ada--you're not going 
to challenge me to anything. I can tell you that right now. 
You're not going to run for office on my time.
    Governor Ada. I'm trying to respond to your question, Mr. 
Chairman.
    Mr. Abercrombie. I just want a simple answer. I do not read 
H.R. 100 in the manner in which you have just described it, and 
Governor Gutierrez's approach seems much more likely to 
succeed. Now if I understand you correctly, if I understand 
what you're stating here, you have a different interpretation 
of H.R. 100 than I do.
    Governor Ada. No, sir. The reason why I said that I 
challenge each member--not to be disrespectful, Mr. 
Congressman. You have been misled by the administration in so 
many ways. In the end, it guarantees that Guam would not 
implement any law that is lesser of the U.S. labor law. We 
should not implement any law that would also be contrary to 
wages, and so forth. We will uphold the labor law, and the only 
thing that we can do is do even better than what is in the 
Federal labor law. So we do honor and respect the labor laws, 
as well as where wages are concerned, and it's for that reason, 
Mr. Congressman. I'm sorry if I tried to imply that you haven't 
read the act. I understand that that's another matter, but it's 
been so often misrepresented.
    Mr. Peterson. I feel called upon here to call a recess for 
15 minutes where members will be free to go vote, and then 
we'll be right back. So this will give those of you sitting a 
chance to stand and stretch and take a breath of fresh air, and 
we'll be back shortly.
    [Recess.]
    Mr. Peterson. Ready to go back to work? If we can find our 
Governors, we'll proceed.
    Governor Gutierrez. I'm here, Mr. Chairman.
    Mr. Peterson. If everybody could take a seat, we'll get 
started. We have a lot of territory to cover yet--that slipped 
out.
    [Laughter.]
    Mr. Peterson. We're going to get started now, if I could 
have your attention.
    I will call on the gentleman from American Samoa, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. That's all 
right--you've just slaughtered my name, but I know you mean 
well.
    Mr. Chairman, I would be remiss if I do not also offer my 
personal welcome to the three distinguished Governors whom I've 
had the privilege of knowing personally: Governor Gutierrez and 
Governor Calvo when I was formerly a staff member of this 
committee--ages ago--and my good friend, Governor Ada, for 
their presence. And I also welcome my good friend, Ron DeLugo, 
who is former chairman of the Subcommittee on Territories, who 
is here with us.
    Mr. Peterson. Would the gentleman yield? We need more quiet 
in the room. If you need conversations, I guess whisper or go 
outside. We really do need your attention.
    The gentleman may proceed.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I had hoped that 
my good friend from Hawaii, Congressman Abercrombie, would be 
here because there were some questions and issues that he 
raised that we wanted, not only for purposes of clarification, 
but as well as for his edification and understanding of the 
problems with the insular areas, separate and apart from the 
history of Hawaii when it became a territory, an incorporated 
territory, and then eventually became a State.
    But I would like to thank the three Governors for their 
profound statements, and I just wish that more members of our 
committee would be here so they could receive a little sense of 
education about what happens out there and the problems that 
we're faced with when issues such as this come before the 
committee for consideration.
    I would like to ask Governor Gutierrez, as chairman of 
Guam's Commission on Commonwealth, I made an earlier statement 
to Mr. Garamendi that, in my humble opinion, for the past 8 
years we have not moved one inch since the proposed 
Commonwealth Act, and the fact that the people of Guam have 
voted, have given their consent, that this is what they want.
    Do you think, Governor Gutierrez, that we have a problem 
here with the process? You know, we all know that it took over 
10 years, I think, for the Federated States of Micronesia to 
negotiate their Compact of Free Association until finally it 
was approved by the Congress. I believe, also, that your 
cousins in the northern Mariana Islands also took several years 
before their covenant relationship with the Congress was also 
approved, so I'm having a little problem here with whether it 
is the process that is the problem, or is it because of the 
substance?
    It was almost like the document has already been approved 
by the people and the voters of Guam, and it seems to me that 
this kind of locks in everybody. It's either a take-it-or-
leave-it basis for the negotiators to go in there. Is there any 
sense of flexibility in the process, like the way the Compact 
of Free Association was negotiated? You know, it was a give-
and-take; it took over 10 years to do this. Now, 15 years 
later, after the voters of Guam opted for Commonwealth, your 
own sense of definition of what Commonwealth is--because it's 
not like Puerto Rico's Commonwealth; it's not like 
Pennsylvania's Commonwealth status. So I am in a quandary as 
to, is it the process that we're having a problem with?
    My own sense, my feel right now of the situation, is that 
we have a document in place, the people of Guam voted on it. 
How will it be possible, then, for the members of the 
administration, or even the Congress, to have any sense of 
negotiation or flexibility if, in fact, the compact is already 
written in stone, so to speak, by the people of Guam? Do you 
see the problem I'm having?
    Governor Gutierrez. OK.
    Mr. Faleomavaega. And I would please welcome your 
suggestion.
    Governor Gutierrez. Thank you very much, Congressman, and 
let me say that the problem is a little bit of both, I think--
the substance and the process. And the fact that we're not 
blameless in this situation either; the people of Guam are not 
blameless in this. And, certainly, the Congress, when they sent 
us to the administration in 1989, it was a mistake--without 
themselves weighing in.
    The difference between the freely associated States and the 
CNMI, at the time that they had negotiators, you had 
Ambassadors doing it. They were not U.S. citizens. Now when you 
look at Guam, you've put us in this United States citizens 
mold, and, suddenly you tell us that ``You're a United States 
citizen. You have no right to negotiate with your own 
Government.'' And this is where the problem lies.
    Now as we move forward, we have to take who's got the power 
and the authority to make things happen, and it's Congress. And 
if Congress does not weigh in at the outset, you're going to 
continually see this process dragged on for the next 
millennium. And so the suggestion as we spoke with this 
administration--and you heard it from Mr. Garamendi; it was not 
without my knowledge--is that we continue to open the door, but 
have a tri-partite negotiating theme and a deadline set--and I 
suggested the date June 20, 1998, the 100th year of the raising 
of the U.S. flag over Guam.
    If you put that in the process to move forward, then you 
would see the substance and the process actually work. It won't 
work now. But the testimony--I'm a forever optimist, Mr. 
Congressman, and people take potshots at Mr. Garamendi for his 
statements. I've been dealing with the gentleman for over 
almost 2 years. I know what he feels in his heart. I think his 
inner-being knows that he despises colonies. I know I spoke 
with President Clinton. His inner-being despises colonies.
    It's trying to break through this mold and this box of 
constitutionality, which we ought not to be thinking in. We 
ought to step out of this box and start to realize that to be 
able to bring a people such as Guam, with a unique history, to 
move forward in a relationship that gives some dignity to the 
island and its people, you've got to step out of the box. And 
if you continually stay within these constitutional questions, 
we will never come to any resolution of the problem.
    And we say to you, Congressman, that for 100 years you have 
inculcated in our minds, if not ingrained in our minds, true 
representative democracy and the system that makes this Nation 
great and that makes it work. And if you don't allow us to come 
forth and get a unique relationship--because you're telling us 
that Statehood is out of the question; you won't give us the 
two senators and a representative that can vote; so, therefore 
you have to give us some unique representation here. And the 
process as we have envisioned it with this administration is to 
put together a mechanism such as a Federal commission in which 
Guam has input--not veto power, but input into the way the laws 
are made that govern our lives.
    Mr. Farr has been out there, but I would say that 99 
percent of the Congressmen and Senators have never been to 
Guam, but they continually make legislation that impacts my 
life adversely without their knowledge. And I don't think they 
like or have to do that if you had a commission come in to say, 
``Wait a minute, Senators. If you allow this bill to pass, it 
might hurt Guam.'' Now if they don't want to take that advice, 
then Guam is going to be negatively impacted. But it requires 
that this commission have some high-level people in it, 
appointed by the President of the United States.
    Now this is our representation in Congress, and it doesn't 
have a veto power, but it has some meaning. Because if you 
don't give us the Senators and the Congressmen, obviously, 
then, we have to devise a unique relationship, and that's all 
we're asking for. We want to be continually a part of the 
United States. It's part of me. My very first memory--my very 
first memory, walking out of that concentration camp at 3-
years-old, was that G.I. walking me out and carrying me--that 
smiling face. So you cannot take away from me that America is 
great. Anybody that says Americans are no good has a fight with 
me.
    But I say, also, in the truest sense of democracy, that you 
have to do something with how this Government was founded in 
the first place and to embrace all that are US citizens. You 
can't leave us out there, out there 10,000 miles away to fend 
for ourselves, because we are America in Asia and you have to 
understand it from that perspective.
    Our economy is Asian economy, and if you continue to have 
those Federal laws bind us from moving forward, growing our 
economy, then you will see that there's tension building, and 
then you will see that there's not going to be harmony with the 
relationship with the United States.
    And the people that we face daily is the US military out 
there. We still want to be able to do that, but for God's sake, 
make sure that the people of Guam get more of their internal 
self-governance. That's all we ask.
    Mr. Faleomavaega. Governor Gutierrez, within the matter of 
7 or 8 months, you will have reached 100 years. Whether we're 
going to celebrate it, or whether we're going to do something 
else to commemorate the 100th year of the relationship existing 
between Guam and the United States--and I want to ask for your 
best opinion--what are we going to celebrate next year?
    Governor Gutierrez. Well, if Congress says,``Yes; we'll go 
on the tri-partite negotiations,'' I think we would celebrate a 
renewed relationship that moves us into the 21st century, that 
the people of Guam would allow for bringing to a closure, as 
Congressman Underwood said, the right to self-determination of 
its people. And I say to you: Not to worry, Congressman. You 
have taught us well in American democracy, and I don't know why 
anyone would worry how the people of Guam would choose if you 
give them that opportunity.
    Mr. Faleomavaega. I'm sorry, I didn't mean to--Governor 
Calvo, Governor Ada?
    Governor Calvo. I was just going to say that Governor 
Gutierrez covered the subject very well, but I'd just like to 
put a more practical prospectus into the situation. We are 
American citizens, a possession of the United States, which is 
quite different than the northern Marianas and the rest of the 
islands. And in fact, during World War II, we were the only 
island that was with the allies. And so you have a situation--
and also, we're the island that has the military presence.
    It reminds me of when I was young; you know, when you are 
courting your girlfriend, you are very nice and you promise her 
heaven on earth, but once you get married, some people look at 
their wives as their possession. And so in that way, I feel 
that Guam is a spouse of the United States. And they say, 
``Hey, stay at home and do exactly what I say. Don't do what I 
preach out there, just do what I say.'' And I know it's kind of 
hilarious, Mr. Chairman, but that is the difference between 
Guam, the northern Marianas, and the rest of Micronesia. We are 
a possession. We are a colony.
    And, of course, somebody was mentioning--the gentleman, I 
think, from Connecticut--the Congressman from Connecticut--that 
why should you be so possessive when all we're asking is to be 
like you over here. Thank you.
    Mr. Faleomavaega. Governor Ada.
    Governor Ada. Thank you, Congressman. I just would like to 
ask this august body to issue a directive in some form to the 
administration to carry this process if this is your wish, or 
take handle of this process yourselves. I have experienced the 
frustration of having to sit across from the task force of the 
two previous administrations and have come to an agreement on 
major issues, such as consultation with the military on various 
matters, such as the immigration laws, such as the trade 
policies; and the most important part, the part that everybody 
has said is unconstitutional, is the mutual consent provision. 
We had come to an agreement.
    Michael Heyman, a noted law professor, chancellor of 
Berkeley University, was the Clerk of the Supreme Court during 
the 1960's--he had drafted the proposition and submitted it to 
the administration that mutual consent is do-able. We have 
worked on this issue for many years, and we have researched 
every constitutional issue with respect to mutual consent, and 
to this date, every time we have reached an agreement and at 
the end of every administration, the major concessions, the 
major agreements that we have signed were reneged. It happened 
again during the Clintonadministration. I mean, there is 
absolutely no trust, and then they come before Congress and 
mislead the Members of Congress.
    A question was asked here earlier about the fact that under 
the Commonwealth that we are proposing to have slave laborers 
if we do have a garment industry in Guam. That is not the case. 
Congress has been misled. We, in the Commonwealth, if you've 
read the Commonwealth, we protect the integrity, and rightfully 
so, of the laws passed by the United States with respect to 
labor and wages, and we will not do anything less than to 
uphold that law or to strengthen the law to protect laborers.
    These are the types of things, Congressman, that bother me, 
and there must be some kind of direction that you receive the 
appropriate recommendation. If they do disagree, let it be so, 
and let Congress handle that matter themselves, but not to 
disagree under the guises that it is unconstitutional, because 
there is nothing unconstitutional in the section of the 
Commonwealth of Guam.
    It has been researched very well, and to use that argument 
is to deceive not only the people of Guam. It would be an 
insult that we don't know what we're doing, but it would be 
more of an insult to Members of Congress to tell them this is 
the case where it is not the case, and this is all we're 
asking, Congressman.
    Mr. Faleomavaega. Thank you, Governor Ada. Mr. Chairman, my 
time is up, and for a matter of observation, I want to also 
mention to Governor Ada that California has higher labor 
standard laws than the Federal Government, and I think that's 
what you were trying to explain about the fact that Guam will 
enact or pass laws--if not the same standards as the Federal, 
or even better.
    Governor Ada. That's right.
    Mr. Faleomavaega. So I appreciate your clarification on 
that. Thank you, Mr. Chairman.
    Mr. Peterson. I recognize the gentleman from Guam, Mr. 
Underwood.
    Mr. Underwood. Thank you, Mr. Chairman, and I sure 
appreciate the testimony of the three Governors, certainly the 
practical approach of Governor Gutierrez and the impassioned 
pleas of Governor Ada, and the fact that Governor Calvo has 
encapsulated that this agreement is not just good for Guam; 
it's good for the United States, are legitimate parts of the 
enterprise which comprise the Commonwealth Act. These three 
approaches are all very strongly felt, and these are all ways 
of viewing the proposal which will help us perhaps bridge the 
gap and move us in the direction of passage.
    I noticed, Governor Calvo, that you mentioned that this is 
somewhat like after marriage and after you slip on the ring. 
Some people would not compare our relationship as one of 
marriage, but rather one of being a kept woman; more like, if I 
give you an apartment, would you just keep quiet? And that if 
we just give you so many Federal programs, would you just keep 
your issues about self-determination and increased autonomy and 
power to yourselves?
    I also just wanted to touch briefly on the issue of the 
interchange between Mr. Abercrombie and Governor Ada, and I 
clarified with Mr. Abercrombie that Guam is not at all seeking 
the kind of things that he may think, that what we really had 
in that situation was that as an industry started to take off 
on Guam, lobbyists were able to switch the quotas on us and 
destroy the industry.
    And it wasn't because we had standards that were less than 
those that existed in the 50 States; indeed, all the existing 
standards on Guam are comparable to the 50 States, and, indeed, 
we have the full application of minimum wage. In fact, at 
times, Guam's minimum wage has actually been ahead of the 
Federal minimum wage, so there's no issue about wages, and 
certainly there's none of the problems that are associated with 
labor standards.
    There are two questions I would like to ask. Since all of 
you have been chief executives, and one the incumbent, and I 
know, Governor Calvo, you were the very first chairperson of 
the Commission on Self-Determination. The first question I'd 
like to ask is, is this business about being a tribe. Have any 
of you ever heard a reputable call or has anyone ever expressed 
to any of you any interest in the Chamorro people of Guam 
becoming a federally recognized tribe for purposes of 
exercising sovereignty?
    Governor Ada. No.
    Governor Calvo. No.
    Mr. Underwood. Governor Gutierrez?
    Governor Gutierrez. I'm sorry; I wasn't paying attention.
    [Laughter.]
    Mr. Underwood. Oh, you're filling out your tribal 
enrollment sheet, are you?
    [Laughter.]
    Governor Gutierrez. I'll see if I can pass some notes up to 
someone.
    Mr. Underwood. The question is, In your capacity as 
chairman of the Commission on Self-Determination, have you ever 
heard a reputable call for the acquisition of tribal status for 
the Chamorro people in order to exercise sovereignty?
    Governor Gutierrez. I've heard of it.
    Mr. Underwood. But do you consider it a reputable proposal?
    Governor Gutierrez. Not from the people of Guam, 
themselves, but a few corners.
    Mr. Underwood. Basically from people that aren't even from 
Guam.
    Governor Gutierrez. Well, they're trying to get some people 
from Guam to see it their way, but the people of Guam and its 
leadership have generally not moved forward in that direction.
    Mr. Underwood. OK, thank you; then the one remaining issue 
that I'd like to solicit your comments from: we've noticed that 
in the representation by Mr. Garamendi of the Clinton 
administration's position on this, full local control of 
immigration has been rejected as a cornerstone of the Clinton 
administration's position, but they did concede that there was 
some possibility for making some kind of Guam-specific 
immigration policy, either in terms of providing relief for 
temporary workers or, perhaps, for limiting the impact of 
permanent immigration. And I wanted just a brief statement from 
each one of you, whether you see some room for maneuvering in 
that statement, or is that, in the current parlance of the day, 
non-negotiable?
    Governor Gutierrez. Well, let me answer first. I see some 
room for bringing this thing to a--as I envision the principle 
of immigration control as proposed in H.R. 100, that is to be 
able to limit the number of people on Guam, particularly 
because of the size of the island and, you know, the finite 
resources that we have to sustain a big population in Guam. And 
the fact that the United States, through this administration's 
willing to be able to try to uphold that principle, whether we 
control it or not, is at least a step forward in the way that 
the Congress in the past has continually made national 
immigration policies stick to Guam.
    So, I think there's room for us to continue. As I said, 
Congressman, I may be an eternal optimist, but we've got to be 
able to look at the good things that this administration has 
just said here instead of jumping all over them and saying that 
they betrayed us. I'm not trying to take issue with Governor 
Ada, but I look at it on a different point, and I think it's a 
call for all three of us to get together. And I heard his 
pronouncements on the various principles that we are trying to 
get in H.R. 100, and I think we can get that. We're looking for 
the mechanism to make it happen, and we ought to continue to 
let that door open, and let's get moving on.
    Mr. Underwood. Governor Calvo--on the immigration.
    Governor Calvo. Yes; I think the fact that our island mass 
is so small and that we've already got 150,000 people there, 
that we should have control on immigration. And not so much to 
exploit--and I think the implication was to bring in cheap 
labor--but we need control so that we will not be 
overpopulated.
    And one of things that our Congressman is constantly 
working for is the question of compact impact. Here's a 
situation where we are spending more than you gentlemen are 
reimbursing us, and so it's these types of problems that need 
our input--in immigration, especially.
    Mr. Underwood. Thank you. Governor Ada?
    Governor Ada. I think it's a step in the right direction, 
and I just hope that he is pretty much honest about it.
    Mr. Underwood. OK. Well, I appreciate those comments. 
There's always a tendency sometimes to characterize the H.R. 
100--which is being heard in its entirety as it was passed 10 
years ago--as something akin to Biblical revelation; this is 
not Biblical revelation. It is a piece of legislation, and it 
is a proposal, and there are some core principles in there that 
we will not shrink from, and I think those of us who have been 
involved in the process have identified those principles very 
clearly and forthrightly.
    But, certainly, even in the discussion of immigration, 
there's obviously some room for discussing some alternative 
approach which takes into account the principles and the issues 
which we have identified, and at the same time avoids some of 
the problems, and, frankly, political considerations which are 
in the environment.
    Mr. Chairman, I ask unanimous consent to submit a 
resolution and statement from the President of the Mayor's 
Council of Guam in support of the Commonwealth Act.
    Mr. Peterson. Without objection.
    Mr. Underwood. Thank you.
    [The statement of the president of the Mayor's Council of 
Guam may be found at end of hearing.]
    Mr. Peterson. Ms. Green.
    Ms. Christian-Green. Thank you, Mr. Chairman. I know that 
my full statement has been entered for the record, but as a 
fellow American citizen from one of the territories and having 
a stake in seeing that the integrity of this process is 
maintained, that the people of Guam exercise their right to 
self-determination, I really must express my unqualified 
support for H.R. 100, the Guam Commonwealth Act, and my extreme 
pleasure that today, after 10 years, the people of Guam are 
finally getting this hearing on their choice of Commonwealth as 
their vehicle for self-determination.
    And I wanted to add my word of welcome to our colleagues 
who have testified and to the two former Governors, and 
Governor Gutierrez, and especially I wanted to add a word of 
welcome to the many Guamanians who have traveled that long 
distance to their Nation's capital to be here today to 
demonstrate their strong support for the Guam Commonwealth Act.
    I want to also welcome my predecessor and friend, Ron 
DeLugo, if he's still here, and to join my other colleagues in 
commending Congressman Underwood for his determination, his 
faithfulness, and his hard work in bringing us to this day.
    We, on behalf of the people of the Virgin Islands, we 
pledge our unwavering support in seeing this process through to 
a successful completion by the 100th anniversary of Guam's 
becoming part of the American family. This Congress has the 
power, and it has the authority to do so. And as Governor 
Gutierrez said, the time is now for us to act.
    And many of my specific questions have been answered, but 
Governor Gutierrez, as you ended your opening statement you 
said that there might have been other things that you would 
like to elaborate on, and I'd like to just give you the 
opportunity to do that, if you wanted to, with the remainder of 
my time.
    Governor Gutierrez. Thank you for that opening, Delegate 
from the Virgin Islands; Donna, thank you.
    What I meant was that--you know, the time that you sit up 
here, as little as it gets, sometimes does not give you the 
opportunity to say what you want, and what I meant was that I 
hope that during this period of questioning and answering that 
we might be able to elaborate more. I have done a lot of that 
in the very principles that we have envisioned in H.R. 100, and 
I would like just the opportunity to answer any questions. And 
thank you for that.
    Ms. Christian-Green. Thank you. I don't have any specific 
questions at this point.
    Mr. Peterson. OK; thank you. Would the three Governors 
answer the following question--their views on an elected 
attorney general. Do you want to start, Governor?
    Governor Gutierrez. Well, that's fine with me. The 
situation you've got to look at in Guam--you know there's a 
position in the Guam legislature now called the Surihanu. The 
Surihanu is an arm of the legislature to investigate, much as 
like you have with the GAO. Now they're trying to pass a bill 
that would make that an elective office within an elective 
office.
    Guam is very small. You can--and I'm sure the people of 
Guam will accept the election of an attorney general. The 
problem that we see in the future is that everything in Guam, 
eventually, would be so political that I just don't know 
whether it would work. But whatever the wishes are of the 
people of Guam, I would abide with. I think it might work. It's 
going to take time to transition.
    I was hoping that it would be placed in a constitution for 
Guam, written after the Commonwealth Act, so that the people of 
Guam can really get a Government of its own, instead of this 
piecemeal legislation coming through the Congress of the United 
States.
    Mr. Peterson. Mr. Calvo?
    Governor Calvo. I think the intent of having an elected 
attorney general, Mr. Chairman, is to remove it from the sphere 
of politics and trying, frankly speaking, to remove it out of 
the control of the Governor. I am not so sure, though, that the 
cure is better than the disease, because for somebody to be 
running for attorney general, he will be going out and 
soliciting votes. That probably will be a more direct political 
movement than to have been appointed by the administration and 
sanctioned by the legislature.
    I think that I can't foresee how it would turn out, but, 
you know, the democratic process is election, so maybe trying 
it out would be the proof of the pudding is in the tasting, but 
that is my view, Mr. Chairman.
    Mr. Peterson. Mr. Ada.
    Governor Ada. Mr. Chairman, I feel that the attorney 
general, normally an advisor to the Governor on legalistic 
matters--I am not too strong insofar as having an elected 
attorney general. However, I am much stronger in supporting an 
elected prosecutor. I think that that would be a better remedy 
to separating the function of the attorney general as advisor 
to the Governor, and the prosecutor as prosecuting cases, so 
that there shouldn't be any semblance or perception of any 
political interference.
    Mr. Faleomavaega. Would the chairman yield?
    Mr. Peterson. I'd like to just comment, and then I'll turn 
to Mr. Faleomavaega.
    In Pennsylvania, when we switched from an appointed to an 
elected--of course, the Governors appointed their chief 
counsel, but the role of approving contracts was done by the 
attorney general, who was elected, and in most cases they 
agreed with the Governor, but not always. There were times when 
there was disagreement--it was a more independent person--and 
he sort of becomes the chief legal officer of our State of 
Pennsylvania, or Commonwealth of Pennsylvania.
    Mr. Faleomavaega?
    Mr. Faleomavaega. It's a matter of observation, Mr. 
Chairman. I just wanted to say that even at the Federal level 
we still can't decide whether we should elect the Attorney 
General--or the problems that we're having right now, with all 
kinds of investigations going on, and to appoint an independent 
counsel--so whether it be at the State or Federal level, it 
cuts both ways. It's a matter of preference, I suppose. Some 
States elect their attorneys general and others don't; but it's 
an interesting question to the territories. It's a mixed bag; 
it can go either way.
    But I wanted to ask a question--am I?
    Mr. Peterson. Sure; please proceed.
    Mr. Faleomavaega. Two minutes. I'm still a little confused 
here. We've got the proposed Commonwealth Act. The 
administration is having some very serious problems with it, 
and I'm trying to find out what should the Congress then do if 
there's an impasse here? Obviously, they do have some very 
serious problems with the proposed provisions. Now the ideal 
situation would be that the administration signs off on it and 
says, ``We agree in principle that this is what we like with 
the compact.'' So then it comes to the Congress for approval or 
for whatever changes that need to be made.
    Do you prefer the current process, Governor Gutierrez--and 
all of the three, because all of you have served as chairmen of 
the Commission on Commonwealth--or is there a better way of 
doing it? I'm still asking about the process. I don't think 
it's so much the substance that I'm concerned about.
    I have a little positive reaction from Governor Gutierrez, 
because I get the impression that you think the current process 
is working, and please correct me if I'm wrong, because there 
seem to be some difference of opinions here. The current 
process is not working, and should we here in the committee, 
right now, have a solution for the problem to solve it, rather 
than continue on for another year, another 2 years, and then we 
have another hearing 8 years down the line and we still haven't 
moved an inch.
    Governor Gutierrez. Well, the solution would be that just 
you and I negotiate and leave the administration out.
    [Laughter.]
    Governor Gutierrez.But if this Congress listens to the 
testimony of this administration, then obviously the best 
method would be for all three of us to get together. Now, mind 
you that I'm the chairman of this Commission, and I'm supposed 
to testify strictly on H.R. 100, but what I heard from this 
administration and a few of the members of this committee is 
that it ``ain't going to fly.'' I have to bring that back to 
the people of Guam and tell them that what they voted on ain't 
going to fly, and that we need to be able to, as you said, come 
down with some negotiating wiggle-room to make this thing work.
    And I think that the people of Guam will decide in the next 
few months what they would like to do. If they're so adamant as 
to say it's all or nothing, then we don't see anything 
happening by June 20, 1998. I would hope that I can ask the 
people of Guam to say give us an opportunity--the Commission on 
Self-Determination, the leadership, our Congressmen--to work in 
a better method than we have over the last 8 years, and that's 
to negotiate with all three--I mean the Congress and this 
administration. And I think if we set a deadline for ourselves, 
we might be able to see some progress come to fruition.
    Mr. Faleomavaega. Governor, 8 years ago we held a hearing, 
and my good friend Ben Blaz can attest to this, and chairman 
Ron DeLugo. We held the hearing in Hawaii, in fact. The first 
thing and the first impression that most members would have--in 
the substance now--we're talking substance of the bill.
    Governor Gutierrez. Right.
    Mr. Faleomavaega. There would be what is known as a 
concurrent referral. When you talk about trade issues it goes 
to Ways and Means. When you talk about taxes, it goes to the 
Ways and Means Committee. When you talk about transportation, 
it goes to the Committee on Infrastructure. When you talk about 
resources, strictly on territorial issues, it's this committee.
    The danger that I saw 8 years ago, in my humble opinion, 
was the fact that this bill was going to be referred to several 
committees because of jurisdictional problems, because of the 
issues that are involved. And when you talk about EEZ with 
foreign issues, foreign relations, it goes to the International 
Relations Committee. And when you have a bill that is going to 
be referred to six different committees, with six different 
substantive issues, it's almost to say that's the death knell 
of any proposed bill. And, I say this in all honesty and with a 
sincere desire, just as we tried when my good friend Ben Blaz, 
8 years ago--how can we get this thing moving in such a way 
that Congress and the respective committee system, in such a 
way, that they could be cooperative in working toward resolving 
the issues that the substantive part of the bill provides? 
That's the problem that I see and I've talked to some of our 
colleagues on the committee, and this is the bottom line. 
Governor, in all due respect, this is the problem that we face 
right now with the proposed legislation.
    Governor Gutierrez. Right. I wish 8 years ago you would 
have told us no on all those provisions so that we would have 
done something different instead of telling us to go to the 
Administration and talk about it and that's what happened.
    Governor Ada. Mr. Congressman, may I add to that question? 
As earlier I did mention that I hoped that this august body 
will issue some kind of mandate, and that, of course, would be 
up to you, to the Administration telling them and perhaps 
giving them a deadline that this act must be resolved one way 
or another in the Administration side. I just want to say that 
we have visited practically all of the section of the 
Commonwealth Act with the Administration. We have signed off to 
many of the sections and subsections and so forth. We have 
taken care of the most difficult of the Act; the mutual consent 
provision, immigration, trade and commerce, consultation on 
military matters. There are only a few that's leftover. The one 
issue that the Administration continued to say no is the Jones 
Act. That's the only one issue that they refuse to even listen 
or find a solution to the problem. If you have taken and asked 
of them, rather, to give you all those information and just to 
go through those things, you wouldn't know that there are 
solution to all of these issues and those solution are mutually 
beneficial to all of us, both America and Guam. The only 
problem that we're having here is that, at the end of every 
Administration, the entire thing would be reneged or parts of 
it would be reneged and then they come before Congress and 
would tell Congress otherwise. All I'm asking is that this 
Congress would just tell them to sit down, go through this 
thing, give us what you have at the end of this period, and you 
handle--and you take it from there. And I do understand, 
Congressman, that it would take more than 1 year for this 
august body to entertain the Act because of the nature of this 
august body. It may take 1, 2 or 3 years. I think that that 
ought to be a consideration and that's all we're asking, 
Congressman.
    Mr. Faleomavaega. Thank you, Governor. I didn't--Mr. 
Chairman, my time is up but I would like to say for the record 
that this is the first time that I have heard that you only 
have one remaining problem in the negotiations----
    Governor Ada. Not one remaining. The most important part--
the most difficult part--there's other area that are not that 
difficult to overcome.
    Mr. Faleomavaega. Well, it's my----
    Governor Ada. I think, in terms of----
    Mr. Faleomavaega. I'm sorry, my time is up.
    Governor Ada. I'm sorry.
    Mr. Faleomavaega. It was my sincere hope, Mr. Chairman, 
that Mr. Garamendi will provide the committee with a status 
report on how the negotiations have been for the past 4 years. 
Al, can that be done, Mr. Staymen? Can we make this as a 
request, Mr. Chairman, that we get a status report from the 
Administration of the status of the negotiations with the 
Commission of the Commonwealth? Just to kind of give us and 
update where exactly we are? At least from what I hear from the 
Governors, it is ongoing, it is in progress and I'm very happy 
to hear this. Mr. Chairman?
    Mr. Peterson. I believe Mr. Staymen shook his head yes.
    Mr. Faleomavaega. Thank you. Thank you, Al.
    Mr. Peterson. One final question for this panel, Mr. 
Underwood.
    Mr. Underwood. Thank you, Mr. Chairman. I appreciate the 
comments of my good friend from American Samoa. I must state 
for the record, however, that the problems with the document, 
and this is a complicated document of 12 articles and I think 
both Governor Gutierrez and Governor Ada, who have been more 
directly involved with the negotiations, have sustained the 
position that the critical arguments are not within the 
jurisdiction of other committees. They're within the 
jurisdiction of this committee and so that's really a call for 
whether this committee wants to take up the challenge of 
helping to broker this process or not. And I think that's the 
status of where we are at this time. I would reiterate my 
concern that I feel that, you know, to use a well-worn football 
analogy, it's fourth down and there's quite a number of yards 
to go. The Administration has apparently decided to punt, 
rather than throw the Hail Mary pass. Despite the fact that 
many of us went to Mass this morning to ask for spiritual 
guidance, the Administration decided to kick the ball.
    I just want to make a final comment, Mr. Chairman, on the 
Attorney General's position. My legislation calls for the 
legislature, in conjunction with the Governor, to decide 
whether an elected Attorney General will be in Guam. It's 
always interesting to ask Governors what they think about an 
elected Attorney General and I did notice that, unless Governor 
Calvo is planning a miraculous comeback, he's the only Governor 
who's not likely to be Governor again and he's the one that's 
the most favorable to my legislation.
    Governor Calvo. Thank you.
    Mr. Peterson. I would like to thank the panel. I would like 
to thank the members for their good questions. We will excuse 
the panel to----
    Governor Gutierrez. Mr. Chairman, just quickly----
    Mr. Peterson. Sure.
    Governor Gutierrez. I was not able to go through my whole 
testimony. Could I submit it for the record?
    Mr. Peterson. Absolutely. Without objection.
    Governor Gutierrez. Thank you. Thank you very much.
    Mr. Peterson. Any questions for the panel can be submitted 
to the record, too. We'll share them with you. We thank you 
very much.
    The next panel will be the Honorable Anthony Blaz, Vice-
Speaker, Guam Legislature; the Honorable Mark Forbes, Senate 
Majority Leader and Chairman, Senate Committee on Federal 
Affairs, Guam Legislature; the Honorable Ben Pangelinan, Senate 
Minority Leader, Guam Legislature; the Honorable Elizabeth 
Barrett-Anderson, Chairperson, Senate Committee on Judiciary, 
Guam Legislature; the Honorable Peter Siguenza, Chief Justice, 
Supreme Court of Guam; the Honorable Alberto C. Lamorena, III, 
Presiding Judge, Superior Court of Guam.
    I'm told that all panelists are here except the Honorable 
Ms. Barrett-Anderson, so we will then proceed and we will call 
upon the Honorable Anthony Blaz, Vice-Speaker of the Guam 
Legislature. Please be----

  STATEMENT OF THE HONORABLE ANTHONY BLAZ, VICE SPEAKER, GUAM 
                          LEGISLATURE

    Mr. Blaz. Thank you, Mr. Chairman. Honorable members of 
this committee, I am Anthony C. Blaz, Vice-Speaker of the 24th 
Guam Legislature and Chairman of the Committee on Finance and 
Taxation. I am also a member of the Commission on Self-
Determination.
    As our Governors past and present have indicated, 
Commonwealth is supported by both political parties in Guam. 
Republican Governor Calvo appointed the first Commission on 
Self-Determination. Democrat Governor Bordallo's Commission 
completed the first draft of this act. He was followed by 
Governor Ada, a Republican, who amended the act, conducted a 
plebi scite with the people of Guam on every provision of the 
act and, upon its passage, presented the act to my uncle, the 
former Guam Republican Congressman, Ben Blaz, who first 
introduced this act on the Hill. Governor Ada conducted 
discussions with the Bush Administration and the early years of 
the Clinton Administration. Today, Democrat Governor Gutierrez 
heads the Commission, fighting hard in continued discussions 
with the Clinton Administration and, along with our esteemed 
Democrat Congressman, Robert Underwood, has brought this act 
before Congress today.
    Every Guam legislature in recent times, whether the 
majority has been Democrat, as it has in the past, or 
Republican, as it is today, has endorsed the provisions of this 
act. All of Guam's municipal mayors, whether Republican or 
Democrat, have endorsed this act. The reason why this act has 
near-universal bipartisan support from Guam's elected leaders, 
past and present, is simple; this act and only this act has 
been endorsed and ratified by the people of Guam in plebi 
scite. The voters of Guam have approved every provision of this 
act, provision by provision. No other act, no other status 
option has been approved by our people, even when they had the 
opportunity to do so. And, given the option of voting for 
independence, they rejected it. Given the option of voting for 
statehood, they rejected it. Given the opportunity to pass a 
constitution, our people overwhelmingly rejected it.
    We believe that the vote of our people is sacred and, as an 
elected representatives of our people, we are morally bound to 
heed their call. This act is their call and that is a fact. 
When other options are discussed, they are merely opinions. 
Although this act is a bipartisan effort, as a life-long 
Republican, I feel I must give the Republican view of 
Commonwealth to clarify any misunderstanding.
    The official view of the Republican Party of Guam is 
support for commonwealth status for Guam. It has been in our 
party platform. In fact, support of Commonwealth status for 
Guam has been part of the National Republican platform for at 
least the past two times and, in fairness to my Democratic 
friends, I must point out that support for Commonwealth is a 
feature of both the local and national Democratic Party 
platforms.
    As a Republican, not just locally but nationally, I find it 
very easy to be enthusiastic about Commonwealth because it's 
good national, Republican legislation, too. The Republican 
Party believes in limiting the power of the Federal Government 
over people in general and local communities, in particular. 
That's what Commonwealth does. As Republicans, we believe in 
empowering local communities to solve their problems themselves 
and that's what Commonwealth status will do for Guam. As 
Republicans, we believe in promoting economic growth as a means 
of enriching the lives of people and reducing the burden of 
Federal taxation and spending and that's what Commonwealth 
does. In so many ways, Commonwealth for Guam ties directly into 
many primary Republican plans and we hope, in time, that our 
national Republican leaders will come to appreciate this and 
liberate the creative energies of our people by granting us 
self-government and the autonomy to do what we can do for 
ourselves. And don't get me wrong, this is good Democratic 
legislation, too, worthy of the same bipartisan support 
nationally that Commonwealth receives at home. It is 
unfortunate that, based on testimony we have heard today, the 
Clinton Administration is unwilling at this time to give the 
dreams and aspirations of our people the support they deserve. 
And, that's not entirely surprising. In the years that we've 
been discussing Commonwealth with the executive branch, we have 
been involved in endless discussions with low-level bureaucrats 
and cutoff from true policymakers. We expect bureaucracy to 
resist change. It always does. We expect bureaucracy to 
preserve the status quo and the prerogatives of big government. 
It always will. It is unfortunate that, at an executive level, 
Commonwealth remains largely hostage to this eternal 
bureaucracy.
    But this Congress, Republicans and Democrats alike, have 
successfully waged battle against running Federal bureaucracy 
in a host of areas. This Congress has successfully begun the 
reform of the bloated welfare bureaucracy. It has streamlined 
spending, and will deliver us, in short order, a balanced 
budget. It is tackling tax reform. Mr. Chairman and members of 
the committee, we humbly ask you to run interference for us 
with this bureaucracy that is frustrating us on this issue. We 
do not expect you to endorse this act as a result of this one 
hearing, of course not. This is the first time we have come 
before you in this manner. But we ask you to work with us and 
discuss the many provisions of this act in the months to come. 
We gave the Administration years and, surely, we can give you 
the benefit of reasonable time, as well. We ask that you 
withhold hasty judgment and engage in meaningful deliberations. 
If we deal on this issue in good faith, I am certain that both 
sides will be reasonable. Let us do the work that needs to be 
done but, unfortunately, the executive branch seems to be 
dropping the ball on. Surely the express will of our people 
deserves a fair and full hearing, discussion and deliberation 
at the very least. I am confident that this Congress will work 
with us and I look forward to the process as a Republican, as a 
Chamorro, as an American. Thank you and [speaking in Chamorro] 
``si yu'os ma'ase,'' Mr. Chairman.
    [The prepared statement of Mr. Blaz may be found at end of 
hearing.]
    Mr. Peterson. Next, we'll call on the Honorable Mark 
Forbes, Senate Majority Leader.

STATEMENT OF THE HONORABLE MARK FORBES, SENATE MAJORITY LEADER 
    AND CHAIRMAN, SENATE COMMITTEE ON FEDERAL AFFAIRS, GUAM 
                          LEGISLATURE

    Mr. Forbes. Thank you very much, Mr. Chairman. In the 
interest of keeping within the 5 minute deadline imposed and 
having taken a look at my written testimony, I'm going to 
extemporize and attempt to summarize it as best as I can. I 
also need to take the opportunity, Mr. Chairman, to respond 
partially to some of the testimony that was presented earlier.
    I was disappointed in the National Administration's 
testimony, especially one particular portion of it. There was a 
statement that was made by the Administration representative 
that, if I understood it correctly, said that, although he 
might have certain feelings and opinions about Guam's 
Commonwealth Act in particular and our goals in general, that 
until, if I understood him correctly, virtually every single 
person in the executive branch signed off on this, this could 
not be executive branch policy. And I'm thoroughly confused 
because I had thought that the process that we were engaged in 
with the Administration was a process we were having these 
discussions with a designated negotiator, for lack of a better 
term, who had been entrusted with a certain degree of 
franchise. And, to have heard today that, basically, we have to 
go and convince every single entity in the executive branch on 
every provision in Commonwealth just presents an impossible 
task. And I'm glad that we're having this hearing because I 
think that, you know, although we are obviously going to 
continue to engage in reasonable discourse and discussion with 
whoever is interested in maintaining that degree of discussion, 
it's critical that we start dealing with this on a 
congressional level. It's important that we talk to folks who 
have some real policymaking authority here, who can actually do 
what needs to be done and I think that, at this juncture, it's 
critical that we understand why we have to come before 
Congress. Delegate Faleomavaega asked the question earlier. He 
made a--and I apologize if I didn't hear you precisely, but I 
believe the question ran along the lines of, since we've 
already presented this in plebi scite to the people of Guam and 
since they have already approved in plebi scite every single 
provision, is there really any possibility of movement and 
discussion? What is there for the House to do? And, my response 
is that there's everything for the House to do. That's the 
whole reason why we're here. Guam can have innumerable votes, 
the people of Guam can vote time and time again, and, although 
it is very meaningful for those of us who represent the people 
of Guam, legally it's meaningless because we are a non-self-
governing territory and our people do not have the personal 
sovereignty enjoyed by other Americans that gives meaning to 
their act of voting. The question what is there for Congress do 
to, is everything. That's what the plenary powers of Congress 
under the Territorial clause mean. Beyond that, Congress has, 
at least in our view, a clear obligation under the Treaty of 
Paris to deal specifically with the issue not only of the 
disposal and the disposition of the territory of Guam, but, as 
it is stated very clearly in the Treaty of Paris, determining 
the civil rights and the political status of the native 
inhabitants of those territories ceded by Spain. The Treaty is 
a treaty, entered into freely by the United States, ratified by 
the U.S. Senate and the specific delegation, in that Treaty, of 
a responsibility to Congress not only to dispose of the 
territory of Guam, as it would any territory under the 
Territorial clause, but to specifically determine the civil 
rights and the political status of the native inhabitants is a 
very weighty responsibility. And, in fact, there is no other 
body, no body that exists, in U.S. law that can deal with this 
issue other than Congress.
    I feel that, having heard the Administration's testimony 
this morning, that they've kind of missed the boat. What we're 
looking for fundamentally here, and there is no time to go far 
beyond the fundamentals, is for the establishment of some 
degree of self-government for a non-self-governing people. How 
we see that as being possible is by a partial disposal of the 
plenary authority that Congress has over the people and the 
territory of Guam under the Territorial clause. We believe that 
this is doable. We believe it can be done. We believe that 
there is sufficient court precedent to speak to the powers that 
Congress has to do this and we believe there are many creative 
ways that this can be done which, hopefully, we will discuss in 
the months to come.
    One final note. There have been some comments made by the 
Administration and by others that the other, very important 
goal in our quest here, acquiring a recognition of the right of 
self-determination for Chamorros, is in violation of equal 
protection clause of the Constitution. Rather than get into a 
broad discussion of that, I would just like to, again, remind 
the committee of what it says in the Treaty of Paris. Congress 
is to determine the civil rights and the political status of 
the native inhabitants of the territory ceded by Spain. I think 
that is something Congress can do, as well. Thank you very 
much.
    [The prepared statement of Honorable Mark Forbes may be 
found at end of hearing.]
    Mr. Peterson. For the record, I'd like to share that the 
Chair will ask the Administration to share with the committee 
the process they used that didn't seem to please very many 
people, make very many friends, or make very much progress, 
we'll ask them to explain to us that process that was utilized.
    Mr. Forbes. Thank you very much.
    Mr. Peterson. What their goals and hopes were. At this 
time, I will introduce the Honorable Ben Pangelinan, Senate 
Minority Leader.

  STATEMENT OF THE HONORABLE BEN PANGELINAN, SENATE MINORITY 
                    LEADER, GUAM LEGISLATURE

    Mr. Pangelinan. Thank you very much, Mr. Chairman. Mr. 
Chairman, at the opening of the hearing, a question was asked, 
where are we at, at this process? Clearly, Mr. Chairman, we are 
not where we want to be, we are not where we should be, and we 
are not where we ought to be, and that is the purpose of our 
presence here this morning, to resolve this dilemma.
    Honorable chairman and members of the committee, it is with 
the highest honor that I appear before you and my greatest 
privilege to do so, as an elected representative of the people 
of Guam. I am the Minority Leader of the 24th Guam legislature. 
To prepare for this hearing, I logged onto the committee 
homepage and immediately opened the ``Hot Issues before the 
Committee'' page, hoping that H.R. 100 would appear. It did 
not. Today, we appear before this honorable committee seeking 
to generate the heat requisite to place the Guam Commonwealth 
Act on the ``Hot Issues'' page of this committee and this 
Congress. Today, we fan the embers kept alive by our honorable 
Nation, which, for nearly a century, guarded the glowing 
cinders of democracy and liberty in Guam and ignited the fire 
of liberty in our people who aspire to be America's bastion of 
democracy in the Pacific. We bare our souls, hoping that you 
recognize the torch of liberty that is emblazoned in our hearts 
that we are now willing and able to become full partners as 
America's living paradigm of democracy and commitment to 
liberty and freedom for all her people.
    Today, we seek to denude the arguments that cloak the hope 
and promise contained in H.R. 100 which sustained the Chamorro 
people for decades. Some of you may ask why and under what 
authority should Congress recognize the political rights, give 
life to a Commonwealth, and give birth to a new political 
entity within America, by and for the people of Guam. While 
some argue that what we seek is not within the framework of our 
constitution, we believe otherwise. Congress' authority over 
the disposition of the territory of Guam is irrefutable. 
Equally unimpeachable is its authority to do so within the 
broad framework of our petition, H.R. 100. Open the door, the 
right door, and we will walk through that door. Open the wrong 
door, and we will turn away.
    We fully realize that, absent full integration into the 
union as a State, Guam will forever be limited to an unequal 
status within America. We must then apply the words--the words 
of the great Justice of the Supreme Court, Felix Frankfurter, 
``there is no greater inequality than the equal treatment of 
unequals.'' When Congress treats Guam equally to the States, it 
treats Guam unequally, for we are not equal with the States. 
Vested in Congress is the power and the authority to determine 
the political status of Guam, to grant political rights to the 
people of Guam, unequal from those granted to the residents of 
the States, and to establish the Commonwealth of Guam that is 
unequal from that of any State.
    Mr. Chairman, at the April 1997 hearing on H.R. 856, the 
U.S.-Puerto Rico Status Act, Chairman Young expressed sadness 
upon learning of the loss of Donna Pilar Barbosa Rosario, the 
daughter of the official historian of Puerto Rico, who, in a 
personal note, wrote to the chairman the morning after the 1996 
hearing on H.R. 856. She wrote, ``God help us that Pilar 
Barbosa could live more than 3 years to see what all this 
results in. So help me God--it's now or never.''
    Today, I bear the same sadness for Guam who has lost 
someone of equal importance in our quest for Commonwealth, Tun 
Pedro Perez, a most respected leader, who at the 1989 Hawaii 
hearing on Guam's Commonwealth, urged Congress to act on this 
same Commonwealth. He cried out against the attitude of 
``Manana, manana,'' our political relationship with America, 
come back ``manana.'' He pleaded, no more ``mananas,'' for this 
old man may not live to see another ``manana.'' Sadly, 3 years 
after the 1989 hearings, like Donna Pilar, Tun Petro saw his 
final ``manana'' before he could see what all of this results 
in for Guam.
    Honorable chairman and distinguished committee members, 
nothing is more difficult than not being able to see ahead. For 
to live without being able to see ahead is to live without hope 
and a people without hope shall surely perish. Mr. Chairman, 
now is definitely the time to act to see what all this results 
in so we can see ahead, so we can restore hope. With a full 
realization that we will not finish in this Congress, let us 
act today for action on H.R. 100 gives the Chamorro people the 
ability to see ahead. It renews hope and promise for our people 
and, with hope and promise renewed, we know that we, the 
indigenous people of Guam will not perish. At the start of the 
Commonwealth, some debated whether we should dare embark on our 
quest, our journey of hope and promise. To all who dared to 
start this journey, Tun Pedro and those who are no longer with 
us on this earth, we vow that we shall not dare to stop the 
journey that you dared to start until we fulfill the hope and 
deliver the promise made to our people.
    Also, Mr. Chairman, I would like at this time to declare my 
support for H.R. 2370 and also, Mr. Chairman, to raise the 
issue of an amendment to the Organic Act with reference to the 
quorum of the legislature in which local action has resulted in 
the need to amend the Organic Act to reflect that a quorum 
consists of a majority of its members and that no bill shall 
pass and become law unless it shall have been passed at a 
meeting in which a quorum is present and by the affirmative 
vote of a majority of its members. I'd like to also ask the 
Committee Chair to accept my written comments for the record. 
Thank you, [speaking in Chamorro] ``si yu'os ma'ase,'' Mr. 
Chairman.
    [The prepared statement of Mr. Pangelinan may be found at 
end of hearing.]
    Mr. Underwood. [presiding] OK. All your statement will 
entered into the record. I now call upon the Honorable Peter C. 
Siguenza, Chief Justice of the Supreme Court of Guam.

   STATEMENT OF THE HONORABLE PETER SIGUENZA, CHIEF JUSTICE, 
                     SUPREME COURT OF GUAM

    Justice Siguenza. Thank you very much, Mr. Chairman, 
Congressman Robert Underwood, and the other distinguished 
members of the House Committee on Resources. It's a pleasure to 
be here to speak. It is an honor, indeed. I'm here today as the 
Chief Justice of Guam. My rotating term expires in about a year 
and a half from now, at which time we Justices will elect a new 
Chief. And so, at my first, and hopefully final, appearance 
before you I want to stress the importance of the critical 
matter which is before us today.
    In simple terms, House Resolution 2370 would place the 
judiciary of Guam on an equal footing with its two coordinate 
branches of government. As you will note, the inherent powers 
of both the Executive and legislative branches are clearly 
delineated within the Organic Act. Only the structure of the 
Judiciary lacks this kind of clarity. Ironically, the original 
local legislation which created the Supreme Court distinctly 
outlined the Court's authority, clearly placing administrative 
and appellate jurisdiction within the Court. In this sense, 
H.R. 2370 undeniably reflects the will of the people. Virtually 
every provision within the Judicial Empowerment Act before you 
today mirrors the 10-year drafting process with culminated in 
the passage of the bill in 1992. It is significant to point out 
that no effort was made to alter the bill for the next 3 years. 
The legislation sat intact and untouched for nearly 4 years, 
that is, up until the ceding of the Court in April 1996. At 
that time, on the eve of the confirmation hearings of the 
Justices, efforts were undertaken to alter the legislation and 
curtail the authority of the Court. In effect, what had taken a 
decade to build was summarily undone within 3 months. In fact, 
since the Court's inception, there have been no fewer than 4 
legislative attempts to undermine the Court's administrative 
authority and, even as recently as last month, a successful 
legislative bid to limit this Court's legal jurisdiction.
    Let me briefly share with you the chronology of this Court. 
In 1973, the Guam Public Law 1285 was enacted, envisioning a 
judiciary with a local supreme court at the helm. 1974, the 
first Supreme Court of Guam is established. 1977, the U.S. 
Supreme Court strikes down Guam's Supreme Court. 1977, that 
same year, Guam convenes a constitutional convention. The 
foundation is laid to establish a supreme court as the judicial 
and administrative head of the Judiciary. This draft 
Constitution is submitted and approved by the U.S. Congress. 
1984, the Omnibus Territories Act amende the Organic Act to 
allow for the creation of a supreme court. 1993, the Frank 
Lujan Memorial Court Reorganization Act is signed into law 
after its 1992 passage in the 21st legislature. The bill is 
patterned after the 1973 local legislation, the 1977 draft 
constitution, and provisions from various state constitutions. 
The legislation calls for a supreme court of Guam which ``will 
handle all those matters customarily handled by state supreme 
courts, such as court rules and court administration. Thus, 
administrative functions of the courts, formerly lying either 
with the Judicial Council or the District Court of Guam, are 
placed with the Supreme Court of Guam.''
    Then, in 1995 in November, myself, Justice Janet T. Weeks 
and Justice Menessa G. Lujan are nominated to the Supreme 
Court. Also, in 1996 in March, hours after the Justices of the 
Supreme Court are confirmed the 23rd Guam legislature passes 
bill 404, which removes certain inherent powers from the 
Supreme Court. A second bill, bill 494, aims to strip the 
supervisory jurisdiction of the Supreme Court over all lower 
courts. That bill is debated but tabled by the Legislative 
Committee on the Judiciary. Eight months later, in December on 
1996, the legislature attaches the contents of the shelved bill 
494 as a midnight rider to bill 776. The legislation passes and 
is vetoed by the Governor. An override attempt fails by only a 
slim margin. In short, this is the problem faced by the Supreme 
Court of Guam and why we seek to have this Court established 
within the Organic Act. Permit me the luxury of overstating the 
obvious when I say that a judiciary or any branch of government 
cannot function independently if another branch can modify or 
strip it of its powers at will.
    The bill before this distinguished panel will ensure that, 
like the inherent power of the Executive and legislative 
branches, the corresponding authority of the third branch 
cannot be tampered with on whim. There are those who espouse 
the view that the Judicial Council of Guam is the policymaker 
for the Judiciary. Allow me now to let the record speak for 
this court when I say that in the 10 years it took lawmakers to 
craft and fine-tune the bill that created the Supreme Court of 
Guam, the notion of a judicial council as the administrative 
arm of the Judiciary was explored and subsequently rejected in 
that role. The Frank Lujan Memorial Court Reorganization Act, 
which created the Supreme Court, explicitly envisioned an 
advisory role for the Judicial Council. And, since that time, 
the will of the people is not changed. A recent survey 
conducted on Guam by your colleague and our delegate, 
Congressman Underwood, in addition to a poll conducted by the 
Guam Bar Association, along with numerous media editorials, 
have each independently and resoundingly confirmed the original 
legislative concept of the Supreme Court as the judiciary 
administrative helm. This isn't a structure without precedent. 
The Judicial Empowerment Act would not only restore the initial 
intent of local legislation, creating the Court, but would also 
confer upon it the same inherent authority exercised by 
judiciaries in the 50 States and other U.S. jurisdictions.
    In closing, I leave you with the words of Alexander 
Hamilton, who noted over 200 years ago, ``the Judiciary is 
beyond comparison the weakest of the three departments of 
power. All possible care is requisite to enable it to defend 
itself against their attacks.'' Thank you, Mr. Chairman. I have 
brought with me copies of the judicial sections from the 
respective constitutions of every State and U.S. jurisdiction, 
should any of you wish to view them. It has been a pleasure and 
I thank you for your time and your attention.
    [The prepared statement of Honorable Peter C. Siguenza may 
be found at end of hearing.]
    Mr. Underwood. Thank you, Justice Siguenza. Your entire 
statement will be read into the record. At this time, I'd also 
like to recognize the presence of Justice Janet Weeks from the 
Guam Supreme Court who is with us here. At this time, I'll call 
upon the Honorable Alberto C. Lamorena, III, Presiding Judge, 
Superior Court of Guam and former Guam Senator.

STATEMENT OF THE HONORABLE ALBERTO C. LAMORENA, III, PRESIDING 
                 JUDGE, SUPERIOR COURT OF GUAM

    Judge Lamorena. Good afternoon and [speaking in Chamorro] 
``Hafa Adai.'' Thank you very much for the opportunity, Mr. 
Chairman and members of the committee, to appear the committee 
on Resources. I have submitted my written testimony earlier and 
I would like to recognize the presence of Judge Manibusan, 
Joaquin Manibusan, Superior Court Judge, who is also submitted 
written testimony. I have incorporated his written testimony 
and mine in my oral testimony.
    I come before you representing the Superior Court of Guam 
Judges who oppose H.R. 2370 and, individually, as a member of 
the Commission on Self-Determination, in support of H.R. 100, 
the Guam Commonwealth Act. We, as Superior Court Judges, oppose 
H.R. 2370 because H.R. 2370 is unprecedented in that Congress 
has always left the internal organizational structure of a 
court system to the individual states or territories, whether 
through local law or local constitution. H.R. 2370, if passed, 
would certainly run contrary to the goal of increased self-
government for the states and territories as long as that goal 
is consistent with the United States's Constitution. In Calder 
v. Bull, the U.S. Supreme Court recognized that the power to 
establish the internal structure of a state's courts is at the 
very heart of a state's sovereign powers. The same principle 
should be applied in the case of the Judicial Branch of the 
Government of Guam. For Congress to dictate the internal 
structure of Guam's Judiciary denies the people of Guam the 
rights afforded other states and territories. Will Congress 
next dictate Guam's internal structure for our legislature and 
for our executive branch? This is a dangerous precedence and is 
definitely a step toward more Federal control and less self-
government for our people of Guam. This is totally contrary to 
the principle of federalism abdicated by many Members of 
Congress.
    Under the Organic Act of 1950, Guam has had limited self-
government. Today, American citizens in Guam aspire to a 
greater degree of self-government. If Congress shares the goal 
of self-government for Guam, then Congress must reject H.R. 
2370. If passed, H.R. 2370 would have repealed existing Guam 
law and micro-managed the affairs of the Judicial Branch of 
government. This means that whenever there is any change 
needed, we must return to Congress where Guam has no voting 
representatives to seek the desired change. The internal 
structure of the Judicial Branch is a local matter. When our 
Congressman, Antonia Won Pat and Congress passed the enabling 
legislation creating the Supreme Court of Guam, it left up to 
the Guam legislature to establish laws to set up the internal 
structure of the Judicial Branch. Our Guam legislature has 
already established the structure and the authority of the 
Judicial Branch. Does it not seem both logical and necessary 
that proposed changes to the structure of such a system should 
be determined by our local legislature elected by the people of 
Guam? As U.S. citizens on Guam, we simply are asking to control 
our local government. No Federal interest is at stake when 
self-government over Guam's internal affairs is exercised in 
matters not otherwise governed by the U.S. Constitution. I 
respectfully request that this honored committee table H.R. 
2370 and, for the reasons cited, I hope it passes H.R. 100, the 
Guam Commonwealth Act.
    The people of Guam have the inherent to set up our 
governmental internal organization. Guam's control over its own 
judiciary goes to the very soul of its quest for self-
government. Guam wants a fundamental restructuring of its 
relationship with the United States, not merely a commonwealth 
title without commonwealth reality. We are seeking a change in 
Guam's political status whereby we have the right of self-
government, all the branches of the government, including the 
courts. In conclusion, it will serve the national interests for 
Congress to acknowledge a sovereignty in matters relating to 
local issues. H.R. 2370 provides less, rather than more, self-
government. As U.S. citizens, self-government for our people, 
by our people, and of our people must be our ultimate goal. In 
addition to my testimony, I incorporate the following 
testimony: the Honorable Joaquin Manibusan, Superior Court of 
Guam, Judge. Our testimonies have also been endorsed by 
Honorable Katherine Maramen and the Honorable Steven Unpinqco, 
colleague, Judges, of the Superior Court of Guam, who together 
comprise four of the five Superior Court Judges on the island. 
Thank you and [speaking in Chamorro] ``si yu'os ma'ase.''
    [The prepared statement of Judge Lamorena, III may be found 
at end of hearing.]
    Mr. Underwood. I thank you, Judge Lamorena, for your 
comments on my legislation.
    [Laughter.]
    Judge Lamorena. On both legislations.
    Mr. Underwood. On both of them. Thank you very much. I also 
would like, for the record, to enter statements by: former 
Senator Pilar Lujan, who was author of the Supreme Court of 
Guam legislation; the comments of Judge Frances Tydingco-
Gatewood who supports the legislation as a Superior Court 
Judge; the statement by the Guam Bar Association, which is in 
support of the legislation; and Charles Troutman who is the 
compiler of laws and current Acting Attorney General who is 
also in support of H.R. 2370. All of those statements will be 
made part of the record.
    [The prepared statement of Ms. Lujan may be found at end of 
hearing.]
    [The prepared statement of Judge Tydingco-Gatewood may be 
found at end of hearing.]
    [The prepared statement of the Guam Bar Association may be 
found at end of hearing.]
    [The prepared statement of Charles Troutman may be found at 
end of hearing.]
    Mr. Underwood. If Mr. Staymen is here, at the conclusion of 
some questions--I would like to re-impanel you and ask you some 
questions relative to S. 210. I just wanted to remind you of my 
earlier request.
    The statements relative to the issue of Commonwealth and 
H.R. 100, and I would like to ask the three Senators this 
question. It is the same question I asked of the Governors. 
Have any of you ever heard of the--or formally support the 
idea, perhaps, of making the Chamorro people a tribe in the 
manner of which the Native Americans are recognized in order 
for the exercise of Chamorro sovereignty?
    Mr. Blaz. Well, in Guam, we hear of many rumors, some very 
distasteful, some very good things. I don't--in talking about 
what has been the will of the people, as the Governors had 
alluded to earlier, there's been only one plebi scite even 
talking about the status that we seek, which is the 
Commonwealth status. As to the desire of the Chamorro people to 
become some tribe, I--we don't support it and, if it's a rumor, 
I think we should just dismiss it as such.
    Mr. Underwood. Thank you, Senator.
    Mr. Forbes. It's fascinating. I had to fly 10,000 miles to 
hear that I wanted to be part of a tribe. To the best of my 
knowledge, there's absolutely no discussion within the 200 
square miles of Guam that goes beyond two folks or three. It 
surely has not been in the mainstream media about the 
possibility of somehow having Congress--I can't imagine how you 
would do it, to tell you the truth, but, through whatever 
mechanism, decide that a people that were acquired as the 
result of a treaty ending a war with Spain in 1898 suddenly 
become indigenous Native Americans, I don't understand how that 
could happen. But this is not a hot topic in Guam, I have to 
let you know.
    And I do have to say one more thing, too, and I say this at 
some risk, because I understand there's significant money 
involved here. I am--and again, this is all information that I 
received here. I understand that a tribe of California mission 
Indians is really----
    Mr. Underwood. It could be that they are missionary 
Indians.
    Mr. Forbes. Whatever. Is really big behind this and we have 
had one experience with them. About 9 months ago, actually 
about a year ago now, during the course of our last election, 
we had several initiatives on the ballot. One initiative was an 
attempt to legalize casino gambling in the territory of Guam. 
This group, apparently, bankrolled the pro-casino gambling side 
to a significant degree, at least according to public reports, 
and took a very visible role in the public relations campaign 
promoting that. For your information, the people of Guam 
overwhelmingly and resoundingly, and I presume that includes 
the majority of Chamorros, rejected the legalization of casinos 
in the territory of Guam. It was a massacre and we thought that 
was the end of that. Suddenly, there's a suggestion that Guam 
become a tribe and I don't know, maybe it's just me. There's a 
part of me that's thinking, gee, what would happen if we really 
did create a Chamorro tribe? Does that mean we'd have to have a 
Chamorro tribal reservation? What would the reservation consist 
of? What would it be? 500 acres somewhere on the territory of 
Guam? If we did that, could you then build a casino on that 
property regardless of the expressed vote of the people of Guam 
to reject casino gambling? I don't know. I'm not saying that's 
behind it. I'm not saying that's the idea, but suddenly, it all 
kind of, you know, just came to me. I'm suffering from sleep 
deprivation, folks, I just got off a plane, so, maybe that's 
what's happening. But that is my reaction. But to the specific 
question, is this a topic of great debate in Guam, no.
    Mr. Underwood. Well, you're clairvoyant as well as a 
representative of the people.
    Mr. Pangelinan. Thank you----
    Mr. Underwood. Senator?
    Mr. Pangelinan. Thank you very much, Congressman, for the 
question. The only legitimate exercise for the expression of 
self-determination for the people of Guam have been through the 
plebi scite process and the only legitimate groups that have 
participated in the process continue to participate in the 
process and appear before you in this hall to express an 
opinion on the Commonwealth Act. Any other representations 
outside of this process, I believe, is not legitimate and 
should not merit the consideration of this committee absent a 
presentation to the people of Guam for whatever status they 
want to incur.
    The missionary Indians visited my office with the local 
representative and, if the intent of the establishment of a 
Chamorro tribe is for the expressed authority to enter into a 
activity that the people of Guam have rejected, I believe the 
people of Guam deserve to know the truth behind these 
motivations and absent that, I just believe that it is not a 
legitimate representation of the desires of the people of Guam.
    Mr. Underwood. OK. If I could also just followup with a 
brief question of the three Senators. We've discussed a couple 
of permutations on this issue of self-determination and the 
development of the Commonwealth process. Some have suggested 
that we go ahead and develop a constitution first and then we 
proceed to exercise the Commonwealth. So, I want to get your 
sentiments on that issue, and also the issue of whether 
Congress has a role in delegating its authority or disposing of 
its authority under the Territorial clause and perhaps you can 
answer that. Mr. Forbes, since you're Chairman of the Federal 
Territorial Relations, perhaps you can respond to this issue.
    Mr. Forbes. Thank you very much, Mr. Chairman. My view and 
I suspect this is the view of most of us, to engage in a 
constitutional process prior to a status change is somewhat 
meaningless. Again, it all stems from the fact that we are a 
non-self-governing territory. We're non-self-governing. Under 
the current statutes that exist that authorize a local drafting 
of the constitution, the constitution would have to be drafted 
within some fairly narrow parameters, then it would be sent to 
Congress and Congress would have the ability to amend, to 
revise, ultimately, to approve. Unless there is, first, a 
status change, then a constitutional process in Guam simply 
reduces us to a drafting subcommittee for a piece of 
congressional legislation. And I'm not saying that facetiously. 
I believe Guam has to have a constitution at some point, don't 
get me wrong. The Commonwealth Act is very specific and it says 
that Guam will draft a constitution but it will draft a 
constitution subsequent to a change in political statute that 
empowers and authorizes the people of Guam to exercise, and I 
use this word carefully, some sovereignty in doing this. I 
don't mean sovereignty in the sense of an independent nation, I 
mean sovereignty in the sense that every other person in this 
room, with the exception of those of us who come from Guam, 
enjoys. We have no inherent under U.S. law right to exist. Our 
government has no inherent right to exist as the governments of 
most territories do not, and, until, to get to the delegation 
issue, until there is a disposal of some of the plenary 
authority that Congress holds and an investiture of some of 
that power in the people of Guam, anything we do is kind of 
spinning our wheels. We need to have that investiture and when 
that investiture and when the people of Guam are acting as 
sovereign citizens in the same manner that other Americans get 
to act as sovereign citizens in drafting their constitution, 
when the votes of the people of Guam are meaningful outside of 
the confines of our borders and have meaning that carries to 
Washington, D.C. and to the United States of America, then I am 
entirely in favor of a constitution. But, until then, I don't 
know that it would really serve a useful purpose other than to 
eat some time up.
    The issue of delegation is a very important one. Congress 
already delegates authority to the government of Guam. The very 
existence of the government of Guam is a delegation of 
congressional authority. But, it is revokable. It is utterly 
and absolutely revokable. If Congress chose to, tomorrow, you 
know, God forbid and I'm certain this would not be the case, 
but if it chose to, tomorrow, notwithstanding the fact that 
Senator Pangelinan, myself and Vice-Speaker Blaz were elected 
by the people of Guam, we could be removed from office, the 
legislature could be abolished, the Governor could be replaced 
by the Commander Naval Forces Marianas who would rule by fiat 
and decree. Those powers exist in Congress. Congress can do 
that. So long as authority is simply delegated, that will 
always be the case. It is critical, it is absolutely critical, 
that the status change be coupled with a partial disposal of 
those authorities. We believe that it can be done. We believe 
that, under the Territorial clause, Congress disposes of 
property all the time. And we think that if there is a serious 
effort to take a look at this issue, on a broad basis, and not 
deal with it in such a cursory manner, as the executive branch 
apparently did, the executive branch who seems to think there 
are limits to congressional authority, that our view will be 
justified. And we believe that it is critical that we 
understand that, fundamentally, there is no purpose to talking 
about Commonwealth if it does not involve at least a partial 
disposal of the plenary powers of Congress to the people of 
Guam.
    Mr. Underwood. Thank you, Senator. Senator Mr. Pangelinan? 
Or, excuse me. Senator Blaz?
    Mr. Blaz. As to the constitutional question, it's the cart 
before the horse, Congressman, and I think that Senator Forbes 
said very eloquently put it. I think that we need to dispose of 
the situation regarding our political status. First, that 
question needs to be addressed and answered and resolved before 
we engage in the process of forming a constitution.
    Mr. Underwood. Thank you.
    Mr. Pangelinan. Thank you very much, Mr. Chairman. Mr. 
Chairman, the attempt to place a constitution before the people 
of Guam prior to the resolution of the political status of the 
people of Guam is an attempt to move the train away from the 
platform without the Chamorro people on board. And it cannot 
happen, it shall not happen, and I will not let it happen.
    Any kind of resolution with regards to internal self-
government for the territory of Guam must first resolve the 
issue of Chamorro self-determination. It's as simple as that. 
It is what the people of Guam desire, it is what they voted 
for. It is concurred with by those people who have voted on the 
Commonwealth Act, and have said they will give up the right to 
vote on Chamorro self-determination. They have disenfranchised 
themselves in recognition of the inherent right of self-
determination for the native inhabitants of Guam. We ask that 
the Congress recognize this, that the people out there have 
extended and expressed and exercised their constitutional right 
to a vote, and in the expression of that constitutional right 
they have chosen to recognize the inherent and inalienable 
right of self-determination for Chamorros only in resolving the 
political status of Guam. Thank you.
    Mr. Underwood. Thank you very much and, before I yield to 
Mr. Faleomavaega, I'd just like to let the two gentleman from 
the third branch of government know that the primary intent of 
the legislation 2370 is simply to rectify what is an apparent 
imbalance in the way that the three branches of government are 
dealt with. Well, I never went to law school. I did go to some 
school and in those, I always heard that the three branches of 
government were supposed to remain separate and co-equal. Now, 
obviously, in the real world, that somehow gets muddled up and 
one of the ways that we resolve that is to make sure that the 
third branch of government takes on the characteristics of an 
original court of jurisdiction or an Organic Act court, in our 
case, or take on the trappings of a constitutional court. I 
recognize the amount of emotion that is involved in the survey 
which I conducted regarding the elected Attorney General and a 
couple of other matters before the people of Guam which were 
subject to Organic Act changes. This was the one that attracted 
the most attention and was the one that was closest in the 
outcome of my survey. I certainly don't mean to demean anyone 
in--who takes another position as my good friend, Judge 
Lamorena, and I mean that because we were classmates and good 
friends. I don't mean any disrespect to the Superior Court at 
all. And, with that, do you have any questions?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I wanted to ask 
Senator Forbes and I appreciate your raising the issue of the--
concerning the Treaty of Paris because this goes, again, to the 
very fundamental issue that I had tried earlier just to 
understand exactly, not only the current status of Guam as a 
territory, how this relates to provisions of the Federal 
Constitution, and what this means for the Commonwealth Act 
under H.R. 100. Before asking this question, I would like to 
note, for the record, I don't know whether it was by fate or by 
some circumstance but it was just yesterday, by express mail, I 
received a pamphlet that was sent to me by the Cabazon tribe 
from California. And I want to express my [speaking in 
Chamorro] ``si yu'os ma'ase'' to the good residents and the 
leaders of Guam for receiving the tribal leaders and the 
members of the Cabazon tribe when they visited Guam. I am just 
simply reiterating what I've read of this that was just 
received yesterday in my office and I kept querying why the 
gentleman from Guam keeps asking this question about being a 
tribe. You know, there are 12 tribes of Israel, so the book 
says and they were very blessed. But I just wanted to raise the 
question because it does tie into the whole question of treaty 
rights, sovereignty issues, the right of self-determination, 
and where does this put Guam in the middle of all these legal 
terms. The first thing I wanted to raise is that Guam was a 
byproduct of war and we all live and breathe as a matter of 
history. Guam was annexed by the United States and, under the 
provisions of the Treaty of Paris, Senator Forbes, and maybe 
you can enlighten the members of the committee and for the 
record, does this mean that the native inhabitants of Guam 
still had inherent rights of the characterization of being a 
sovereign people? Still, despite being under or annexed by the 
United States?
    Mr. Forbes. In terms of the reading that I have done, with 
respect to the Treaty of Paris and the Treaty of Paris, 
incidentally, has been referenced in certain court decisions 
having to do with the establishment of the unincorporated 
territorial status, but the reading that I have done is that 
the Treaty of Paris basically, in addition to transferring 
physical possession and sovereignty over those territories that 
are ceded by Spain to the United States, specifically the 
Island of Guam, the Island of Puerto Rico, and all the islands 
that constitute the Philippine Islands at the time of the 
Treaty, it also transfers--the United States accepted certain 
responsibilities. Now, what those responsibilities are, 
although the Treaty is a treaty between Spain and the United 
States of America, they accept responsibilities for the 
inhabitants. In this Treaty, they say that they shall 
determine, and actually, it's much more specific than that, it 
says Congress shall determine what civil rights the natives, 
and this is an important point, the natives shall have and, you 
know, forgive us for freely translating native of Guam into 
Chamorro, since anybody who was here at the time the Treaty of 
Paris was concluded, anybody that was in Guam was Chamorro, so, 
I don't know who they could have been referring to, other than 
Chamorros, that the civil rights and the political status of 
the natives of the territory ceded, such as Guam, shall be 
determined by Congress. Now, to us, that seems a very 
significant point because under the broad Territorial clause 
powers that were in existence since the Constitution was 
established, Congress shall make all needful rules and 
regulations with respect to the disposal or administration of 
territories, but here in this Treaty, we have a very specific 
charge leveled upon Congress, that Congress actually took upon 
itself voluntarily, to assume responsibility for the people 
themselves.
    Does the Treaty of Paris confer upon Chamorros and, in 
particular, a certain residual sovereignty? I don't know of 
that argument can be made. It's very clear to me that Spain is 
ceding to the United States territory that Spain feels it owns 
and is ceding to the United States the responsibility to care 
for Spanish subjects. But, does it definitely place a charge 
upon Congress to resolve these questions? I think it does. And 
even more important, I think it opens the door to a way to 
solve this apparent dilemma that people seem to feel about how 
can you have an exercise of self-determination just for 
Chamorros? Well, if Congress has accepted, in the Treaty of 
Paris, the charge that it will determine the civil rights of 
the native inhabitants, i.e. the Chamorros in Guam, that, to 
me, gives Congress very broad powers to determine what those 
rights are. And, in the past, that broad power has been used by 
previous Congresses to determine, well, how little rights can 
we give them, you know, what can we get away with in terms of 
denying certain rights? But, the word determine to me is not a 
minimalist term. It can--it means you can give the Chamorro 
this many rights or that many rights or as many rights as you 
want, including the right to exercise self-determination. And, 
as far as the equal protection clause, we've already had court 
decisions in the CNMI that have upheld provisions in the 
constitution of the CNMI that restrict the ownership of 
property, specifically to Chamorros and Carolinians of CNMI 
descent and the courts determined there, very clearly, that, 
notwithstanding the equal rights provisions of the 
Constitution, that Congress, under the Territorial clause, 
could pass legislation and, through their endorsement of the 
CNMI constitution had passed legislation allowing for this 
apparently discriminatory, although we believe not 
discriminatory at all, practice to exist. So, we think the 
Treaty of Paris is a very powerful weapon for arming Congress 
with the power to resolve these issues favorably and we feel, 
again, not to pick on the Administration, that the 
Administration is less than creative in examining this and was 
quite audacious in attempting to say that you, the Congress, 
didn't have powers that so clearly you have. There is no 
limitation on what Congress can do when it comes to 
territories, and, in this case, what is can do when it comes to 
resolving the rights of natives in those territories.
    Mr. Faleomavaega. I just wanted to make this observation, 
Senator Forbes, for the record that as you are probably well 
aware, that under the Federal Constitution there are two 
distinct groupings whereby the Congress has direct authority to 
deal with. Those are the Indian tribes and the Treaty rights 
pertaining to the Native American Indian tribes, and the 
territories. And you've just quoted, quite eloquently, that 
specific provision about the Territorial clause which groups 
all of us, the rest of us, where territories--but, as I've 
cited earlier to Mr. Staymen, the problem is that we are the 
only territories that are placed under this listing that the 
United Nations has. Indian tribes do not have that in the 
United Nations. We have it. The Virgin Islands, American Samoa 
and Guam has that specific listing. And because of our listing 
as a non-self-governing territory, it also means that not all 
the provisions of the Federal Constitution applies to the three 
territories, so--which adds another problem. To say that we're 
all Americans but in substance, we do not have all the same 
rights and privileges as other Americans. So, I just want to--
and, by the way, historically, too, Congress has never been 
consistent in its dealings with the territories.
    Mr. Forbes. That's clearly the case.
    Mr. Faleomavaega. And I'm just adding more to the problem 
but I just wanted to share that with you and I sincerely hope 
that maybe the provisions of the Treaty of Paris will enlighten 
some of our friends downtown to see that there is a way to 
resolve this dilemma that we're all faced with constantly.
    The counting process, as stated earlier by Mr. Garamendi, 
when this plebiscite took place in 1982, was it just a 
plebiscite among the Chamorros in their self-determination or 
did it include all the non-Chamorros as well?
    Mr. Forbes. It was island-wide. All registered voters.
    Mr. Pangelinan. It was all registered voters of the 
territory.
    Mr. Faleomavaega. Then, why is the Administration making 
such a big thing about non-Chamorros and Chamorros 
participating in the process?
    Mr. Pangelinan. It seeks to disenfranchise Chamorros. Well, 
it enfranchises everybody else. And for me, that is--you cannot 
reconcile those two positions. The Administration is saying 
that we cannot, as a Federal policy, disenfranchise those 
people living on Guam because they happen not to be Chamorros, 
but we can disenfranchise Chamorros and it's an OK Federal 
policy. It's doublespeak and it just cannot carry, I think, not 
only in terms of the Constitution, but I think it--morally, 
they cannot carry forward that argument.
    Mr. Underwood. And just for the sake of the record, I know 
my time's up, when the plebiscite took place in 1982, with the 
vote of 75 percent plus, this voting result included both 
Chamorros and non-Chamorros, am I correct?
    Mr. Forbes. Yes, it did.
    Mr. Underwood. OK.
    Mr. Pangelinan. And the non-Chamorros voted in that to 
include a recognition of a Chamorro-only vote on self-
determination.
    Mr. Forbes. Incidentally, not to consume time you don't 
have, Congressman, I think this committee should look very 
strongly at the implications of statements that were made by 
the State Department at the U.N. and apparently in the 
testimony today about how the Administration seems to suddenly 
believe that, yes, there is a right of self-determination but 
that everyone in Guam should vote on it. I thought the Civil 
War was fought on the basis of ensuring the nullification could 
not occur and that States could not secede. If someone can 
leave California, show up in Guam or American Samoa, register 
to vote in 24 hours, and suddenly acquire a right of self-
determination that he or she did not have 24 hours before when 
they were in California, the implication to me is that this 
Administration has turned 100 years of history on its head and 
has suddenly decided that Californians have the right to secede 
from the United States of America. It makes no sense.
    Mr. Faleomavaega. Senator Forbes, I know my time is up and 
I want to say that your observation, you hit it right on the 
head of the nail. The District of Columbia is a classic example 
of how Congress has exercised its absolute authority. There's 
supposed to be an elected mayor, there's supposed to be an 
elected city council. Now they have an appointed board of 
Governors controlling all the affairs of the District of 
Columbia whereby some 600,000 American citizens reside. Thank 
you, Mr. Chairman. I know my time is up.
    Mr. Underwood. Thank you. Mr. Mansur, would you like to 
raise a point?
    Mr. Mansur. Yes, thank you, Mr. Underwood. Chairman Young 
has really been fully committed to working supporting self-
determination and I think that's evidenced by a number of 
things that he's done, particularly the past years, all the 
effort he's been putting into resolving the Puerto Rico statue 
issue and it's interesting. The fundamental premise of the 
Puerto Rico Status bill, the United States Puerto Rico 
Political Status Act, is based on mutual consent because you 
have three stages and you don't move ahead until you have 
approval by the people of Puerto Rico. At the same time, the 
chairman has made it very clear that he has a real concern for 
anybody who wants to try and assert that somehow Congress could 
be legally bound to mutual consent, as opposed to a policy or 
basically a framework.
    The other thing that is really critical in this process 
which has been mentioned today and which I know the chairman 
also feels very strongly about are those who state that 
Congress' constitutional authority under the Territorial clause 
can be disposed of. In particular, I just wanted to point out 
with regards to Senator Forbes' statement and I have the 
fortunate opportunity to know the Senator for many, many years 
now. But you mentioned in your statement about an unnamed 
district court case establishing that Puerto Rico is outside of 
the Territorial clause. Now, that was a Puerto Rico district 
court decision which they were basing on some of the 
legislative history about a compact in Puerto Rico authorizing 
their local constitutional government. Subsequent to that, the 
Supreme Court did determine in Harris v. Rosario that Puerto 
Rico is, in fact, subject to the Territorial clause. 
Furthermore, you also cite correctly the Supreme Court case 
that says Puerto Rico, like a state, is an autonomous political 
entity sovereign over matters not ruled by the Constitution and 
that was PDP v. Rodriguez. However, in that case, the court was 
referring to the authority that Congress had provided to Puerto 
Rico for a local constitutional government. And so, it was in 
the framework of that internal self-government that they had--
they were characterized with those powers. Recently, a three-
judge appellate court decision, in United States v. Sanchez, 
said in spite of Puerto Rico having this local constitutional 
government, and now for almost 45 years, in fact, it's now over 
45 years, that Congress, if it so chose to, could, in fact, go 
in and completely reorganize the government and change it 
completely. Congress hasn't chose to do that. In fact, if you 
think about it, even though there is not a legally binding 
mutual consent, they basically have abided by that principle 
for 45 years, which is a pretty strong statement in itself. The 
problem, and the only reason I'm raising this at this time, 
Senator, is it seems when these kinds of statements are raised 
here in this kind of forum where we're trying to hammer out 
what is possible and what isn't, doesn't that bring about 
confusion in Guam about what is possible?
    Mr. Forbes. Actually, in my statement, Mr. Mansur, I said 
that the Puerto Rican situation was confusing. I said that you 
seemed to have courts doing maybe this way and then maybe that 
way on the Puerto Rican issue and, in the statement, Puerto 
Rico is not mentioned as an example of the ability of the 
Congress to dispose of property under the Territorial clause. 
Rather, it was thrown in there to say, you know, some courts 
are even thinking you might have done it in Puerto Rico. 
Personally, I believe Puerto Rico is an unincorporated 
territory and I've said that anytime anybody's bothered to ask 
me. But, I'm saying that you have some degree of confusion that 
apparently arises, as best as I can tell, from the vague nature 
of the legislation in 1952 which seemed to establish a compact 
but then really didn't transfer any specific powers to Puerto 
Rico. So, you can have a court simultaneously saying, well, 
you're no longer really a territory but since Congress didn't 
give you any power, you still have to be treated like one. And, 
I think that one of the reasons why, in our draft legislation, 
we have attempted, and when I say our I mean Guam's, we have 
attempted to be more specific about what powers we would like 
to see disposed of is precisely to avoid ever being in a 
situation like Puerto Rico is where you might have some 
authorities who say you're non-territorial, you have other 
authorities who I personally agree with that say they are 
territorial and a lot of that confusion stems from vague 
language, like using the term commonwealth but not attaching 
anything specifically to it, using the term compact but not 
having any real terms attached to it. That's why those 
statements were raised.
    We believe that the power that Congress has to partially 
dispose of doesn't stem from anything having to do with the 
situation with Puerto Rico. We believe, and again this is 
thinking outside the box, Congress disposes of territory all 
the time. Congress has been leasing property, partially, you 
know, leasing mineral rights but retaining title, and you may 
say that that's title. But where are the territorial clauses 
that make a distinction between governmental powers and title? 
It doesn't.
    Mr. Underwood. OK. Thank you, Senator Forbes. I would offer 
the observation that I wish the committee had as much expertise 
on Guam as it apparently does on Puerto Rico.
    [Laughter.]
    Mr. Underwood. And that inevitably all these issues always 
resurface and I want to reiterate the point, I think, that has 
been made by the three Senators and particularly by the 
statements by Senator Forbes. One of the things that Guam has 
judiciously done in this instance is to carefully articulate in 
specific terms what it wants in order to avoid any of the lack 
of clarity which has led to interminable court cases in the 
case of Puerto Rico's own situation and that, in fact, such 
things as land alienation, there's a very specific authority 
which has been given in the case of the northern Marianas. And 
many of the items that we're asking for in this Commonwealth 
approach that kind of disposal of authority. So, it is 
possible. In some instances, it's a case of political will. In 
some instances, perhaps, it's the case of some of our larger 
insular areas affecting the business that is at hand. But, I'm 
certainly glad that there has been this extended discussion 
both from this panel as well as the first panel on the 
situation that is unique to Guam and the circumstances which 
are unique to Guam and the legal basis for many of the issues 
which we forwarded under the Commonwealth Act.
    I thank the panel very much. I'd like to call Mr. Staymen 
just for some brief questions on S. 210, please. Mr. Staymen, 
on the bill S. 210 and this is for the record. On the bill S. 
210, there's a provision in there which was inserted in the 
most recent version. It wasn't in the past 104th Congress 
version which we were trying to work at a late date. There's a 
provision in there on paying fair market value if the land goes 
to any private owner. I want it clearly established on the 
record that I am opposed to such a provision and will work hard 
to strike it if it ever happens. But I do want to ask four 
questions.
    Basically, Mr. Staymen, on page 4 of your statement, you 
recommended that the refuge--that the statement--we have a 
provision in there in S. 210 which says that if there's going 
to be any shift in the amount of acreage which the Fish and 
Wildlife currently has on Guam, that there is a mechanism 
established by which both Guam and the Fish and Wildlife 
Service engage in discussions and, failing any agreement, that 
the matter be disposed of in Congress. The headquarters 
property of the Fish and Wildlife Service numbers some 300-plus 
acres and we figure that this was a useful compromise since we 
may not ever reach any agreement. But in your testimony, you 
want to expand that to include the overlay component of the 
Guam National Wildlife Refuge. Wouldn't the effect of your 
amendment exempt the entire refuge overlay from the impact of 
Guam being first in line for land? And this would affect 
approximately 23,274 acres of land, lands which the DOD 
agencies hold onto. And you know, Guam is a very small place. 
Twenty-three thousand acres is a lot of land and it really 
takes the stuffings out of the whole notion of Guam being first 
in line.
    Mr. Staymen. That's not the intent. The intent was to try 
to clarify the definition which talks about refuge and the 
purpose of the bill is to transfer those refuge lands but 
refuge lands, per se, are not subject to transfer by 
administrative action. And we wanted to clarify that the lands 
addressed by this bill are the overlay lands. The intent is 
that they would be, the 23,000 acres you speak of, would be 
subject to transfer. So, I think we agree that the intent of 
the bill is to provide Guam with an opportunity to obtain 
ownership of those overlay lands. But by saying the word 
``refuge,'' you are suggesting that the lands up at Ritidian 
Point, the 772 acres, could be transferred. They cannot except 
by act of Congress. They couldn't be affected by this 
administrative procedure.
    Mr. Underwood. Well, I'm not sure that I understand the 
intricacies of your answer. Are you saying that----
    Mr. Staymen. I'm not trying to evade this----
    Mr. Underwood. Are you saying that if your proposed 
amendment is accepted in the context of this legislation, that 
that land, this 23,000 acres in the wildlife refuge, would 
still be subject to the right of first refusal for the 
Government of Guam?
    Mr. Staymen. It would be subject to the second track of our 
two-track proposal. The two tracks are land that's not a part 
of the overlay. Guam would have the right of first refusal and 
have 180 days to essentially exercise that right. The other 
land falls into the second track which is GovGuam, and Fish and 
Wildlife takes 180 days to attempt to reach an agreement on the 
conditions of transfer. And, if they do, that's done. If they 
don't, it kicks over to Congress.
    Mr. Underwood. OK, I think I got that. On the other item, 
on page 4 of your written statement, you state that the 
administration wants to exempt those lands that are under lease 
by DOD to another Federal agency. S. 210 states that those 
lands which are leased prior to May 1 would be exempt from 
transfer but those properties leased after that date would be 
covered by the legislation. If you had--wouldn't your amendment 
encourage Federal agencies to enter into lease agreements so as 
to exempt those properties from being transferred to the 
Government of Guam?
    Mr. Staymen. We don't believe so. We believe that having 
the 2-year window, in other words, they would have to be on an 
active lease, using the land for 2 years, is a reasonable test 
for whether that agency really needs the land. We don't want 
people rushing in and unfairly using this land if they don't 
really need to. What the current bill does is frees agencies. 
Essentially, if they haven't been using it before that date, 
they couldn't develop an interest. We have to remember that 
this----
    Mr. Underwood. I think that's the whole intent.
    Mr. Staymen. Well, let me just finish to say that this 
whole bill is perspective. There is, at this time, no specific 
land excess. This provision may be around 10, 15, 20 years, you 
know, for a lot longer than that and it's we don't think 
reasonable to tell Federal agencies that 10 years from now, if 
they develop a legitimate interest in getting a permit from DOD 
to use land on Guam, that they should be precluded, then, from 
continuing that use should the land become excessed.
    Mr. Underwood. On page 6 of your statement, you recommend 
that public purpose shall not include any transfers to private 
individuals. I want you to know that we've all gone over the 
story of the historical context of how lands were originally 
taken and I'm certainly interested in trying to find a way to 
resolve the situation regarding lands which includes the 
original landowners. I also, in your statement on submerged 
lands, you indicate in your statement that there has been no 
contention over the submerged lands. And I want to point out to 
you that I'm going to enter correspondence into the record from 
the Government of Guam which has indicated serious contention 
over submerged lands, going back 5 years.
    [The information referred to may be found at end of 
hearing.]
    Mr. Underwood. Are you saying that you are not familiar 
with any contention over the ownership of submerged lands?
    Mr. Staymen. The scope of my statement was relatively 
limited regarding those excess lands adjacent to Ritidian. My 
understanding--yes, there is contention about other submerged 
lands but, in the case of submerged lands which were made 
excess, that Guam, in fact, did not ask for those lands. They 
had the right under the current Federal Property Act to claim 
ownership of the submerged lands which were excessed. For one 
reason or another, they did not claim that. So, I was only 
referring to that relatively limited amount of submerged lands 
adjacent to Ritidian Point which were declared excess by GSA 
and has since reverted back to the Navy, but I might just add 
that if Guam is interested in them and asks the Navy, they may 
be willing to re-excess them.
    Mr. Underwood. Well, I would say for the record that that 
was done so quickly there wasn't enough time to indicate our 
contention on that.
    Thank you. I just wanted an opportunity to clarify those 
points with you. Thank you, Mr. Staymen.
    Mr. Staymen. Thank you very much.
    Mr. Underwood. OK, I'd like to call up the final panel. 
Panel III: Susan Moses, president of the College of Micronesia; 
Chris Perez Howard, Organization of People for Indigenous 
Rights; Hope Cristobal, Organization of People for Indigenous 
Rights; The Most Reverend Anthony Apuron, archbishop of the 
archdiocese of Agana; Jose Guevara, vice president of the 
Filipino Community of Guam; and Debbie Quinata of Nasion 
Chamoru.
    OK, before we begin, I'd like to enter a number of other 
statements into the record that have been given to me. 
Statements by: Senator Tom Ada, and Senator Lou Leon Guerrero 
of Guam; Senator Carlotta Leon Guerrero of Guam; student Neil 
Weare of Oceanview High School; statement of the Guam Chamber 
of Commerce; and a statement by Frederick Quinene; statement 
by--I wish they would sign it at the beginning--statement by 
several members of the Filipino President's Club of Guam; and 
that's it for now.
    [The prepared statement of Mr. Ada may be found at end of 
hearing.]
    [The prepared statement of Ms. Leon Guerrero, a Senator 
from Guam, may be found at end of hearing.]
    [The prepared statement of Ms. Guerrero may be found at end 
of hearing.]
    [The prepared statement of Mr. Weare may be found at end of 
hearing.]
    [The prepared statement of the Guam Chamber of Commerce may 
be found at end of hearing.]
    [The prepared statement of Mr. Quinene may be found at end 
of hearing.]
    [The prepared statement of members of the Filipino 
President's Club may be found at end of hearing.]
    Mr. Underwood.
    All right, we'll begin with Susan Moses. And, I know that 
it's very late in the day and we've been at this now for four-
and-a-half hours, and, I know, Susan Moses, that you've been 
enthralled about the whole situation regarding Guam and 
probably learned more than you ever care to know. So, with 
that, the president of the Community College of Micronesia.

 STATEMENT OF SUSAN J. MOSES, PRESIDENT, COLLEGE OF MICRONESIA-
                              FSM

    Ms. Moses. Thank you very much. It has been an interesting 
day.
    And, before beginning, I would like to state that the 
testimony that I am about to make is being made not only on 
behalf of the College of Micronesia-FSM, as it's president, but 
also on behalf of President Alfred Capelle of the College of 
the Marshall Islands, and interim President Mario Katosang, who 
is interim president of Palau Community College, who are with 
us in the gallery today.
    Mr. Chairman, and members of the committee, we wish to 
thank you for providing the opportunity for the presidents of 
Palau Community College, the College of the Marshall Islands, 
and the College of Micronesia-FSM to clarify our collective 
position regarding S. 210 relative to land grant status for our 
colleges. We will now summarize our written statement which has 
been submitted for the record.
    Prior to 1993, Palau Community College, the College of the 
Marshall Islands, and the College of Micronesia-FSM, were all 
part of one system; that being the College of Micronesia. This 
system was governed by a board of regents through a treaty 
among the nations of the Republic of Palau, the Republic of the 
Marshall Islands, and the Federated States of Micronesia. In 
1993, each of the three colleges of the COM system became 
autonomous institutions under separate governing boards in all 
areas except those related to administration of the land grant 
programs.
    Because COM was designated by U.S. Congress in section 
506(a) of the Education Amendments of 1972, as the land grant 
institution for the trust territory of the Pacific islands, a 
Congressional amendment is now required to allow each of the 
Micronesian colleges to administer the land grant programs. 
This legislative action would, in effect, eliminate one of the 
last vestiges of the trust territory administration.
    Efforts have been undertaken since 1993, for each of the 
colleges in the COM system to be designated land grant 
colleges. The COM Board of Regents is fully supportive of these 
efforts.
    We are grateful for the support of Senators Murkowski and 
Akaka, and the Senate Committee on Energy and Natural Resources 
for the inclusion of section 3, territorial land grant 
colleges, in S. 210.
    The colleges were supportive of the measure in its original 
form. However, there is a provision in the final form that is 
of great concern to us. Section 3(c) of S. 210 stipulates that 
the current level of funding would remain the same and be 
divided among the three colleges. This provision would put each 
of our three colleges at a clear disadvantage compared to 
similar-sized land grant colleges in the region--such as 
Northern Marianas College and American Samoa Community 
College--as it would require the Micronesian colleges to 
provide full land grant services and programs with only one-
third of the funding.
    Each of the Micronesian colleges aspires to assume 
responsibility for all extension and research functions in the 
areas of agriculture, and mariculture for their respective 
governments. Full implementation of the land grant programs 
would build the capacity of each of the colleges to provide 
these services and thus contribute substantially to each 
nation's efforts to build the human resource capacity in 
support of the economic development efforts that the Compacts 
of Free Association aspire to.
    Section 3 of S. 210, would severely limit the capability of 
our colleges to deliver land grant programs and services. We 
the presidents of the three Micronesian colleges hereby solicit 
your favorable consideration to amending S. 210 through the 
deletion of section 3(c). If such amendment is not deemed 
possible at this time, then we respectively request that 
section 3 be deleted from S. 210 in its entirety.
    Mr. Chairman, once again we thank you and the committee 
members for taking time to consider our concerns. We sincerely 
appreciate the support that the U.S. Congress has provided our 
colleges over the years and we pledge to continue to implement 
programs supported by Congress with integrity and excellence.
    Thank you very much.
    [The prepared statement of Ms. Moses may be found at end of 
hearing.]
    Mr. Underwood. Thank you very much, President Moses.
    Former Senator Hope Cristobal?

  STATEMENT OF HOPE A. CRISTOBAL, ORGANIZATION OF PEOPLE FOR 
                       INDIGENOUS RIGHTS

    Ms. Cristobal. [speaking in Chamorro] ``Suzumaci. Buenas 
dias,'' Mr. Chairman, Congressman Robert Underwood, and members 
of the House Resources Committee.
    [Speaking in Chamorro] ``Guahosi a'' Hope Critobal. I am 
the official representative of the Organization of People for 
Indigenous Rights. Mr. Chairman, I was here in 1985, some years 
ago with then Governor Radallio, on a similar hearing. And, I 
am here today, again, representing the Organization of People 
for Indigenous Rights with a statement on title I, section 102.
    One of the primary purposes of the Organization is to 
protect and to promote the Chamorro people's inherent right of 
self-determination. We firmly believe that only the Chamorro 
people in Guam have the right to alter Guam's status from a 
non-self-governing territory, to one consider to be having a 
full measure of self-government. We recognize that a part of 
the discussion of H.R. 100 is a discussion about the right of a 
people to maximize their existence in their homeland. It's 
about the right of a people to determine their political 
destiny as a people, and it is about a right--our right--of 
self respect and dignity, as a people. And that people, Mr. 
Chairman, is the native people of Guam--the Chamorro people.
    In our efforts--in our organization's effort--to ensure the 
recognition of our people's inherent and inalienable right, we 
participated in the commission on self determination meetings, 
and we are heartened by the inclusion of title I, section 102 
in the act. And, we support, in principle, this provision of 
the act. It recognizes as a cardinal principle of self 
determination, that in the case of Guam, the pursuit of an 
ultimate political status is legitimately, morally, and 
legally, the sole quest of the Chamorro people. We do not, 
however, recognize H.R. 100 as a self determination or a 
decolonizing document. We consider it an interim Federal 
territorial relations document.
    For over 100 years now, Mr. Chairman, our people have been 
frustrated, awaiting the political status process that would 
restore our dignity as a people to be self governing, and to 
exercise our right of self determination.
    Our Chamorro people are frustrated because we live the 
negative effects of the unilateral immigration policies of the 
United States on our small Pacific island. This, and all these, 
effectively diminishes our social, economic, and political 
development.
    We request that a timetable be set in H.R. 100 for the 
exercise of Chamorro self determination to coincide with the 
intent of the local public law 23-147, and act to create the 
Commission on Decolonization for the implementation and the 
exercise of Chamorro self determination. Aside from this, our 
Organization fully supports all other Chamorro rights 
provisions in title I, as well as section 701, Guam Immigration 
Authority under title VII.
    Next year marks 100 years of colonialism under the flag of 
the United States. The U.S. Congress in accepting its role in a 
decolonization process for the Chamorro people, must take 
seriously our people's quest to be fully self governing and to 
determine the ultimate political destiny of our homeland. It 
has a responsibility to assist the Chamorro people and must not 
continue to allow the courts to determine the kind of 
relationship that our people will have with the United States. 
Our people deserve more than just a mild sway of justice, Mr. 
Chairman.
    We await the serious and open discussions and the decision 
by Congress of H.R. 100, but we must make it emphatically clear 
that as you look at title I section 102, that it is in keeping 
with the provisions of the United Nations charter article 73 
that political status chains be specifically related to the 
people who are a historically and a non-self governing people. 
This cannot be interpreted in any reasonable fashion as meaning 
any other people than the Chamorros. It is time that the United 
States live up to the provision. The Chamorro people's inherent 
right of self determination--It's time the United States live 
up to its responsibilities by recognizing legally, in a 
accordance with its own constitutional provisions, the 
Chamorran people's inherent right of self determination, and we 
ask that Congress approve title I section 102 as it stands.
    Mr. Chairman, we believe that the essential meaning of the 
United States Constitution is to promote and protect and defend 
the dignity and the integrity of people.
    There is a saying in Chamorro, Mr. Chairman, [speaking in 
Chamorro] ``I taotao ni'ha sedi na uma gacha', ha miresi na uma 
gacha'ya uma figes.'' Mr. Chairman, our people have been a 
strong and a spiritual people. We derive our spirit on Chamorro 
from God, our families, and the sustenance of our homeland. We 
will fight that our pride, our self respect, our dignity, will 
not be sacrificed with the removal of the Chamorro rights 
provisions in H.R. 100, lest we be crushed. Our people deserve 
nothing less. Long live the Chamorro people. [speaking in 
Chamorro] ``Biba Chamoru.''
    ``Si Yu'os ma'ase,'' Mr. Chairman.
    [The prepared statement of Ms. Cristobal may be found at 
end of hearing.]
    Mr. Peterson. [presiding] I'd like to thank the lady.
    The next witness we will call will be Chris Howard.

  STATEMENT OF CHRIS PEREZ HOWARD, CHAIRMAN, ORGANIZATION OF 
                  PEOPLE FOR INDIGENOUS RIGHTS

    Mr. Howard. Thank you, Mr. Chairman.
    I am Chris Perez Howard, chairman of the Organization of 
People for Indigenous Rights. I sincerely thank you on behalf 
of our organization for the opportunity to present testimony on 
H.R. 100, a bill to establish the Commonwealth of Guam.
    Before I begin, I would like to state for the record, that 
our organization is not here in support of the Commonwealth 
Act. We are here to support the rights and concerns of the 
indigenous people of Guam--the Chamorro people.
    Mr. Chairman, the Chamorro people's relationship with the 
U.S. Congress goes back to the year 1898, when Spain ceded Guam 
to the United States and gave Congress the right to determine 
the civil rights and political status of the native 
inhabitants. Since then, Congress has held this right to make 
these decisions.
    Mr. Chairman, we believe that this hearing is based upon 
the relationship that the U.S. Congress has had with the 
Chamorro people since 1898. Although they have, in various 
documents, been referred to by names such as native 
inhabitants, people of Guam, Chamorros, Guamanians, inhabitants 
of Guam, and nationals of the United States, they are the 
people whom you promised the right to self determination. They 
are the people for whom you wrote the Organic Act for Guam. 
And, they are the people whom you should be addressing.
    From the beginning, OPIR has not supported the draft 
Commonwealth Act. We do not support it because commonwealth is 
not a status determined by the Chamorro people, nor is the 
draft act written and adopted by them. It is a U.S. citizen 
document. It infringes on the rights of the Chamorro people, 
especially in regards to others determining their inherent 
sovereignty.
    In the past, however, OPIR has supported the provisions 
concerning Chamorro right to self determination and Guam's 
control of immigration. Now, we think it may be pointless to 
even discuss these issues in the Commonwealth Act before 
Congress. We feel this way because immigration controlled by 
Guam has been blasted in the media and in reports by U.S. 
Government agencies, and the frontal assault and behind-the-
back attempts by the United States to deny the Chamorro people 
the right to self determination in the United Nations.
    For your information, attached is a transcript of the U.S. 
statement before the U.S. Special Political and Decolonization 
Committee a few weeks ago. As an example of this kind of 
information given as factual by the United States, is this 
declaration: ``The United States is a Nation in which all 
persons are provided equal treatment under the law.'' This 
statement, Mr. Chairman, is a blatant attempt to influence the 
U.N. committee at the expense of the Chamorro people. Mr. 
Chairman, as you are well aware, we do not vote for the 
President of the United States. Not all of the U.S. 
Constitution applies to us. And we do not have a voting Member 
in Congress. Something smells at the United Nations and 
reflects badly on the moral character of America. With that 
U.S. statement at the United Nations, how can we now expect 
Congress to do what is right?
    In closing, aside from the reason our organization gave for 
opposing the draft Commonwealth Act, we consider the status of 
commonwealth as another colonial status. If Congress truly 
wants to solve the political status problems of its 
territories, it should embrace decolonization and not just a 
political status change.
    Thank you. [speaking in Chamorro] ``Si yu'os ma'ase,'' Mr. 
Chairman.
    [The prepared statement of Mr. Howard may be found at end 
of hearing.]
    Mr. Peterson. I'd like to thank the gentleman.
    And next, we'll call upon the Most Reverend Anthony S. 
Apuron, Archbishop of the Archdiocese of Agana.

  STATEMENT OF ANTHONY S. APURON, ARCHBISHOP, ARCHDIOCESE OF 
                             AGANA

    Rev. Apuron. Thank you very much, Mr. Chairman, and members 
of this committee.
    I'm deeply honored by your gracious invitation to appear 
before this committee of the U.S. House of Representatives 
today. It is a rare privilege, indeed. I come as a spiritual 
leader of Guam to bear witness to the voices in the hearts of 
the Chamorro people crying out for justice and a resolution of 
our quest for political determination.
    You, as a body, have the ultimate power and authority in 
the Nation to bring about the justice we seek. I urge you to 
act with a moral conscience. We the people of Guam deserve 
nothing less. As loyal and patriotic American citizens, we seek 
the American promise of justice for all.
    We as a people have been blessed with many benefits 
stemming from our intimate relationship with the United States. 
In 1898, we have progressed tremendously--or since 1898, we 
have progressed tremendously. We were freed from an occupying 
force during World War II. In the subsequent decades, our 
quality of life as an island community has substantially 
improved.
    Concomitant with these benefits we have more than 
adequately contributed our share to the greatness of this 
Nation. Our people have always come forward fearlessly and 
generously, even shedding their very blood with great 
sacrifices to the family, in demonstrating their loyalty and 
patriotism in military service. Our sons and daughters have 
been among those who fought for World War II, the Korean war, 
the Vietnam war, and desert storm--all conflicts not of our own 
choosing. In the quest for National security and world peace, 
our resources, especially our most precious and limited land 
and water resources, were exploited and continue to be deemed 
vital to American presence in the Pacific theater.
    We have willingly paid the price exacted by the American 
promise of freedom and justice for its citizens. What we ask 
now, Mr. Chairman, is that for that promise to be delivered in 
its entirety and in all its glory, namely the granting of 
Guam's Commonwealth Act.
    The Chamorro people of Guam have given 100 percent to this 
Nation. The lives lost in the various conflicts for peace are 
testimony enough to this fact. As we move toward the next 
millennium, I want to emphasize the unique opportunity this 
august body faces, and the power it ultimately holds, to 
redress the grievances and injustices we have suffered and 
continue to suffer as a colonized people--an unincorporated 
jurisdiction, and an insular possession, or whatever the status 
of Guam may be called--all terms unacceptable, incongruit, and 
unconscionable with great promise of freedom, liberty, and 
justice for all which this great Nation, since its founding, 
has echoed and re-echoed throughout the world.
    As this country has challenged other nations to uphold 
democratic principles on moral and human rights grounds, so we 
as a Chamorro people appeal to those very principles on moral 
and human rights grounds.
    In sacred scripture the hypocrite was condemned by Jesus 
for professing one set of beliefs and acting otherwise. Could 
it not be considered hypocritical to exact the very blood and 
the lives of our people in service of this great Nation we 
call, quote ``America'' unquote, while at the same time 
perpetuating second-class citizenship through the colonial 
status we are currently subjected to? How much more, Mr. 
Chairman, must we give in order to receive what this great 
Nation promises? Is it just too much to ask that the reversal 
of this status begin with a congressional passage of the Guam 
Commonwealth Act which embodies the political process by which 
Chamorros will achieve self determination? The passage of the 
Guam Commonwealth Act would be a major step in the right 
direction. We believe that justice, freedom, truth, and liberty 
will all be enhanced by such action of yours. And will not 
America be the greater for that?
    I humbly pray then that this great Nation under God, 
indivisible, with liberty and justice for all, and under your 
leadership, Mr. Chairman, will be able to uphold these ideals 
with truth and wisdom and right judgment and as you vote on the 
Guam Commonwealth Act.
    [Speaking in Chamorro] ``Dangkolo na si Yu'os ma'ase.'' 
Thank you.
    [The prepared statement of Rev. Apuron may be found at end 
of hearing.]
    Mr. Peterson. I'd like to thank the reverend for his 
testimony.
    Next we will introduce Jose Guevera, vice president of the 
Filipino Community of Guam.

 STATEMENT OF JOSE GUEVARA, VICE PRESIDENT, FILIPINO COMMUNITY 
                            OF GUAM

    Mr. Guevara. Thank you, Mr. Chairman.
    Mr. Chairman, members of this committee, I am Jose Guevara, 
a resident of Guam and vice president of the Filipino Community 
of Guam. I am proud to say, Mr. Chairman, that about 30 percent 
of Guam's population today is of Filipino origin or decent and 
the Filipino community is an integral part of the wonderful 
island of Guam.
    The Guam Commonwealth Act is a matter of considerable 
interest to the Filipino community of Guam. For those of us who 
have permanently made Guam our home, as opposed to those who 
eventually move to other parts of the United States, the issues 
raised in the Commonwealth Act cause us to come to terms with 
our history as Filipinos and our status as Americans.
    Given the history of the political relations between our 
mother country, the Philippines, and our adopted home, the 
United States, Filipino-Americans understand the difficulties 
of colonial relationships. Our history as a Filipino also 
illustrates, like the American's experience itself, that 
colonialism is not a legitimate form of government.
    There is a natural affinity amongst Filipinos to appreciate 
and understand the Commonwealth Act's proposal to establish an 
autonomous and internally self-governing entity called the 
Commonwealth of Guam. For those of us who make Guam our home, 
self government for us has even more meaning. The various ways 
in which the Commonwealth Act provides for the devolution of 
powers from the Congress to the people of Guam, will have an 
inescapable impact to our economic potential--the stable 
economic patterns, the enactment of laws that make sense for 
our Guam, and maximization of our economic role in the Asian-
Pacific region. These things will be done with no threat to the 
U.S. military needs.
    Commonwealth is clearly not independence, which our mother 
country fought for, negotiated, and achieved. Nor is 
commonwealth Statehood as is being pursued by Puerto Rico. For 
three entities taken by the U.S. during the Spanish-American 
war of 1898, the Philippines was encouraged to pursue 
independence. Puerto Rico is now being encouraged to pursue 
Statehood, and Guam is being offered neither.
    Recognizing this, the people of Guam have sought a middle 
road of autonomous commonwealth status on the road of 
decolonization. Because of Guam's uniqueness, and because no 
one is suggesting Guam should be a State, we believe special 
dispensation is necessary.
    That's all, Mr. Chairman. And, thank you for giving us the 
opportunity to be heard.
    [The prepared statement of Mr. Guevara may be found at end 
of hearing.]
    Mr. Peterson. I'm pleased to thank the gentleman for his 
testimony.
    At this time we'll call on Debby Quinata, Nation of 
Chamoru.

      STATEMENT OF DEBTRALYNNE K. QUINATA, NASION CHAMORU

    Ms. Quinata. [Speaking in Chamorro] ``Hafa adai.'' 
Greetings, Mr. Chairman, and distinguished members of the 
Committee on Resources.
    My name is Debtralynne Quinata. I am a citizen of Guam, and 
I am Chamorro. I am here today on behalf of the Nation to 
testify in opposition to the Guam Commonwealth Act.
    First, we would like to state for the record that we 
construe House Resolution 100 not a true exercise of Chamorro 
self determination, but merely a petition by U.S. citizens 
residing on Guam in 1987 to amend the present Organic Act of 
Guam.
    Secondly, we oppose H.R. 100 because short of a true 
exercise of Chamorro self determination, this bill, under 
article 1 section 101, proposes to surrender our sovereignty. 
Sovereignty to all free nations of the world, which includes 
our native brothers and sisters of the Americas, is an inherent 
and sacred right that they would do anything in their power to 
protect and defend.
    If Congress intends to accept that the Federal Government 
should have total sovereignty over Chamorros, not withstanding 
recognized treaty obligations and U.N. mandate, than we fear 
that this may have devastating repercussions. This act may also 
set a precedent over treatment and consideration of treaties 
and policies signed between Native Americans and the Federal 
Government.
    The Chamorro Nation, therefore, will not play a part in 
opening the door that may jeopardize or extinguish the 
sovereignty of our native brothers and sisters simply because 
the government of Guam, with the consent of the Federal 
Government, chooses to unilaterally compromise our sovereignty.
    Thirdly, the Chamorro Nation opposes H.R. 100 for the mere 
reason that even non-Chamorros were permitted to vote in 
political status elections in which the commonwealth status was 
selected. This is a clear violation of the Treaty of Paris, 
article 73 of the U.N. charter, and U.N. resolution 1514 and 
1541 pertaining to the process of decolonization of colonial 
countries wherein they recognize the inalienable rights of 
Chamorro's self determination. The fact Chamorros have not been 
given the opportunity to exercise their right to self 
determination does not justify the government of Guam, a 
Federal instrumentality, having non-Chamorros vote on any 
political, social, or economic issue directly affecting the 
native Chamorros. This, we believe, is a grave injustice. And, 
although Chamorros now represent a minority, it does not give 
any government the right to preempt our existence. The Chamorro 
Nation vows never to remain silent on this issue until true 
exercise of Chamorro self determination is realized. Nor will 
we ever accept the idea of giving non-natives the absolute 
power and right to seize and hold our sovereignty and at their 
whim dictate our lives as indigenous people.
    Self determination or decolonization is neither an 
individual or citizen right. It is the right of a distinct 
group of people--the Chamorros--whom have a historical 
relationship with the United States. Therefore, it would be 
totally absurd to have U.S. military personnel who are 
stationed on Guam, foreigners who have been naturalized, and 
U.S. citizens from the States, voting on any interim petition 
that would require a political status change. Even within the 
political framework of the United States, U.S. citizens 
residing adjacent to reservations do not have the right to vote 
and pass policies affecting Native Americans.
    Lastly, we Chamorros for many years have been placed under 
the auspices of the Department of Interior. This is an agency 
that has jurisdiction over Federal properties and animals. 
Today, we would like to proclaim that Chamorros are neither 
property nor animal.
    In recent years we have seen this agency, with the blessing 
of the Federal Government, advocate and pass more laws to 
protect endangered species and the environment than laws to 
protect the indigenous people of Guam. In fact, in the 99 years 
of U.S. rule, laws were instead imposed to undermine our 
existence as a people; such as executive orders which 
prohibited the speaking of our language, the outlawing of many 
of our traditions, and the taking of our lands. One can only 
conclude that these acts are nothing more than a systematic 
process of genocide. Excuse me.
    Members of Congress, December 1998, will mark 100 years of 
U.S. rule, and the Chamorros have yet to exercise their right 
to self determination. Our people have lived in the Marianas 
for over 4,000 years--a peace-loving people living in harmony 
with our neighbors and our surrounding environment. We 
Chamorros, like many other native peoples throughout the world, 
have committed no sin toward humanity. Our question, therefore, 
is pure: what in God's name have we done to deserve such 
mistreatment?
    Rather than pursuing Commonwealth of Guam, we ask that you 
support Guam's public law 23-130 which establishes the Chamorro 
registry, and public law 23-147 establishing the Commission on 
Decolonization for the implementation and exercise of 
Chamorroan self determination.
    For these reasons we rely on your knowledge, compassion, 
and wisdom to put an end to these injustices. To right the 
wrong, and to free a people. It is only fair, just, and the 
right thing to do.
    [Speaking in Chamorro] ``Si Yu'os ma'ase.''
    [The prepared statement of Ms. Quinata may be found at end 
of hearing.]
    Mr. Peterson. I would like to thank the lady and all the 
panel members.
    Do we have any questions for the panel?
    The gentleman from Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    It's a lot better than Somalia, as I've been given that. 
Thank you, nevertheless.
    I would like to certainly welcome Mrs. Moses before the 
committee. It has been my privilege over the years to know very 
well the Governor Resio Moses--I think, now, Senator? Am I 
correct Mrs. Moses? Please do convey to him my personal regards 
and hope all is well in Palau.
    Can I ask you Mrs. Moses, was there an original 
understanding between you and Senator Akaka and Murkowski about 
the wording about the language with reference to the three 
colleges of Micronesia? What was your understanding?
    Ms. Moses. Thank you very much.
    Yes, we received copies of the original legislation that 
was first considered, and it did not contain section 3(c). 
Section 3(c) was added as a result of administration testimony 
to the measure.
    Mr. Faleomavaega. OK. Was the original language that the 
Senate had provided for the three separate entities, to 
function as three separate entities?
    Ms. Moses. The original language that the Senators drafted 
for this issue was acceptable to all three colleges. It had 
sections--it only had two sections: sections (a) and (b).
    Mr. Faleomavaega. As I recall, originally, when the College 
of Micronesia, when the endowment was set aside for the College 
of Micronesia, at that time there was only one College of 
Micronesia. Am I correct?
    Ms. Moses. That's correct.
    Mr. Faleomavaega. And in the process now, you have Palau 
and the Marshalls also having a separate community college, is 
that it?
    Ms. Moses. That's right.
    Mr. Faleomavaega. And how is it functioning right now with 
this endowment? Do all the proceeds go directly to the College 
of Micronesia?
    Ms. Moses. No, the endowment is--The College of Micronesia 
still exists only for land grant purposes. We named ourselves 
the College of Micronesia-FSM--we're the former Community 
College of Micronesia. So the endowment for the land grant has 
been separate all along, and the proceeds from the investment 
of the endowment go to support residential instructional 
programs at all three colleges as well as provide some matching 
funds for the land grant programs.
    Mr. Faleomavaega. And in the process, as we were making 
amendments to the Federal statute, both colleges in Marshals 
and Palau, have they also gained land grant status?
    Ms. Moses. No. That's what we're seeking today.
    Mr. Faleomavaega. So, basically they don't have land grant 
status, but the College of Micronesia-FSM has land grant 
status?
    Ms. Moses. No, I'm sorry, that's incorrect. The College of 
Micronesia, which is a college that was comprised of Palau and 
the Community College of Micronesia in the FSM, and the 
Marshalls is the college that has land grant status in the 
statute. That college does not--that college has been 
disbanded, essentially, for everything except land grant 
programs. And the reason for that is that in the statute, the 
College of Micronesia is designated as the land grant college 
for the former trust territory of the Pacific islands.
    Mr. Faleomavaega. I understand that. So, basically, the 
administration does not support the idea of giving land grant 
status to both the colleges of the Marshalls and Palau. This is 
basically the problem?
    Ms. Moses. And College of Micronesia-FSM, because we don't 
have land grant status either. The College of Micronesia does. 
They're not the same.
    Mr. Faleomavaega. No, I understand that. But, I'm just 
trying to get to the original purpose of the act which was to 
grant land grant status to the College of Micronesia, in its 
original form, with the $3 million endowment----
    Ms. Moses. That's correct.
    Mr. Faleomavaega. [continuing] interest drawn from there 
for use as you suggested earlier. So, the current law, as it 
now states, you still have the College of Micronesia-FSM, but 
without the land grant status because of the change of the 
Government?
    Ms. Moses. That's correct.
    Mr. Faleomavaega. Oh. OK. And so this is basically the 
problem that we're faced with.
    Ms. Moses. Yes.
    Mr. Faleomavaega. All right. Thank you, Mrs. Moses.
    I was interested in the testimonies stated earlier by Mr. 
Howard and Ms. Quinata and your non-support of the proposed 
Commonwealth Act. You're taking this basically with the idea 
that as an indigenous people you don't want in any way to be 
associated with the United States? You want to be completely 
independent? Is that----
    Mr. Howard. No; it's that we're against the process as it 
now stands. We don't advocate any political status. It's the 
process.
    Mr. Faleomavaega. OK. All right.
    Ms. Quinata?
    Ms. Quinata. I'd like to also--just for a little bit more 
clarification is that, again, we are not advocating any 
particular status, but I do not believe that the commonwealth 
status is not a status at all that is in the political 
framework other than an interim status. And that, above and 
beyond that, we have not done--we don't have a true vote. We 
don't have the--we have not protected the indigenous people of 
Guam. We've allowed everybody to become involved in that 
particular process.
    Mr. Faleomavaega. You did not support the process because 
non-Chamorros also participated in the process?
    Ms. Quinata. Yes, sir.
    Mr. Faleomavaega. OK.
    Thank you, Mr. Chairman.
    Mr. Peterson. Any further questions for the panel?
    Mr. Underwood? Or, Ms. Green? Mr. Underwood?
    Mr. Underwood. Thank you very much. And, President Moses, 
please also relay my greetings to Resio and I'd also like to 
recognize and welcome Alfred Cappelle, my colleague for a long 
time--and ``Yokwe yok''--long time. In language issues out in 
Micronesia, and to Mario Katosang, ``ali'' to you and to all my 
friends in Palau.
    I don't have any questions. I just want to make some 
observations and also note that we are now coming upon 6 
o'clock in the morning tomorrow in Guam, and actually, even 
though this particular panel might have felt all along that 
they would have been slighted, they're probably more people 
listening to this panel than there were to the earlier panel, 
so maybe the timing of it is very good. Along with feeding the 
chickens, they were listening to this panel as people on Guam 
wake up.
    The issues that are before us are long and complicated and 
weighty. And, I can't help but reflect upon the meaning of this 
exercise and the meaning of the people who have participated in 
this exercise, including Ron Rivera, and myself, and Hope 
Cristobal, and Chris Howard, and Debby Quinata, the Archbishop; 
all of us have been intertwined in our lives in very curious 
and interesting ways; former Congressman Ben Blaz, Governor 
Gutierrez. There is a lot of energy. And there is a lot of 
energy in the room. And, there's a lot of energy, it reflects 
accurately, I think, the energy of the people of Guam.
    I made a special effort, and I'm glad to acknowledge the 
agreement of the committee to make sure that the panel that is 
now before actually had a chance to speak. We wanted to make 
sure that people who may be opposed to H.R. 100, and there are 
some, be allowed the opportunity to state their concerns and 
state the origins of their concerns.
    But, as we look upon this morning in Guam, and we've been 
at this hearing now for some 5 hours, I feel very strongly that 
it's been a very successful hearing, not because, necessarily, 
it moved the legislation in--my good friend from American 
Samoa's--terms, maybe 1 inch, but it certainly has increased 
our understanding, both, not only of the obstacles ahead of us, 
but certainly the understanding of the people of Guam, what 
they have before them, and what brought them to this point.
    I asked the chairman if I could just say a few remarks in 
Chamorro, and I will:
    [Speaks in Chamorro.]
    Mr. Underwood. I want to express my gratitude to the 
formerly English-only Committee on Resources for this 
opportunity.
    [Laughter.]
    Mr. Peterson. I thank the gentleman.
    I would like to thank the witnesses for their valuable 
testimony and for the distance that you came--all of those that 
are here that have come from such a great distance.
    For the Members: I have no doubt that the Members after 
today, will be far more knowledgeable on this issue and have a 
clearer understanding. The members of the committee may have 
some additional questions for the witnesses. We will ask you to 
respond in writing. The hearing record will be held open for 
these responses as well as any other statements by Members for 
2 weeks.
    And, we have high hopes that the administration will be 
inspired by this hearing and will follow through in a timely 
manner on providing the committee with numerous updating of 
references or changes identified in their testimony for this 
proposal. And, hopefully, they will seriously engage in 
appropriate process to bring a conclusion to this issue that 
has been out there for a long time. We urge them to take it 
seriously and to work at it. We think they can bring it home if 
they choose to, and we would urge them to get busy and start 
the dialog and the exchange that is so vitally necessary.
    Mr. Faleomavaega. Would the gentleman yield?
    Mr. Peterson. Yes.
    Mr. Faleomavaega. I would be remiss if I did not also 
express my deepest appreciation to you, Mr. Chairman, and the 
majority party for allowing this hearing to take place in the 
first place. And, I would also like to congratulate my good 
friend and colleague from Guam, Dr. Underwood--Congressman 
Underwood--for such an outstanding job that he has done in 
bringing out the issues affecting the good citizens and the 
people of Guam.
    We go through this exercise, Mr. Chairman, over the years, 
and always trying to figure where the--sometimes we're not even 
on the map, sometimes we're not even on the radar screen. It's 
always been one of my basic criticisms is that the territories 
never seem to get the proper attention that they should get 
from the Members as well as from this institution. But I think 
today's hearing bears quite well what we've accomplished, not 
only the legislation affecting the good people of Guam, but 
certainly the Senate Bill 210, that also has some things in it 
that affects other territories. And, I sincerely hope that with 
the proper amendments that I will be offering at the 
appropriate time we will resolve the concerns that Mrs. Moses 
had raised earlier, and that other provisions of Senate Bill 
210 that will be helpful to the other insular areas.
    And with that, Mr. Chairman, I want to thank you for your 
patience, thank the good leaders of the people of Guam, and as 
they say in Samoa, ``In sus ma'ase.''
    [Laughter.]
    Mr. Underwood. Yes, I would like to----
    Mr. Peterson. I would yield to the gentleman from Guam.
    Mr. Underwood. I would also like to take this opportunity 
to thank you, Mr. Chairman, for your diligence in this effort 
as well as all the Members who did take some time to come 
before the committee.
    I also want to enter into the record the statements of 
Frank San Nicholas, Ron Rivera, and Darrell Doss, who is 
standing here before us. And, I want to recognize that Mr. 
Doss, has a very special relationship to Guam, along with many 
other men of his age and participated in the liberation of Guam 
from the hands of the Japanese, and I wanted a chance to 
recognize Mr. Doss.
    [The prepared statement of Mr. San Nicholas may be found at 
end of hearing.]
    [The prepared statement of Mr. Rivera may be found at end 
of hearing.]
    [The prepared statement of Mr. Doss may be found at end of 
hearing.]
    Mr. Peterson. The Chair thanks the gentleman.
    Again, I would like to thank all of you for participating, 
for the fine job you did, and how well prepared you were.
    Adios. There is no further business.
    Adjourned.
    [Whereupon, at 3:12 p.m., the committee was adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Jose Guevara, Vice President, the Filipino Community of 
                                  Guam

    Mr. Chairman and Members of the Resources Committee,
    I am Jose Guevara, Vice President of the Filipino Community 
of Guam, representing some 60 Filipino-American organizations. 
I am proud to say, Mr. Chairman, that about 30 percent of 
Guam's population today is of Filipino origin or descent and 
the Filipino community is an integral part of the wonderful 
island of Guam.
    The Guam Commonwealth Act is a matter of considerable 
interest to the Filipino Community of Guam. For those of us who 
have permanently made Guam our home--as opposed to those who 
eventually move to other parts of the United States--the issues 
raised in the Commonwealth Act cause us to come to terms with 
our history as Filipinos and our status as Americans.
    Given the history of the political relations between our 
mother country, the Philippines, and our adopted home, the 
United States, Filipino Americans understand the difficulties 
of colonial relationships. Our history as Filipinos also 
illustrates, like the American experience itself, that 
colonialism is not a legitimate form of government.
    There is a natural affinity amongst Filipinos to appreciate 
and understand the Commonwealth Act's proposal to establish an 
autonomous and internally self-governing entity called the 
``Commonwealth of Guam.'' For those of us who make Guam our 
home, self-government for us has even more meaning. The various 
ways in which the Commonwealth Act provides for the devolution 
of powers from the Congress to the people of Guam, will have an 
inescapable impact to our economic potential, stable economic 
patterns, the enactment of laws that make sense for Guam and 
the maximization of our economic role in the Asia-Pacific 
region. These things would be done with no threat to the U.S. 
military's needs.
    Commonwealth is clearly not independence which our mother 
country fought for, negotiated and achieved. Nor is 
``Commonwealth'' Statehood as is being pursued by Puerto Rico. 
One of the three (3) entities taken by the U.S. during the 
Spanish-American War of 1898, the Philippines was encouraged to 
pursue independence, Puerto Rico is now being encouraged to 
pursue Statehood, and Guam is being offered neither. 
Recognizing this, the people of Guam have sought a middle road 
off an autonomous Commonwealth status on the road to 
decolonization. Because of Guam's uniqueness--and because no 
one is suggesting Guam should be a State--we believe a special 
dispensation is necessary.
                                ------                                


                        Statement of Ron Rivera

    Mr. Chairman and Members of the Committee on Resources:
    I am honored to submit this statement in support of H.R. 
100, the Guam Commonwealth Act as a Chamorro, as a concerned 
citizen . . . and a father who has great hopes for the future 
of his children and grandchildren, a future rooted in their 
homeland of Guam.
    The draft Guam Commonwealth Act embodies a process for the 
decolonization of Guam. This is the heart of the Commonwealth 
Act, and it is what makes this Act both unique and acceptable 
to the Chamorro people. Decolonization is not something that 
can not be watered down or compromised--no matter what 
legislative language is finally agreed upon, the process of 
decolonization must be explicit and it must meet international 
standards.
    We, the Chamorro people who have been colonized by military 
conquest, cannot risk our future self-determination in a bill 
that is equivocal on this point. We hope that Congress agrees 
with us on the absolute necessity to approach this issue with 
sensitivity and clarity. While there may be some new approaches 
to the legislative language, it must meet the basic criteria of 
the decolonization process that the United States has accepted 
in international definitions applied to other colonies.
    There are fundamental principles that must be contained in 
an interim Commonwealth status in order for true decolonization 
to occur. First, a decolonization process must be initiated by 
a legitimate process of Chamorro self determination. Second, 
Guam must be granted control of immigration. Third, the 
Commonwealth Act must contain a mutual consent provision. These 
fundamental principles must be included in whatever 
Commonwealth Act Congress adopts.
    The United States has a moral problem in justifying its 
continued colonial administration of Guam. The people of Guam 
have proposed, in the Guam Commonwealth Act, a political 
solution to this moral problem that meets their fundamental 
concerns and is consistent with international standards. The 
Guam proposal lays out quite clearly a solution that resolves 
Guam's colonial status. As a political solution, we are willing 
to engage the political processes of the U.S. govermnent, such 
as this Congress, but what we are not willing to do is allow 
these political processes to dictate solutions that are 
weighted only to Federal concerns.
    Guam has been on its quest for Commonwealth for over 10 
years. A political solution along the lines that we propose is 
within the realm of reality if only Congress and the President 
would exercise the will and courage to resolve Guam's status. 
This courage means an acceptance of the stark reality of Guam's 
present colonial status, and a determination to work with Guam 
on a solution. The people of Guam have shown our own political 
will in this process, and we have shown the courage to 
challenge the colonial status quo.
    We seek the common ground with the U.S. on many contentious 
issues, and we seek a new relationship that is suited for our 
island. We have offered political solutions that are neither 
radical nor unrealistic. We seek to break down barriers that 
separate us from other Americans. If these barriers were 
physical, it may be easier to understand. If we had a 
Brandenburg gate, a Berlin Wall, or a Demilitarized zone, 
perhaps then we would be able to point to the barriers. 
Instead, we have Supreme Court opinions and Federal laws that 
create institutional barriers to freedom.
    The U.S. Constitution, revered worldwide as a crucible of 
freedom and justice, is wielded against territories as a tool 
of repression. This is not how things ought to be. We are here 
to challenge old thinking, to change the colonial relationship, 
and to tear down the barriers to our freedom.
                                ------                                


                      Statement of Darrell O. Doss

    It is an honor to be here today to represent all the 
veterans who fought to free Guam from enemy occupation 53 years 
ago. The 7,000 marines, soldiers, sailors, airmen and Coast 
Guard who were killed or wounded in action during the battle 
that raged for three weeks in the summer of 1944 are joined 
today by the living World War II veterans in calling on 
Congress to grant a new status to Guam.
    At the time of our battle in 1944, we were honored to be 
called ``the liberators'' by our fellow Americans, the 
Chamorros of Guam. But did we really liberate Guam? It is sad 
to say that we did not. To this day, our fellow Americans in 
the western Pacific are one of the last colonies in the world. 
However, you, as Members of Congress, have the power to 
accomplish today that which we were unable to--to liberate Guam 
and grant the people of Guam the same freedom of self 
government as we have in our fifty states.
    Guam has been a possession of the United States since 1898, 
with the exception of 31 months when they suffered under the 
cruel treatment of our then enemy. During that period, they 
were enslaved, tortured and executed. Of the 20,000 Guamanians 
at that time, over 1,500 died during the harsh occupation. Yet 
the people of Guam never lost faith with America. Even though 
it meant beatings, torture and even death for many of them, 
they never abandoned America. They helped feed, shelter, and 
hide George Tweed, the single surviving American sailor who hid 
out during the Japanese occupation. To them, this sailor was a 
symbol of the country they loved--America.
    Guam fist applied for American citizenship in 1902, but it 
wasn't granted until 48 years later in 1950. In 1936, B.J. 
Bordallo and Francisco Leon Guerrero came to our nation's 
capitol to again ask for citizenship. Mr. Leon Guerrero stated 
``the people of Guam know but one `ism' and that is 
Americanism.'' That statement is as true today as it was 61 
years ago.
    Because of Guam's loyalty to America, they have the highest 
per capita enlistments in our military services than any state 
in the Union. During the Vietnam War, (not a conflict), they 
had the highest per capita casualties than of any of our 
states.
    I wish time would permit me to tell the story of a few of 
these brave people and what they endured because of their love 
for the United States, a love which I feel has not been 
returned in the policies of our government. I would tell you 
the stories of Beatrice Emsley, Antonio and Josefa Artero, 
Father Duenas (the martyred catholic priest, who was beheaded), 
B.J. Bordallo, the mother of Guam's current First Lady (Geri 
Gutierrez), Francisco Leon Guerrero, Mrs. Agueda Johnston, 
Joaquin Limtiaco and the eight Merizo co-liberators. I am sure 
that some of you would have tears in your eyes, just as we 
liberators had tears in our eyes when we liberated the 
concentration camps. These are the people I am asking you to 
support and allow them to have a closer and more democratic 
relationship with America. Is that too much to ask? For the 
people of Guam and we veterans of World War II, I hope you can 
find it in your heart to do what is right and give justice to 
our fellow Americans on Guam.
    We call the United States the land of liberty with freedom 
and justice for all. It saddens me to know that this is not 
true because of the way we treat our fellow citizens on the 
island of Guam. There is no doubt that some of America's most 
loyal and patriotic citizens are from Guam. They have remained 
staunchly faithful to the United States, even though we treat 
them as less than our equals. It is time that justice be done.
    At this time I ask you to please vote for true justice on 
this very important issue and let's make the United States 
truly the land of liberty with freedom and justice for all, 
including Guam.
    As time marches on, we who fought to free Guam shall be 
gone from this earth. So on behalf of all the veterans of the 
Guam campaign, I plead with you to cast a ``yea'' vote, to 
grant these people their wish to become a commonwealth of the 
United States. In doing so, the members of this Congress shall 
share the honor we have as ``Liberators of Guam.'' Your vote 
can accomplish that which we, 75,000 strong, and backed with 
massive military arms, were apparently unable to do in 1944.
                                ------                                


  Statement of Hon. Rick Hill, a Representative in Congress from the 
                            State of Montana

    It is a real pleasure to welcome the distinguished 
witnesses for today's hearing on certain measures affecting 
some of our United States territories and the separate 
sovereign freely associated states.
    These issues affecting U.S. nationals and citizens in the 
territories as well as residents of the Pacific freely 
associated republics are part of the unique and important 
jurisdiction of the Committee on Resources for the insular 
areas.
    That is why Chairman Young scheduled this hearing on 
matters which could provide for increased local self governance 
for the people of the insular areas.
    Let me thank the witnesses from the distant Pacific islands 
for aggreeing to appear before the Committee.
    You have traveled thousands of miles to testify, and your 
efforts are appreciated.
    You are providing a substantial set of information for the 
Committee record.
    Your statements have been provided for review by all of the 
Committee Members and will be available for all those in the 
Congress as well who are not Members of the Committee or here 
today.
    One of the primary purposes of this hearing is to assist 
the insular areas, including Guam, in advancing toward greater 
local self-government.
    The statements by the witnesses today will help Congress in 
evaluating the merits of the proposals contained in S. 210, the 
Omnibus Territories Act, H.R. 2370, the Guam Judicial 
Empowerment Act, and H.R. 100, the Guam Commonwealth Act.
                                ------                                


       Statement of Hon. Peter C. Siguenza, Chief Justice of Guam

    Good morning/afternoon Chairman Don Young, Congressman 
Robert Underwood and other distinguished members of the House 
Committee on Resources. Thank you for allowing me to have the 
opportunity to speak. It is indeed an honor.
    I am here today as the Chief Justice of Guam. My rotating 
term expires in about a year and a half from now--at which time 
we justices will elect a new chief. And so--in my first and 
final appearance before you--I want to stress the importance of 
the critical matter which is before us today.
    In simple terms, H.R. 2370 would place the Judiciary of 
Guam on an equal footing with its two coordinate branches of 
government. As you will note, the inherent powers of both the 
executive and legislative branches are clearly delineated 
within the Organic Act. Only the structure of the judiciary 
lacks this kind of clarity.
    Ironically, the original local legislation which created 
the Supreme Court distinctly outlined the Court's authority--
clearly placing administrative and appellate jurisdiction with 
the Court.
    In this sense, H.R. 2370 undeniably reflects the will of 
the people. Virtually every provision within the judicial 
Empowerment Act before you today mirrors the 10 year drafting 
process which culminated in the passage of the bill in 1992.
    It is significant to point out that no effort was made to 
alter the bill for the next three years. The legislation sat 
intact and untouched for nearly four years--that is, up until 
the seating of the Court in April of 1996.
    At that time, on the eve of the confirmation hearings of 
the justices--efforts were undertaken to alter the legislation 
and curtail the authority of the Court. In effect, what had 
taken a decade to build was summarily undone within three 
months.
    In fact, since the Court's inception--there have been no 
fewer than four legislative attempts to undermine the Court's 
administrative authority and--even as recently as last month--a 
successful legislative bid to limit this Court's legal 
jurisdiction.
    Let me briefly share with you the chronology of this Court:

    1973--Guam Public Law 12-85 is enacted, envisioning a 
judiciary with a local supreme court at the helm.
    1974--The first Supreme Court of Guam is established.
    1977--The U.S. Supreme Court strikes down Guam's Supreme 
Court.
    1997--That same year, Guam convenes a constitutional 
convention. The foundation is laid to establish a Supreme Court 
as the judicial and administrative head of the judiciary. This 
draft constitution is submitted and approved by the U.S. 
Congress.
    1984--The Omnibus Territories Act amends the Organic Act to 
allow for the creation of a Supreme Court.
    1993--The Frank G. Lujan Memorial Court Reorganization Act 
is signed into law after its 1992 passage in the 21st 
legislature. The bill is patterned after the 1973 local 
legislation, 1977 draft constitution and provisions from 
various state constitutions.
    The legislation calls for a Supreme Court of Guam which 
will ``handle all those matters customarily handled by state 
supreme courts . . . [handle] court rules and court 
administration. Thus, administrative functions of the courts, 
formerly lying either with the Judicial Council or the District 
Court of Guam, are placed with the Supreme Court of Guam.
    1995--In November, myself, Janet Healy Weeks and Monessa G. 
Lujan are nominated to the Supreme Court.
    1996--In March, hours after the justices of the Supreme 
Court are confirmed, the 23rd Guam legislature passes bill 404 
which removes certain inherent powers from the Supreme Court. A 
second bill, bill 494, aims to strip the supervisory 
jurisdiction of the Supreme Court over all lower courts. That 
bill is debated, but tabled by the legislative committee on the 
Judiciary.
    1996--Eight months later in December, the legislature 
attaches the contents the shelved bill 494 as a ``midnight'' 
rider to bill 776. The legislation passes and is vetoed by the 
Governor. An override attempt fails by only a slim margin.
    In short--this is the problem faced by the Supreme Court of 
Guam, and why we seek to have this court established within the 
Organic Act. Permit me the luxury of overstating the obvious 
when I say that a Judiciary--or any branch of government--
cannot function independently if another branch can modify or 
strip it of its powers at will. The bill before this 
distinguished panel will ensure that like the inherent power of 
the executive and legislative branches--the corresponding 
authority of the third branch cannot be tampered with on whim.
    There are those who espouse the view that the Judicial 
Council of Guam is the policymaker for the judiciary. Allow me 
to let the record speak for this court when I say that in the 
eight years it took lawmakers to craft and fine-tune the bill 
that created the Supreme Court of Guam--the notion of a 
judicial council as the administrative arm of the judiciary was 
explored and subsequently rejected in that role. The Frank G. 
Lujan Memorial Court Reorganization Act which created the court 
explicitly envisioned an advisory role for the council.
    And since that time, the will of the people has not 
changed. A recent survey conducted on Guam by your colleague 
and our delegate, Congressman Robert Underwood--in addition to 
a poll conducted by the Guam Bar Association--along with 
numerous media editorials--have each independently and 
resoundingly confirmed the original legislative concept of the 
Supreme Court at the administrative helm of the judiciary.
    This is not a structure without precedent. The Judicial 
Empowerment Act would not only restore the initial intent of 
local legislation creating the court, but would also confer 
upon it the same inherent authority exercised by judiciaries in 
the fifty states and other U.S. jurisdictions.
    In closing, I leave you with the words of Alexander 
Hamilton who noted over 200 years ago--``the judiciary is 
beyond comparison the weakest of the three departments of 
power--all possible care is requisite to enable it to defend 
itself against their attacks.''
    Thank you Mr. Chairman, Congressman Underwood and other 
distinguished members of this panel for your time and 
attention.
    (I have brought with me copies of the judicial sections 
from the respective constitutions of every state and U.S. 
jurisdiction should any of you wish to view them.)

[GRAPHIC] [TIFF OMITTED] T6318.001

[GRAPHIC] [TIFF OMITTED] T6318.002

[GRAPHIC] [TIFF OMITTED] T6318.003

[GRAPHIC] [TIFF OMITTED] T6318.004

[GRAPHIC] [TIFF OMITTED] T6318.005

[GRAPHIC] [TIFF OMITTED] T6318.006

[GRAPHIC] [TIFF OMITTED] T6318.007

[GRAPHIC] [TIFF OMITTED] T6318.008

[GRAPHIC] [TIFF OMITTED] T6318.009

[GRAPHIC] [TIFF OMITTED] T6318.010

[GRAPHIC] [TIFF OMITTED] T6318.011

[GRAPHIC] [TIFF OMITTED] T6318.012

[GRAPHIC] [TIFF OMITTED] T6318.013

[GRAPHIC] [TIFF OMITTED] T6318.014

[GRAPHIC] [TIFF OMITTED] T6318.015

[GRAPHIC] [TIFF OMITTED] T6318.016

[GRAPHIC] [TIFF OMITTED] T6318.017

[GRAPHIC] [TIFF OMITTED] T6318.018

[GRAPHIC] [TIFF OMITTED] T6318.019

[GRAPHIC] [TIFF OMITTED] T6318.020

[GRAPHIC] [TIFF OMITTED] T6318.021

[GRAPHIC] [TIFF OMITTED] T6318.022

[GRAPHIC] [TIFF OMITTED] T6318.023

[GRAPHIC] [TIFF OMITTED] T6318.024

[GRAPHIC] [TIFF OMITTED] T6318.025

[GRAPHIC] [TIFF OMITTED] T6318.026

[GRAPHIC] [TIFF OMITTED] T6318.027

[GRAPHIC] [TIFF OMITTED] T6318.028

[GRAPHIC] [TIFF OMITTED] T6318.029

[GRAPHIC] [TIFF OMITTED] T6318.030

[GRAPHIC] [TIFF OMITTED] T6318.031

[GRAPHIC] [TIFF OMITTED] T6318.032

[GRAPHIC] [TIFF OMITTED] T6318.033

[GRAPHIC] [TIFF OMITTED] T6318.034

[GRAPHIC] [TIFF OMITTED] T6318.035

[GRAPHIC] [TIFF OMITTED] T6318.036

[GRAPHIC] [TIFF OMITTED] T6318.037

[GRAPHIC] [TIFF OMITTED] T6318.038

[GRAPHIC] [TIFF OMITTED] T6318.039

[GRAPHIC] [TIFF OMITTED] T6318.040

[GRAPHIC] [TIFF OMITTED] T6318.041

[GRAPHIC] [TIFF OMITTED] T6318.042

[GRAPHIC] [TIFF OMITTED] T6318.043

[GRAPHIC] [TIFF OMITTED] T6318.044

[GRAPHIC] [TIFF OMITTED] T6318.045

[GRAPHIC] [TIFF OMITTED] T6318.046

[GRAPHIC] [TIFF OMITTED] T6318.047

[GRAPHIC] [TIFF OMITTED] T6318.048

[GRAPHIC] [TIFF OMITTED] T6318.049

[GRAPHIC] [TIFF OMITTED] T6318.050

[GRAPHIC] [TIFF OMITTED] T6318.051

[GRAPHIC] [TIFF OMITTED] T6318.052

[GRAPHIC] [TIFF OMITTED] T6318.053

[GRAPHIC] [TIFF OMITTED] T6318.054

[GRAPHIC] [TIFF OMITTED] T6318.055

[GRAPHIC] [TIFF OMITTED] T6318.056

[GRAPHIC] [TIFF OMITTED] T6318.057

[GRAPHIC] [TIFF OMITTED] T6318.058

[GRAPHIC] [TIFF OMITTED] T6318.059

[GRAPHIC] [TIFF OMITTED] T6318.060

[GRAPHIC] [TIFF OMITTED] T6318.061

[GRAPHIC] [TIFF OMITTED] T6318.062

[GRAPHIC] [TIFF OMITTED] T6318.063

[GRAPHIC] [TIFF OMITTED] T6318.064

[GRAPHIC] [TIFF OMITTED] T6318.065

[GRAPHIC] [TIFF OMITTED] T6318.066

[GRAPHIC] [TIFF OMITTED] T6318.067

[GRAPHIC] [TIFF OMITTED] T6318.068

[GRAPHIC] [TIFF OMITTED] T6318.069

[GRAPHIC] [TIFF OMITTED] T6318.070

[GRAPHIC] [TIFF OMITTED] T6318.071

[GRAPHIC] [TIFF OMITTED] T6318.072

[GRAPHIC] [TIFF OMITTED] T6318.073

[GRAPHIC] [TIFF OMITTED] T6318.074

[GRAPHIC] [TIFF OMITTED] T6318.075

[GRAPHIC] [TIFF OMITTED] T6318.076

[GRAPHIC] [TIFF OMITTED] T6318.077

[GRAPHIC] [TIFF OMITTED] T6318.078

[GRAPHIC] [TIFF OMITTED] T6318.079

[GRAPHIC] [TIFF OMITTED] T6318.080

[GRAPHIC] [TIFF OMITTED] T6318.081

[GRAPHIC] [TIFF OMITTED] T6318.082

[GRAPHIC] [TIFF OMITTED] T6318.083

[GRAPHIC] [TIFF OMITTED] T6318.084

[GRAPHIC] [TIFF OMITTED] T6318.085

[GRAPHIC] [TIFF OMITTED] T6318.086

[GRAPHIC] [TIFF OMITTED] T6318.087

[GRAPHIC] [TIFF OMITTED] T6318.088

[GRAPHIC] [TIFF OMITTED] T6318.089

[GRAPHIC] [TIFF OMITTED] T6318.090

[GRAPHIC] [TIFF OMITTED] T6318.091

[GRAPHIC] [TIFF OMITTED] T6318.092

[GRAPHIC] [TIFF OMITTED] T6318.093

[GRAPHIC] [TIFF OMITTED] T6318.094

[GRAPHIC] [TIFF OMITTED] T6318.095

[GRAPHIC] [TIFF OMITTED] T6318.096

[GRAPHIC] [TIFF OMITTED] T6318.097

[GRAPHIC] [TIFF OMITTED] T6318.098

[GRAPHIC] [TIFF OMITTED] T6318.099

[GRAPHIC] [TIFF OMITTED] T6318.100

[GRAPHIC] [TIFF OMITTED] T6318.101

[GRAPHIC] [TIFF OMITTED] T6318.102

[GRAPHIC] [TIFF OMITTED] T6318.103

[GRAPHIC] [TIFF OMITTED] T6318.104

[GRAPHIC] [TIFF OMITTED] T6318.105

[GRAPHIC] [TIFF OMITTED] T6318.106

[GRAPHIC] [TIFF OMITTED] T6318.107

[GRAPHIC] [TIFF OMITTED] T6318.108

[GRAPHIC] [TIFF OMITTED] T6318.109

[GRAPHIC] [TIFF OMITTED] T6318.110

[GRAPHIC] [TIFF OMITTED] T6318.111

[GRAPHIC] [TIFF OMITTED] T6318.112

[GRAPHIC] [TIFF OMITTED] T6318.113

[GRAPHIC] [TIFF OMITTED] T6318.114

[GRAPHIC] [TIFF OMITTED] T6318.115

[GRAPHIC] [TIFF OMITTED] T6318.116

[GRAPHIC] [TIFF OMITTED] T6318.117

[GRAPHIC] [TIFF OMITTED] T6318.118

[GRAPHIC] [TIFF OMITTED] T6318.119

[GRAPHIC] [TIFF OMITTED] T6318.120

[GRAPHIC] [TIFF OMITTED] T6318.121

[GRAPHIC] [TIFF OMITTED] T6318.122

[GRAPHIC] [TIFF OMITTED] T6318.123

[GRAPHIC] [TIFF OMITTED] T6318.124

[GRAPHIC] [TIFF OMITTED] T6318.125

[GRAPHIC] [TIFF OMITTED] T6318.126

[GRAPHIC] [TIFF OMITTED] T6318.127

[GRAPHIC] [TIFF OMITTED] T6318.128

[GRAPHIC] [TIFF OMITTED] T6318.129

[GRAPHIC] [TIFF OMITTED] T6318.130

[GRAPHIC] [TIFF OMITTED] T6318.131

[GRAPHIC] [TIFF OMITTED] T6318.132

[GRAPHIC] [TIFF OMITTED] T6318.133

[GRAPHIC] [TIFF OMITTED] T6318.134

[GRAPHIC] [TIFF OMITTED] T6318.135

[GRAPHIC] [TIFF OMITTED] T6318.136

[GRAPHIC] [TIFF OMITTED] T6318.137

[GRAPHIC] [TIFF OMITTED] T6318.138

[GRAPHIC] [TIFF OMITTED] T6318.139

[GRAPHIC] [TIFF OMITTED] T6318.140

[GRAPHIC] [TIFF OMITTED] T6318.141

[GRAPHIC] [TIFF OMITTED] T6318.142

[GRAPHIC] [TIFF OMITTED] T6318.143

[GRAPHIC] [TIFF OMITTED] T6318.144

[GRAPHIC] [TIFF OMITTED] T6318.145

[GRAPHIC] [TIFF OMITTED] T6318.146

[GRAPHIC] [TIFF OMITTED] T6318.147

[GRAPHIC] [TIFF OMITTED] T6318.148

[GRAPHIC] [TIFF OMITTED] T6318.149

[GRAPHIC] [TIFF OMITTED] T6318.150

[GRAPHIC] [TIFF OMITTED] T6318.151

[GRAPHIC] [TIFF OMITTED] T6318.152

[GRAPHIC] [TIFF OMITTED] T6318.153

[GRAPHIC] [TIFF OMITTED] T6318.154

[GRAPHIC] [TIFF OMITTED] T6318.155

[GRAPHIC] [TIFF OMITTED] T6318.156

[GRAPHIC] [TIFF OMITTED] T6318.157

[GRAPHIC] [TIFF OMITTED] T6318.158

[GRAPHIC] [TIFF OMITTED] T6318.159

[GRAPHIC] [TIFF OMITTED] T6318.160

[GRAPHIC] [TIFF OMITTED] T6318.161

[GRAPHIC] [TIFF OMITTED] T6318.162

[GRAPHIC] [TIFF OMITTED] T6318.163

[GRAPHIC] [TIFF OMITTED] T6318.164

[GRAPHIC] [TIFF OMITTED] T6318.165

[GRAPHIC] [TIFF OMITTED] T6318.166

[GRAPHIC] [TIFF OMITTED] T6318.167

[GRAPHIC] [TIFF OMITTED] T6318.168

[GRAPHIC] [TIFF OMITTED] T6318.169

[GRAPHIC] [TIFF OMITTED] T6318.170

[GRAPHIC] [TIFF OMITTED] T6318.171

[GRAPHIC] [TIFF OMITTED] T6318.172

[GRAPHIC] [TIFF OMITTED] T6318.173

[GRAPHIC] [TIFF OMITTED] T6318.174

[GRAPHIC] [TIFF OMITTED] T6318.175

[GRAPHIC] [TIFF OMITTED] T6318.176

[GRAPHIC] [TIFF OMITTED] T6318.177

[GRAPHIC] [TIFF OMITTED] T6318.178

[GRAPHIC] [TIFF OMITTED] T6318.179

[GRAPHIC] [TIFF OMITTED] T6318.180

[GRAPHIC] [TIFF OMITTED] T6318.181

[GRAPHIC] [TIFF OMITTED] T6318.182

[GRAPHIC] [TIFF OMITTED] T6318.183

[GRAPHIC] [TIFF OMITTED] T6318.184

[GRAPHIC] [TIFF OMITTED] T6318.185

[GRAPHIC] [TIFF OMITTED] T6318.186

[GRAPHIC] [TIFF OMITTED] T6318.187

[GRAPHIC] [TIFF OMITTED] T6318.188

[GRAPHIC] [TIFF OMITTED] T6318.189

[GRAPHIC] [TIFF OMITTED] T6318.190

[GRAPHIC] [TIFF OMITTED] T6318.191

[GRAPHIC] [TIFF OMITTED] T6318.192

[GRAPHIC] [TIFF OMITTED] T6318.193

[GRAPHIC] [TIFF OMITTED] T6318.194

[GRAPHIC] [TIFF OMITTED] T6318.195

[GRAPHIC] [TIFF OMITTED] T6318.196

[GRAPHIC] [TIFF OMITTED] T6318.197

[GRAPHIC] [TIFF OMITTED] T6318.198

[GRAPHIC] [TIFF OMITTED] T6318.199

[GRAPHIC] [TIFF OMITTED] T6318.200

[GRAPHIC] [TIFF OMITTED] T6318.201

[GRAPHIC] [TIFF OMITTED] T6318.202

[GRAPHIC] [TIFF OMITTED] T6318.203

[GRAPHIC] [TIFF OMITTED] T6318.204

[GRAPHIC] [TIFF OMITTED] T6318.205

[GRAPHIC] [TIFF OMITTED] T6318.206

[GRAPHIC] [TIFF OMITTED] T6318.207

[GRAPHIC] [TIFF OMITTED] T6318.208

[GRAPHIC] [TIFF OMITTED] T6318.209

[GRAPHIC] [TIFF OMITTED] T6318.210

[GRAPHIC] [TIFF OMITTED] T6318.211

[GRAPHIC] [TIFF OMITTED] T6318.212

[GRAPHIC] [TIFF OMITTED] T6318.213

[GRAPHIC] [TIFF OMITTED] T6318.214

[GRAPHIC] [TIFF OMITTED] T6318.215

[GRAPHIC] [TIFF OMITTED] T6318.216

[GRAPHIC] [TIFF OMITTED] T6318.217

[GRAPHIC] [TIFF OMITTED] T6318.218

[GRAPHIC] [TIFF OMITTED] T6318.219

[GRAPHIC] [TIFF OMITTED] T6318.220

[GRAPHIC] [TIFF OMITTED] T6318.221

[GRAPHIC] [TIFF OMITTED] T6318.222

[GRAPHIC] [TIFF OMITTED] T6318.223

[GRAPHIC] [TIFF OMITTED] T6318.224

[GRAPHIC] [TIFF OMITTED] T6318.225

[GRAPHIC] [TIFF OMITTED] T6318.226

[GRAPHIC] [TIFF OMITTED] T6318.227

[GRAPHIC] [TIFF OMITTED] T6318.228

[GRAPHIC] [TIFF OMITTED] T6318.229

[GRAPHIC] [TIFF OMITTED] T6318.230

[GRAPHIC] [TIFF OMITTED] T6318.231

[GRAPHIC] [TIFF OMITTED] T6318.232

[GRAPHIC] [TIFF OMITTED] T6318.233

[GRAPHIC] [TIFF OMITTED] T6318.234

[GRAPHIC] [TIFF OMITTED] T6318.235

[GRAPHIC] [TIFF OMITTED] T6318.236

[GRAPHIC] [TIFF OMITTED] T6318.237

[GRAPHIC] [TIFF OMITTED] T6318.238

[GRAPHIC] [TIFF OMITTED] T6318.239

[GRAPHIC] [TIFF OMITTED] T6318.240

[GRAPHIC] [TIFF OMITTED] T6318.241

[GRAPHIC] [TIFF OMITTED] T6318.242

[GRAPHIC] [TIFF OMITTED] T6318.243

[GRAPHIC] [TIFF OMITTED] T6318.244

[GRAPHIC] [TIFF OMITTED] T6318.245

[GRAPHIC] [TIFF OMITTED] T6318.246

[GRAPHIC] [TIFF OMITTED] T6318.247

[GRAPHIC] [TIFF OMITTED] T6318.248

[GRAPHIC] [TIFF OMITTED] T6318.249

[GRAPHIC] [TIFF OMITTED] T6318.250

[GRAPHIC] [TIFF OMITTED] T6318.251

[GRAPHIC] [TIFF OMITTED] T6318.252

[GRAPHIC] [TIFF OMITTED] T6318.253

[GRAPHIC] [TIFF OMITTED] T6318.254

[GRAPHIC] [TIFF OMITTED] T6318.255

[GRAPHIC] [TIFF OMITTED] T6318.256

[GRAPHIC] [TIFF OMITTED] T6318.257

[GRAPHIC] [TIFF OMITTED] T6318.258

[GRAPHIC] [TIFF OMITTED] T6318.259

[GRAPHIC] [TIFF OMITTED] T6318.260

[GRAPHIC] [TIFF OMITTED] T6318.261

[GRAPHIC] [TIFF OMITTED] T6318.262

[GRAPHIC] [TIFF OMITTED] T6318.263

[GRAPHIC] [TIFF OMITTED] T6318.264

[GRAPHIC] [TIFF OMITTED] T6318.265

[GRAPHIC] [TIFF OMITTED] T6318.266

[GRAPHIC] [TIFF OMITTED] T6318.267

[GRAPHIC] [TIFF OMITTED] T6318.268

[GRAPHIC] [TIFF OMITTED] T6318.269

[GRAPHIC] [TIFF OMITTED] T6318.270

[GRAPHIC] [TIFF OMITTED] T6318.271

[GRAPHIC] [TIFF OMITTED] T6318.272

[GRAPHIC] [TIFF OMITTED] T6318.273

[GRAPHIC] [TIFF OMITTED] T6318.274

[GRAPHIC] [TIFF OMITTED] T6318.275

[GRAPHIC] [TIFF OMITTED] T6318.276

[GRAPHIC] [TIFF OMITTED] T6318.277

[GRAPHIC] [TIFF OMITTED] T6318.278

[GRAPHIC] [TIFF OMITTED] T6318.279

[GRAPHIC] [TIFF OMITTED] T6318.280

[GRAPHIC] [TIFF OMITTED] T6318.281

[GRAPHIC] [TIFF OMITTED] T6318.282

[GRAPHIC] [TIFF OMITTED] T6318.283

[GRAPHIC] [TIFF OMITTED] T6318.284

[GRAPHIC] [TIFF OMITTED] T6318.285

[GRAPHIC] [TIFF OMITTED] T6318.286

[GRAPHIC] [TIFF OMITTED] T6318.287

[GRAPHIC] [TIFF OMITTED] T6318.288

[GRAPHIC] [TIFF OMITTED] T6318.289

[GRAPHIC] [TIFF OMITTED] T6318.290

[GRAPHIC] [TIFF OMITTED] T6318.291

[GRAPHIC] [TIFF OMITTED] T6318.292

[GRAPHIC] [TIFF OMITTED] T6318.293

[GRAPHIC] [TIFF OMITTED] T6318.294

[GRAPHIC] [TIFF OMITTED] T6318.295

[GRAPHIC] [TIFF OMITTED] T6318.296

[GRAPHIC] [TIFF OMITTED] T6318.297

[GRAPHIC] [TIFF OMITTED] T6318.298

[GRAPHIC] [TIFF OMITTED] T6318.299

[GRAPHIC] [TIFF OMITTED] T6318.300

[GRAPHIC] [TIFF OMITTED] T6318.301

[GRAPHIC] [TIFF OMITTED] T6318.302

[GRAPHIC] [TIFF OMITTED] T6318.303

[GRAPHIC] [TIFF OMITTED] T6318.304

[GRAPHIC] [TIFF OMITTED] T6318.305

[GRAPHIC] [TIFF OMITTED] T6318.306

[GRAPHIC] [TIFF OMITTED] T6318.307

[GRAPHIC] [TIFF OMITTED] T6318.308

[GRAPHIC] [TIFF OMITTED] T6318.309

[GRAPHIC] [TIFF OMITTED] T6318.310

[GRAPHIC] [TIFF OMITTED] T6318.311

[GRAPHIC] [TIFF OMITTED] T6318.312

[GRAPHIC] [TIFF OMITTED] T6318.313

[GRAPHIC] [TIFF OMITTED] T6318.314

[GRAPHIC] [TIFF OMITTED] T6318.315

[GRAPHIC] [TIFF OMITTED] T6318.316

[GRAPHIC] [TIFF OMITTED] T6318.317

[GRAPHIC] [TIFF OMITTED] T6318.318

[GRAPHIC] [TIFF OMITTED] T6318.319

[GRAPHIC] [TIFF OMITTED] T6318.320

[GRAPHIC] [TIFF OMITTED] T6318.321

[GRAPHIC] [TIFF OMITTED] T6318.322

[GRAPHIC] [TIFF OMITTED] T6318.323

[GRAPHIC] [TIFF OMITTED] T6318.324

[GRAPHIC] [TIFF OMITTED] T6318.325

[GRAPHIC] [TIFF OMITTED] T6318.326

[GRAPHIC] [TIFF OMITTED] T6318.327

[GRAPHIC] [TIFF OMITTED] T6318.328

[GRAPHIC] [TIFF OMITTED] T6318.329

[GRAPHIC] [TIFF OMITTED] T6318.330

[GRAPHIC] [TIFF OMITTED] T6318.331

[GRAPHIC] [TIFF OMITTED] T6318.332

[GRAPHIC] [TIFF OMITTED] T6318.333

[GRAPHIC] [TIFF OMITTED] T6318.334

[GRAPHIC] [TIFF OMITTED] T6318.335

[GRAPHIC] [TIFF OMITTED] T6318.336

[GRAPHIC] [TIFF OMITTED] T6318.337

[GRAPHIC] [TIFF OMITTED] T6318.338

[GRAPHIC] [TIFF OMITTED] T6318.339

[GRAPHIC] [TIFF OMITTED] T6318.340

[GRAPHIC] [TIFF OMITTED] T6318.341

[GRAPHIC] [TIFF OMITTED] T6318.342

[GRAPHIC] [TIFF OMITTED] T6318.343

[GRAPHIC] [TIFF OMITTED] T6318.344

[GRAPHIC] [TIFF OMITTED] T6318.345

[GRAPHIC] [TIFF OMITTED] T6318.346

[GRAPHIC] [TIFF OMITTED] T6318.347

[GRAPHIC] [TIFF OMITTED] T6318.348

[GRAPHIC] [TIFF OMITTED] T6318.349

[GRAPHIC] [TIFF OMITTED] T6318.350

[GRAPHIC] [TIFF OMITTED] T6318.351

[GRAPHIC] [TIFF OMITTED] T6318.352

[GRAPHIC] [TIFF OMITTED] T6318.353

[GRAPHIC] [TIFF OMITTED] T6318.354

[GRAPHIC] [TIFF OMITTED] T6318.355

[GRAPHIC] [TIFF OMITTED] T6318.356

[GRAPHIC] [TIFF OMITTED] T6318.357

[GRAPHIC] [TIFF OMITTED] T6318.358

[GRAPHIC] [TIFF OMITTED] T6318.359

[GRAPHIC] [TIFF OMITTED] T6318.360

[GRAPHIC] [TIFF OMITTED] T6318.361

[GRAPHIC] [TIFF OMITTED] T6318.362

[GRAPHIC] [TIFF OMITTED] T6318.363

[GRAPHIC] [TIFF OMITTED] T6318.364

[GRAPHIC] [TIFF OMITTED] T6318.365

[GRAPHIC] [TIFF OMITTED] T6318.366

[GRAPHIC] [TIFF OMITTED] T6318.367

[GRAPHIC] [TIFF OMITTED] T6318.368

[GRAPHIC] [TIFF OMITTED] T6318.369

[GRAPHIC] [TIFF OMITTED] T6318.370

[GRAPHIC] [TIFF OMITTED] T6318.371

[GRAPHIC] [TIFF OMITTED] T6318.372

[GRAPHIC] [TIFF OMITTED] T6318.373

[GRAPHIC] [TIFF OMITTED] T6318.374

[GRAPHIC] [TIFF OMITTED] T6318.375

[GRAPHIC] [TIFF OMITTED] T6318.376

[GRAPHIC] [TIFF OMITTED] T6318.377

[GRAPHIC] [TIFF OMITTED] T6318.378

[GRAPHIC] [TIFF OMITTED] T6318.379

[GRAPHIC] [TIFF OMITTED] T6318.380

[GRAPHIC] [TIFF OMITTED] T6318.381

[GRAPHIC] [TIFF OMITTED] T6318.382

[GRAPHIC] [TIFF OMITTED] T6318.383

[GRAPHIC] [TIFF OMITTED] T6318.384

[GRAPHIC] [TIFF OMITTED] T6318.385

[GRAPHIC] [TIFF OMITTED] T6318.386

[GRAPHIC] [TIFF OMITTED] T6318.387

[GRAPHIC] [TIFF OMITTED] T6318.388

[GRAPHIC] [TIFF OMITTED] T6318.389

[GRAPHIC] [TIFF OMITTED] T6318.390

[GRAPHIC] [TIFF OMITTED] T6318.391

[GRAPHIC] [TIFF OMITTED] T6318.392

[GRAPHIC] [TIFF OMITTED] T6318.393

[GRAPHIC] [TIFF OMITTED] T6318.394

[GRAPHIC] [TIFF OMITTED] T6318.395

[GRAPHIC] [TIFF OMITTED] T6318.396

[GRAPHIC] [TIFF OMITTED] T6318.397

[GRAPHIC] [TIFF OMITTED] T6318.398

[GRAPHIC] [TIFF OMITTED] T6318.399

[GRAPHIC] [TIFF OMITTED] T6318.400

[GRAPHIC] [TIFF OMITTED] T6318.401

[GRAPHIC] [TIFF OMITTED] T6318.402

[GRAPHIC] [TIFF OMITTED] T6318.403

[GRAPHIC] [TIFF OMITTED] T6318.404

[GRAPHIC] [TIFF OMITTED] T6318.405

[GRAPHIC] [TIFF OMITTED] T6318.406

[GRAPHIC] [TIFF OMITTED] T6318.407

[GRAPHIC] [TIFF OMITTED] T6318.408

[GRAPHIC] [TIFF OMITTED] T6318.409

[GRAPHIC] [TIFF OMITTED] T6318.410

[GRAPHIC] [TIFF OMITTED] T6318.411

[GRAPHIC] [TIFF OMITTED] T6318.412

[GRAPHIC] [TIFF OMITTED] T6318.413

[GRAPHIC] [TIFF OMITTED] T6318.414

[GRAPHIC] [TIFF OMITTED] T6318.415

[GRAPHIC] [TIFF OMITTED] T6318.416

[GRAPHIC] [TIFF OMITTED] T6318.417

[GRAPHIC] [TIFF OMITTED] T6318.418

[GRAPHIC] [TIFF OMITTED] T6318.419

[GRAPHIC] [TIFF OMITTED] T6318.420

[GRAPHIC] [TIFF OMITTED] T6318.421

[GRAPHIC] [TIFF OMITTED] T6318.422

[GRAPHIC] [TIFF OMITTED] T6318.423

[GRAPHIC] [TIFF OMITTED] T6318.424

[GRAPHIC] [TIFF OMITTED] T6318.425

[GRAPHIC] [TIFF OMITTED] T6318.426

                                  <all>
</pre></body></html>
